<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




       VA, HUD, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001

                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama                         
 VIRGIL H. GOODE, Jr., Virginia     
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Frank M. Cushing, Timothy L. Peterson, Valerie L. Baldwin,
          Dena L. Baron, and Jennifer Whitson, Staff Assistants
                                ________

                                 PART 7

                     ENVIRONMENTAL PROTECTION AGENCY

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-481 O                   WASHINGTON : 2000





                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida              
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                          Thursday, March 16, 2000.

                  U.S. ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

CAROL M. BROWNER, ADMINISTRATOR
W. MICHAEL McCABE, ACTING DEPUTY ADMINISTRATOR
MICHAEL W.S. RYAN, ACTING CHIEF FINANCIAL OFFICER
ROBERT PERCIASEPE, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND RADIATION
J. CHARLES FOX, ASSISTANT ADMINISTRATOR, OFFICE OF WATER
TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND 
    EMERGENCY RESPONSE
SUSAN H. WAYLAND, ACTING ASSISTANT ADMINISTRATOR, OFFICE OF RESEARCH 
    AND DEVELOPMENT
STEVE HERMAN, ASSISTANT ADMINISTRATOR, OFFICE OF ENFORCEMENT AND 
    COMPLIANCE ASSURANCE
MARGARET SCHNEIDER, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF 
    ENVIRONMENTAL INFORMATION
WILLIAM NITZE, ASSISTANT ADMINISTRATOR, OFFICE OF INTERNATIONAL 
    ACTIVITIES
ROMULO L. DIAZ, JR., ASSISTANT ADMINISTRATOR, OFFICE OF ADMINISTRATION 
    AND RESOURCE MANAGEMENT
ANNA WOLGAST, ACTING PRINCIPAL DEPUTY GENERAL COUNSEL
NIKKI L. TINSLEY, INSPECTOR GENERAL
RICHARD FARRELL, ASSOCIATE ADMINISTRATOR, OFFICE OF POLICY AND 
    REINVENTION
DIANE THOMPSON, ASSOCIATE ADMINISTRATOR, OFFICE OF CONGRESSIONAL AND 
    INTERGOVERNMENTAL RELATIONS
JOSEPH L. DILLON, ACTING COMPTROLLER
NANCI E. GELB, DIRECTOR, ANNUAL PLANNING AND BUDGET DIVISION

                    Chairman Walsh's Opening Remarks

    Mr. Walsh. Good morning. This is the first of two days the 
subcommittee has scheduled to take testimony on the fiscal year 
2001 budget request for the Environmental Protection Agency. 
EPA's budget request of $7,276,599,000 represents a $286 
million decrease from fiscal year 2000 funding level of 
$7,562,000,000.
    As in last year's budget request, the Agency accomplished 
this net reduction in budget authority by greatly decreasing 
the Clean Water SRF and congressionally sponsored wastewater 
and drinking water infrastructure improvement programs, and 
then increasing various operations and other programs we could 
call administration earmarks.
    Today we will hear from the Agency's Administrator, the 
Honorable Carol M. Browner. On March 29th, the subcommittee 
will conduct its second day of hearings on EPA's fiscal year 
2001 budget. However, on that day, the Agency will be 
represented by various Assistant Administrators. It is my 
intention on the 29th to focus primarily on air and water 
matters during the morning session and on Superfund, pesticides 
and toxic substances, research, enforcement, and other 
remaining issues during the afternoon.
    Because this is the first time in several years that the 
subcommittee has scheduled its hearings in this manner, I 
should note once again that today is the only day we have 
currently scheduled Administrator Browner to appear.
    Today's appearance by Ms. Browner represents the eighth 
consecutive year she has come before this subcommittee to 
testify on behalf of the Environmental Protection Agency. This 
is not only the longest consecutive streak by a wide margin of 
any EPA Administrator, I dare say Ms. Browner is one of a very 
few number of Cabinet-rank officials to have served through two 
full terms of this administration. You are certainly to be 
congratulated on your devotion to public service and, I 
suppose, for your perseverance as well.
    Throughout these years, including my year and a half as 
subcommittee Chair, there is no doubt that we have had 
disagreements with many of EPA's policy decisions. In just a 
moment, I will have a number of questions that fit into this 
category. But there is also no doubt that we all wish for and, 
in the context of what we do on this subcommittee, are working 
for a cleaner environment. We may disagree on how we achieve 
this important goal, yet I do not want to let this discussion 
of what may be your last appearance before the subcommittee go 
by without acknowledging your hard work, your professionalism, 
and your dedication to this important cause. And I wanted you 
to know of the respect that we have for you on this 
subcommittee.
    I would now like to call on my colleague and friend, Mr. 
Mollohan, for comments that he may make. Following that, I 
would ask the Administrator to present her testimony, and we 
will include the entire statement in the record. Thank you.

               Ranking Member Mollohan's Opening Remarks

    Mr. Mollohan. Thank you, Mr. Chairman.
    I would like to welcome the witness to the hearing this 
morning, to compliment her on her administration of the Agency, 
and I look forward to her testimony.
    Mr. Walsh. Please proceed Administrator Browner.

                Administrator Browner's Opening Remarks

    Mr. Chairman and members of the committee, I am pleased to 
appear before you again to present the Clinton-Gore 
administration's budget request for the Environmental 
Protection Agency. Accompanying me today are many of the 
Agency's senior managers, including Mike McCabe, who has joined 
us recently as the Acting Deputy Administrator, and our Acting 
Chief Financial Officer, Mike Ryan.
    Let me begin by saying, Mr. Chairman and Mr. Mollohan, that 
we look forward to working with both of you and all of the 
members of this subcommittee as we fashion an appropriate 
budget for the work we do on behalf of the American people to 
protect their air, their water, and the communities where they 
raise their children.
    Mr. Chairman, I would agree that we have had a productive 
working relationship. We haven't always agreed, but I think we 
have been able to understand each other, and that has allowed 
us to move forward toward our mutual goal of protecting public 
health and the environment. I thank you and your colleagues for 
that.
    Together, we once again have a great opportunity to work in 
partnership to provide the American people with strong public 
health and environmental protections that they not only want, 
but actually deserve. The budget that we present today achieves 
that goal. The President has presented a budget that maintains 
fiscal discipline while making essential investments in public 
health and environmental priorities.
    This administration has repeatedly demonstrated that we can 
enjoy enormous prosperity, including the longest economic 
expansion in history, while aggressively cleaning up our 
Nation's air, water, and land.
    Over the past 7 years of unprecedented economic progress, 
this administration, working with this committee and others in 
Congress, has distinguished itself through unprecedented 
environmental progress. And we have done it through common-
sense, cost-effective measures that emphasize partnerships and 
cooperation with businesses, State and local governments, and 
the citizens at large.
    The 1996 amendments to the Safe Drinking Water Act are an 
example of what we can do together in a bipartisan manner. We 
have supplied the first ever funding, a $2.3 billion loan 
program, for communities to upgrade their drinking water 
systems. We have set up the first public right-to-know program 
for ensuring that all consumers of tap water know the source 
and the quality of the water they and their families drink. We 
have announced new measures to protect the health of 140 
million Americans by strengthening drinking water standards, 
including those for contaminants like issues like 
cryptosporidium.
    As a result of our joint work to protect our Nation's 
drinking water, 89 percent of Americans now get tap water from 
drinking water systems that meet health standards. That is an 
increase of 6 percent since we began this effort in 1994.
    We have tripled the reaching of cleaning up toxic waste 
sites reaching construction completion in the Superfund 
program. More toxic waste sites have reached construction 
completion, and more affordably, in this administration than in 
all previous years combined. At the end of 1999, a total of 670 
Superfund sites had been cleaned up. More than 500 of those 
have been completed since the beginning of this administration.
    We have taken important steps to reduce emissions from cars 
and small trucks by up to 95 percent, and for the first time 
ever, we have ensured that SUVs, minivans, and light-duty 
trucks will meet the same stringent standards as other 
passenger vehicles.
    We have required reductions in sulphur levels in gasoline. 
We have cut toxic air pollution from municipal combusters and 
other important source categories by 90 percent or more. And we 
have unveiled new efforts to improve air quality in our 
Nation's 156 national parks and wilderness areas. As a result 
of these efforts, some 43 million more Americans today are 
breathing cleaner air.
    At the same time, we have dramatically increased the 
public's right to know about toxic chemicals released into 
their local communities. The Clinton-Gore Administration has 
nearly doubled the number of chemicals that must be reported to 
communities and required over 6,000 new facilities to report 
their releases of toxic emissions. As a result, in the past 
decade toxic pollution has fallen by nearly 50 percent, partly 
as a result of simply giving citizens information so that they 
can work with local businesses to find common-sense, cost-
effective ways to further reduce their pollution.
    We have revitalized communities by accelerating the cleanup 
of brownfields. The abandoned or contaminated property that sat 
idle is now being put back into productive use. Communities 
across America are gaining new hope with nearly $70 million in 
assessment grants awarded to over 300 brownfield projects. 
These projects have now leveraged $1.8 billion in new 
investments, created over 5,000 jobs, expanded the tax base for 
local communities, and brought decaying areas of cities back to 
vibrant economic life.
    Working with Congress, we have passed a new Food Quality 
Protection Act that for the first time sets pesticide safety 
standards that are protective of our children. We have already 
taken action to reduce significantly special risks posed to 
children by limiting the use of two of the pesticides most 
widely used on foods found in the diets of our children. And 
while ensuring strong environmental protection, we have 
reinvented Government in innovative ways to achieve greater 
environmental results at less cost. We have vigorously applied 
the common-sense, cost-effective solutions that we know exist 
to today's environmental challenges.
    Reforms by the Clinton-Gore Administration have eliminated 
more than 26 million hours of paperwork for businesses and 
communities. That is the equivalent of returning more than half 
a million work weeks back to the private sector at a cost 
savings to industry of $800 million over the past 4 years.
    The President's budget request that is now before you, $7.3 
billion for the Environmental Protection Agency, and $2.2 
billion for the Better America bonds program, builds on and 
continues 7 years of environmental achievements under the 
Clinton-Gore Administration. The budget provides an 11 percent 
increase in EPA's core programs. This is where we do the vast 
majority of the work in terms of setting public health 
starndards for air pollution and water pollution. This is where 
we do our science. This is where we do our enforcement. This is 
the largest increase in EPA's operating budget in the history 
of this administration.
    The Administration request provides for the President's 
Clean Water Action Plan, designed to finish the job of cleaning 
up America's waters and restoring to full use our magnificent 
lakes, our rivers, and our bays. It provides for a new 
initiative to protect and improve one of our Nation's greatest 
shared treasures, the Great Lakes. It provides for the 
President's Cleaner Waters Across America program which, for 
the first time, targets individual waterways for cleanup plans 
tailored specifically to that waterway's needs.
    It provides new funding to protect our waterways 
frompolluted runoff, the largest remaining threat to America's water 
quality. This part of EPA's budget gives States the flexibility they 
need to fight polluted runoff by allowing up to 19 percent of their 
Clean Water State Revolving Fund to be used for this critical 
challenge.
    The President's budget provides the necessary funding for 
one of the administration's top environmental priorities: 
protecting the health of our children, including targeting such 
special threats to children as lead contamination, air 
pollution that can make an asthma attack worse, and dangerous 
levels of pesticide residues in foods that are found in our 
children's diet.
    The President's budget also provides for a Creative Clean 
Air Partnership Fund. The budget calls for continuing to expand 
the public's right to know, including a new effort to develop a 
network for key environmental data with our State partners. 
This new network will be aimed at ensuring data quality, 
achieving reductions in reporting burdens from the business 
community, and enhancing public access.
    The budget calls for continuing our success at cleaning up 
the Nation's worst toxic waste sites, and it calls for 
investing in our highly successful Brownfields program.
    Again, the budget calls for making our communities more 
livable through Better America bonds. The administration is 
proposing this innovative financial tool to give communities 
the resources they need to make their own decisions about 
preserving green spaces, addressing water pollution concerns, 
and promoting economic development.
    In conclusion, Mr. Chairman, this budget builds on 7 years 
of proven success by the Clinton-Gore Administration. It builds 
on 7 years of developing the kind of programs that the American 
people want. It is a budget that will build strong American 
communities through partnerships and cooperation through tough 
environmental and public health standards, and through 
innovative, flexible strategies to meet those standards. It is 
a budget that will ensure a strong economy and a healthy 
environment for this country, and, Mr. Chairman, I thank you 
for the opportunity to be here with you all today to answer 
your questions and to work together in the coming months.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        RADON IN DRINKING WATER

    Mr. Walsh. Thank you very much for your testimony. We will 
begin the questions.
    I would like to talk about two areas, radon in drinking 
water being the first. Last fall, EPA acted on a requirement 
set forth in the Safe Drinking Water Act amendments and issued 
its proposed rulemaking on radon in drinking water. The initial 
comment period was to end on January 4, 2000, but acting on a 
request from Members of Congress, it was extended.
    While I don't quarrel with EPA's action to review this 
issue pursuant to the law and to set standards consistent with 
legitimate health requirements, I must say that what I have 
learned relative to the proposal absolutely defies credibility.
    In a nutshell, it is my understanding that you are 
proposing a radon in drinking water standard of 300 picocuries 
per liter when a standard of 4,000 picocuries per liter is 
supported by the National Academy of Sciences. You are 
proposing this standard despite the fact that your own data 
indicates that less than 2 percent of indoor radon comes from 
water. Moreover, the 1999 NAS report determined that of the 
19,000 cancer deaths attributed to inhaling radon gas in the 
home, only 160 are estimated to result from inhaling radon that 
was emitted from water.
    The report further indicates that another 720 deaths are 
caused by breathing radon in outside air and the remaining 
18,000-plus from breathing radon in indoor air. It is my 
understanding that an overwhelming majority of the individuals 
from which these statistics were derived were also known to be 
moderate to heavy smokers. Making this matter even more 
ridiculous is the fact that the best available technology to 
remove radon from water is air stripping, which then requires 
the discharge of highly concentrated radon into the atmosphere.
    Air discharge modeling in many communities has predicted 
such discharges will unnecessarily subject the local citizenry 
to elevated health risks. Such cross-media contamination 
reminds me of the situation we now find ourselves in relative 
to the use of MTBE.
    What is the current status of this rulemaking? When is it 
due to be finalized? And why is your Agency unnecessarily 
creating another MTBE-type situation?
    Ms. Browner. Well, with all due respect, Mr. Chairman--and 
I am more than happy to talk about MTBE, as I think that is an 
important issue that we should discuss today--I don't think 
this situation is in any way similar to the MTBE situation.
    We have recently concluded an extended public comment 
period on our radon proposal. I think it actually closed on 
February 4th of this year. We have received approximately 600 
comments. We are in the process of evaluating those comments.
    Under the new Safe Drinking Water Act passed during this 
Administration, we are required to finalize our decisions with 
respect to radon in drinking water by November 2000. So we will 
be completing the work in the next several months.

                      RADON: MULTI-MEDIA CHALLENGE

    If I might just take a moment to agree with you that the 
challenge of radon is a multi-media challenge and we did 
recognize that in our proposed rule--we did give. In the 
proposal, we suggested that the States could be given the 
flexibility to look at how to reduce radon from both drinking 
water and indoor air. This is a unique multi-media framework 
bringing together two statutory responsibilities in a way that 
we are trying to do more. The statutes don't always lend 
themselves to that, but I think that in this instance we have 
done a good job of providing, or suggesting, some flexibility 
to the States.
    We have also suggested that our State indoor radon grants 
could be used by the States for development of a multi-media 
strategy in the States. We have given them the flexibility to 
take money which historically would have been simply for radon 
air issues, and use it for a multi-media approach.
    Let me just say finally that the proposed rule did provide 
for a least-cost alternative. We believe that for most drinking 
water utilities, this would not require the installation of 
equipment to treat for radon in drinking water, and would 
involve only modest enhancements of existing State indoor radon 
programs. If it would be helpful to you, we would be happy to 
elaborate on that in writing.
    My memory has served me poorly. It is not November of this 
year that we are required by the statute to be done but, 
rather, August. That is why I have these people behind me to 
give me the right answers.

                RADON: NATIONAL ACADEMY OF SCIENCE STUDY

    Mr. Walsh. Why, when the National Academy of Sciences 
suggests a level of 4,000 picocuries per liter, would you 
propose at a level of 300? What science do you use to show that 
your science is better or more indicative of the danger here 
than the National Academy of Sciences?
    Ms. Browner. As I understand it, the National Academy 
report is a relatively new report. We are working with the 
Office of Management and Budget to look at it, and I think that 
we should come back to you when we have fully evaluated the 
Academy's advice to us and answer that question.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Won't this policy require that communities air 
strip the radon from the water, thus emitting it into air, and 
causing additional problems for remediation of radon in the 
air?
    Ms. Browner. Mr. Fox from our Office of Water, who has 
responsibility for the Drinking Water Program indicates that 
that is only one of several solutions that would be available 
to States, and it may not be the one that in some instances 
makes the most sense.
    One of the challenges of radon is that it doesn't occur in 
every part of the country, and different parts of the country 
have higher levels. So it may be--and I think this is what we 
have tried to do in our proposal--that different States will 
make different decisions about how best to provide the public 
health protections.
    Mr. Walsh. When you proposed this rule, did you consult 
with the National Academy of Sciences and they did not have 
this data at that time?
    Ms. Browner. They have developed it, I think, in response 
to a congressional directive.
    Mr. Walsh. This is a 1999 report from the National Academy 
of Sciences.
    Ms. Browner. Correct. We are in the process of reviewing 
the report, and obviously, we will have to incorporate it into 
any final decision that we make.
    Mr. Walsh. A picture is worth a thousand words. Here is the 
radon risk: 18,000-plus deaths from airborne, 160 lung cancers 
from breathing radon indoors from drinking water.
    Ms. Browner. We don't disagree that air is the biggest 
source of radon exposure. When Congress rewrote the Safe 
Drinking Water Act, we are told that we had to set a drinking 
water standard for radon. We are not disagreeing with the 
Academy on that, and we have said this many, many times.
    But, Mr. Chairman, I think what we have tried to do--and we 
are the first to say it is not easy--is, although we are 
working in the drinking water requirements of the statute, to 
try and bring in the fact that air exposure for most people 
probably presents the greatest risk, I think the other 
problem----
    Mr. Walsh. Air exposure clearly presents the greatest risk.
    Ms. Browner. Right, and we don't disagree with that. But we 
are under a statutory obligation with a deadline of August of 
this year to set a drinking water standard.
    Mr. Walsh. But not at 300 picocuries per liter.
    Ms. Browner. As I understand the Academy report, they did 
not speak to the issue of what the MCL should be, in other 
words, what the drinking water standard should be. They did not 
tell us what they thought the drinking water standard should 
be.
    What we are trying very, very hard to do is both meet the 
needs of the drinking water law, but also provide the 
flexibility to States. We will certainly continue to work to do 
this so that most of the solution will actually not come in 
terms of installing treatment technologies in the drinking 
water system but, rather, will come through a multi-media 
approach focusing on air.
    Mr. Walsh. I have a number of other questions relating to 
the total maximum daily load regulations. I suspect others will 
have questions about that as well. I will hold these questions 
for the second round. Thank you very much.
    Ms. Browner. Thank you.
    Mr. Walsh. Mr. Mollohan?

                        CLIMATE CHANGE PROGRAMS

    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Browner, I would like to ask you a series of questions 
which will give you an opportunity to talk about your climate 
change programs, of which there is considerable interest in the 
Congress and certainly on this committee. Let's just start with 
an effect-on-the-economy question. What effect on our economy 
do the EPA's climate change programs have?
    Ms. Browner. The vast majority of EPA's climate change 
programs are partnerships with the business community,looking 
for energy efficiencies, for example, through our Energy Star program, 
through our Energy Star Buildings program. What we have found is that 
for a very modest investment of Federal dollars, we can reap a 
significant repayment both in the business community and for the public 
at large in terms of greater energy efficiency. So I would say it is a 
net positive effect on the economy.
    The EPA programs have saved American families and 
businesses more than $11 billion in their energy bills through 
energy-efficient products, everything from refrigerators to 
other systems in the house. When your computer goes to sleep, 
for those of you who have a screen that goes to sleep, that 
saves a huge amount of energy when you walk away from your 
computer but don't feel like turning it off because you will be 
back in a few minutes. That is actually something that EPA 
developed with the computer industry. And, in fact, many of 
your computers probably carry a little logo on it, Energy Star, 
noting the fact that this was a private-public sector effort at 
energy efficiency.

              CLIMATE CHANGE ACTIVITIES: IMPACT ON ECONOMY

    Mr. Mollohan. If you were to talk about what effect climate 
change would have on the economy, woud that exhaust it?
    Ms. Browner. Oh, no. I think there are other effects. I 
think that in terms of the programs from EPA that have largely 
been focused on energy efficiency, the savings have been in 
energy bills.
    I think the other side of the equation is what happens if 
we don't make these kinds of energy efficiency investments and 
if we continue simply on the path of increasing greenhouse gas 
emissions. The cost of dealing with the problem 10, 15, 20 
years down the road will simply grow and grow.
    Mr. Mollohan. Is there a cost side to that equation? You 
have talked about the benefit side. Is there a cost side to the 
economy?
    [Pause.]
    Mr. Mollohan. Why don't you submit that for the record?
    Ms. Browner. Yes, why don't we submit that for the record?
    Mr. Mollohan. Okay. Can you provide for the record how 
EPA's climate change programs have reduced U.S. greenhouse gas 
emissions to date, and if the President's budget for fiscal 
year 2001 were adopted?
    [The information follows:]

                        CCTI Cost to the Economy

    There is a cost to be paid if we do not invest in these 
programs and support energy efficiency investments. In fact, we 
would be wasting a tremendous opportunity. In the U.S., we 
expect that over 50% of greenhouse gas pollution in 2010 will 
be caused by equipment that is purchased over the next decade. 
If we don't fund these initiatives, we will continue to miss 
opportunity after opportunity to make better investments that 
help the economy without hurting the environment.
    If Congress funds EPA's climate change technology 
partnerships at last year's funding levels ($103 million) 
instead of increasing our investment to the full extent 
proposed by the President ($227 million), the result will be:
    More greenhouse gas pollution: 335 million metric tons of 
unnecessary greenhouse gas pollution will be emitted to the 
atmosphere over the next decade. (Metric tons of carbon 
equivalent emissions.)
    Higher energy bills for schools, families, and small 
businesses: American families, small businesses, local schools, 
and industry will spend $35 billion more on energy bills over 
the next decade.
    More local air pollution: Local smog and air quality will 
be made worse by the unnecessary emissions of 850,000 tons of 
nitrogen oxides over the next decade.

             CCTI: U.S. Greenhouse Gas Emission Reductions

    On a cumulative basis from 1995 through 1999, EPA's climate 
change programs have reduced 115 million metric tons of carbon 
equivalent (MMTCE). We estimate that the programs have reduced 
the growth in greenhouse gas emissions since 1990 by about 19% 
from where they would have otherwise been.
    Since many of the investments promoted through EPA's 
climate programs involve energy-efficient equipment with 
lifetimes of ten years or more, the investments that have been 
spurred through 1999 will continue to deliver environmental 
benefits through 2010 and beyond. EPA currently estimates that 
based on investments in equipment already made due to EPA's 
programs through 1999, greenhouse gas emissions will be reduced 
by more than 230 MMTCE cumulatively through 2015. EPA is 
requesting a $124 million increase in 2001 funding for its 
climate programs in order to target these additional 
opportunities throughout all sectors of the economy. EPA will 
build upon its government/industry partnership efforts to 
achieve even greater greenhouse gas reductions and 
technological advances. EPA will take advantage of additional 
opportunities to break down market barriers and foster energy 
efficiency programs, products and technologies, and cost-
effective renewable energy, simultaneously reducing pollution 
and energy bills. In 2001, EPA expects to: Eliminate 66 MMTCE 
of greenhouse gas emissions over the course of the year; reduce 
U.S. energy consumption from projected levels by more than 70 
billion kilowatt hours annually; reduce other air pollutants 
such as NO<INF>X</INF>, particulate matter and mercury through 
energy efficiency, and reduce water pollution through better 
fertilizer management (NO<INF>X</INF> emissions will be reduced 
by about 170,000 tons in 2001); and provide about $9 billion in 
energy bill savings to consumers and businesses that use 
energy-efficient products for the year.

    Ms. Browner. Yes, I can actually answer that, and then 
provide the rest for the record.
    Mr. Mollohan. Sure.

         CLIMATE CHANGE TECHNOLOGY INITIATIVE (CCTI) ACTIVITIES

    Ms. Browner. We are asking for a $124 million increase in 
EPA's climate change programs. That funding will allow usto 
reduce an additional 335 million tons of greenhouse gas emissions over 
a 10-year period.
    What we are able to do is look at the programs that we 
invest in in terms of these partnerships with the business 
community, and then show you how many tons of greenhouse gas 
emissions reductions we can get. And we can provide that 
analysis for you.
    Mr. Mollohan. Is this a totally voluntary program?
    Ms. Browner. Yes, it is. There is no regulatory component 
to our climate change program, and Mr. Knollenberg has 
obviously directed us in a rider over the years, with which we 
are in full compliance.
    Mr. Knollenberg. Could I interrupt for a moment? 
[Laughter.]
    Mr. Mollohan. Oh, I suppose.
    Are there any rulemaking components to the climate change 
program? And I guess you answered that--if it is voluntary, the 
answer's no----
    Ms. Browner. They are voluntary. There is no rulemaking.
    Mr. Mollohan. You could have a rulemaking making it 
voluntary, too.
    Ms. Browner. No, you can't. [Laughter.]
    Mr. Mollohan. Not in your Agency.
    What year and in what administration did the climate change 
program begin?
    Ms. Browner. It began under the Bush administration, in 
1991. I think there was a recognition in keeping with Rio and 
the other nations of the world and the recognition of how great 
the challenge was. EPA under there was a Bush administration 
began this very, very successful program.

                             KYOTO PROTOCOL

    Mr. Mollohan. I know Mr. Knollenberg is going to follow up 
and explore this specific question, but let me ask and give you 
a chance to get on record with regard to it.
    Has EPA proposed or issued rules, regulations, decrees, or 
orders for the purpose of implementation or in preparation for 
the implementation of the Kyoto Protocol?
    Ms. Browner. No.
    Mr. Mollohan. And you might want to answer it and then 
elaborate if you want.
    Ms. Browner. No. The Administration, the Environmental 
Protection Agency, is not involved in the business of 
implementing Kyoto. We do work with the business community and 
with others on a voluntary basis to develop cost-effective 
programs to reduce greenhouse gases. But in no way have we 
issued rules, regulations with respect to implementing Kyoto.
    Mr. Mollohan. I guess the question is not ``have you 
entered into a rulemaking,'' but have you done anything that in 
any way is intended or could in any way be interpreted as 
preparatory activity or expenditure of funds in preparation for 
implementation of any of the Kyoto Protocol?
    Ms. Browner. No, we have not, absolutely not.
    Mr. Mollohan. And is that conscious on your part in 
response to the restrictions that have been contained in 
Federal legislation for the last several years?
    Ms. Browner. Well, actually, it goes beyond that. The Kyoto 
Protocol has not been agreed to or ratified by the United 
States Senate. It has been signed by the President, but it has 
not been ratified by the United States Senate. It is not a 
treaty in effect, if you will, within the United States. So it 
would not be appropriate for us for that reason. But we also 
obviously respect the word of this Committee and of the 
Congress.

                   TOTAL MAXIMUM DAILY LOADS (TMDLS)

    Mr. Mollohan. The Agency has set a goal of significant 
reductions over the next 5 years in non-point-source water 
pollution in order to deal with agricultural and other runoff. 
In addition to existing programs, we have heard a lot about the 
so-called total maximum daily load, or TMDL, approach. Is this 
merely a way to judge progress on meeting regional goals, or is 
the TMDL approach intended to create a new regulatory standard 
with enforcement actions?
    Ms. Browner. The TMDL program, which dates back to the 
original Clean Water Act, and I think very appropriately so, 
was envisioned as a tool for determining on a water body basis 
how much pollution needs to be taken out, or the other way to 
think about it is how much pollution can be in a river, or lake 
and still be fishable and swimmable and the goals of the Clean 
Water Act.
    As the country over the last 30 years has worked to clean 
up our rivers and lakes and to put in place all of the 
technologies, the controls on pipes to clean up our rivers and 
waters, we have made huge progress. Now we are at a point where 
it really does make sense to go out river by river, lake by 
lake, and figure out how much pollution has to be taken out, 
and how much more pollution do you need to remove.
    So we have proposed a framework for the States. We see 
TMDLs as being a program that would have to be managed on a 
day-to-day basis by the States. They would be responsible for 
looking at each river, each lake, to determine how much excess 
pollution there is, and then determine the plans for reducing 
that pollution. Those plans could be everything from best 
management practices already in place, for which results will 
be unfolding in the coming years, to other programs, such as 
the non-point-source money that we provide the States, and the 
Section 106 money that we provide the States.
    But if you think about it, it really is the sensible next 
step, our final step, to providing cleaner water. These are not 
national standards but, instead, water body-specific efforts 
managed by the individual State.

                            TMDL litigation

    I do want to say one thing about this, and as I think is 
well known by many of you, EPA has been sued by a number of 
environmental groups, probably in many of your States. Under 
the Clean Water Act, if the State fails to set one of these 
loads, the cause of action rests not against the State but 
against the Environmental Protection Agency. That is how 
Congress wrote the statute 30 years ago, and we can all debate 
whether that was right or wrong, but that is the reality of the 
law.
    It is a very frustrating position for us right now. We get 
sued, and then we have to enter into some kind of an agreement 
to meet the requirements of the law because the judge says you 
are going to meet the requirements of the law. We try and bring 
the States in and say, let's all agree to what we are going to 
do here to set the loads and develop the plans.
    In some instances, on some water bodies, the States come 
in; in other instances, even within the same State, they don't 
come in. They are just frustrated. They don't want to do it.

                         TMDL state frameworks

    So what we are trying to do is get beyond this 
litigation,because it is driving everyone crazy, to put out a framework 
so the States will have a framework that they will do their work in. 
Then when we get sued for a State failing to do the job, we will be 
able to say to the judges that there is a framework, and that the 
States are working within that framework.
    I will give you an example of why the framework should be 
attractive to the States. Under some of the litigation, we have 
had judges force deadlines of 7 years--for example, Lake 
Okeechobee in Florida may have a 7-year deadline. What we have 
proposed in the TMDL program is actually 15 years because we 
recognize the magnitude of the undertaking. But until we get 
this in place, we are left on a case-by-case basis with 
different judges and different States to try and weed our way 
through this. So our intention is to try and create a 
reasonable program managed by the States, not by the 
Environmental Protection Agency.
    Having said all of this, I do want to note that we are the 
first to agree that the proposal we originally put out was 
confusing. There is no way around it. I actually sat down and 
read sections of it when I started getting phone calls. It is 
confusing. We have an obligation to fix that confusion. 
Probably the greatest confusion has come in the agricultural 
community. We want to be very clear: The Clean Water Act does 
not allow EPA to require permits for non-point-source 
pollution, period.
    Mr. Mollohan. Say that again.
    Ms. Browner. The Clean Water Act does not allow the 
Environmental Protection Agency to require a permit for non-
point-source pollution. We absolutely agree with that.
    Moreover, the Clean Water Act generally does not allow the 
Environmental Protection Agency to require permits for 
agricultural activities. The Clean Water Act does require that 
States set total maximum daily loads, and that they then 
provide detailed programs of how they are going to achieve 
those reductions with reasonable assurances.
    We want to be very clear that we believe programs such as 
best management practices, without permits, can be an important 
tool. A reasonable assurance in our book could be as simple as 
some of the money we are giving the States--and we are asking 
for a significant increase in these funds before this 
committee. But some of the money we are giving the States is 
going to implement those BMPs. That is a reasonable assurance 
in our book.
    Again, we need to be clearer about this. We are going back 
now and looking at how we can be clearer. But that is what we 
are trying to do here.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Ms. Browner. I apologize. It is a difficult issue.
    Mr. Mollohan. It is the witness' fault. [Laughter.]
    Ms. Browner. It is absolutely the witness' fault. You know, 
it is my eighth year. I might not be back.
    Mr. Mollohan. No, actually, you have touched on every one 
of my questions here. But what is curious to me is that you are 
talking about reasonably looking at these waterways on a case-
by-case basis. But without a standard, how do you avoid 
arbitrariness and how do you enforce the reduction?
    Ms. Browner. Well, it would be up to the States, when they 
set a reduction target for a particular lake, to then design a 
program. Let's say they needed 100 pounds of phosphorous 
reduction, they could decide that 50 of those pounds are going 
to come from best management practice and 50 are going to come 
through a permitting program.
    Mr. Mollohan. Taking that example, just to educate me, they 
would need that reduction to achieve what standard?
    Ms. Browner. Fishable and swimmable, which is the standard 
of the Clean Water Act.
    Mr. Mollohan. And is that a standard that is different 
depending on the waterway that is involved?
    Ms. Browner. Yes, absolutely different. Yes, very 
different. And it will be different for different pollutants. 
For example, you have some rivers that are more phosphorous-
tolerant. They have vegetation that can absorb phosphorous. You 
have the Florida Everglades, which is all but phosphorous-
intolerant. That will vary dramatically across the country.
    The standards are set by the States. They decide how much 
pollution has to come out. They decide what their water quality 
standards are. So, for example, Florida is in the process of 
setting a phosphorous standard right now.

                               TMDL COSTS

    Mr. Mollohan. Final question. What kind of estimated costs 
are involved here? You indicated we have increased requests in 
this budget, and looking across the country and projecting the 
out-years, what kind of trend line are we looking at?
    Ms. Browner. As a part of the proposal, we did do a cost 
analysis. What we looked at is the cost to the State 
governments.
    Mr. Mollohan. You did or didn't do a cost analysis?
    Ms. Browner. We did. We looked at what it would cost the 
State agencies, for example, to make the determinations and to 
run a program. And I will will provide that cost analysis for 
the record.
    [Clerk's Note.--The material provided by the Agency could 
not be included in the record due to the length of the 
document. The information was provided to the Subcommittee.]
    I think there was another part to the question.
    Mr. Mollohan. I have heard numbers of tens of billions of 
dollars. Is that something that----
    Ms. Browner. For the State agencies? No. That is notthe 
kind of numbers we are talking about.
    Mr. Mollohan. Okay.
    Ms. Browner. I think there are two issues here. One is what 
does it cost the State----
    Mr. Mollohan. Cost to the economy.

                   NON-POINT SOURCE FUNDING INCREASE

    Ms. Browner. And what is the cost to people who have to 
reduce their pollution?
    If I might just take this moment to explain the increases 
we are seeking, in the TMDL program, which is referred to as 
the Section 106 program, we are asking for a $45 million 
increase on a base of $115 million. It is a significant 
increase in funds for the States.
    Secondly, in the non-point-source grant program, distinct 
from the revolving fund money, we are asking for a 25 percent 
increase. It is a $50 million increase on a base of $200 
million.
    Mr. Mollohan. Thank you, Mr. Chairman. Thank you, Ms. 
Browner.
    Mr. Walsh. Mr. Knollenberg.

                   KYOTO: CLIMATE CHANGE CONFERENCES

    Mr. Knollenberg. Thank you, Mr. Chairman.
    Welcome again, Ms. Browner. I appreciate your coming before 
us. I know that we sometimes have differences of opinion, but 
we have learned to live through those. But let me bring up this 
morning--I was particularly interested in the gentleman from 
West Virginia and his comments and questions about the 
implementation aspects of the Kyoto Protocol. And I know that 
you know I have been fiercely and very staunchly opposed to any 
implementation, and rightfully so, because the language of my 
amendment--which, by the way, is not a rider; it is a funding 
limitation. It is the text of the bill. And I think for the 
record I should have that made very clear.
    I know about the divisions on this whole issue of the 
greenhouse gases and the effect of carbon dioxide, and you do, 
too, so let's not get into that. You know where I am on it, and 
I know pretty much where you are on it.
    But I would just note that gasoline prices, which are 
already high, obviously, if there were implementation 
occurring, would kick them much, much higher than they are 
right now, in my judgment.
    What I am concerned about is--and I heard the answers you 
responded to Mr. Mollohan with--that the Clinton-Gore 
administration is not implementing and not moving towards 
implementation of the protocol through any back-door measures. 
But let me just point out to you that, unfortunately--and I 
want your view of this--there is a list of evidence that 
concerns me greatly. Let me turn to that. And I would like to 
enter, incidentally, these items into the record. We have, for 
example, what we feel is demonstrable proof of activity that 
EPA is involved, is crossing the line. I will give you, for 
example, one.
    There was a Germany invitation, an IG investigation that 
took place back in--I think about a month back or so. Let me 
just read to you what is on this invitation because this talks 
about an event that will focus on those issues concerning 
protecting the environment as well as common ways to implement 
the so-called Kyoto mechanisms. Now, that is Exhibit 1.
    Ms. Browner. I believe this is an international meeting 
that we were invited to.
    Mr. Knollenberg. Yes. Let me go on just briefly, through. 
Number two, Pennsylvania. I have got ten of these. I am not 
going to read them all to you or highlight them all, but there 
are ten of them, and I aim to get those into the hands of the 
committee members, too.
    Ms. Browner. Do I get to respond to each of them? Is that--
    Mr. Knollenberg. Let me read them to you and then maybe you 
can advise yourself as to how you want to go about this. But 
the second one, again, was in Pennsylvania, and this one 
involves joint implementation, proposed trading processes, a 
clean development mechanism, cap and trade schemes under 
discussion. Now, those have nothing to do with anything but 
Kyoto, absolutely Kyoto. Those didn't even come into being 
until 1997. They are not a part of the UNFCCC. This is one--I 
am just indicating what was on the agenda.
    Number three, North Carolina, a grant to Appalachian State 
University for a Kyoto implementation plan. EPA was a part of 
this, and they were talking about CO2 emissions.
    Number four, Emissions Marketing Association spring 
meeting, cosponsored by EPA, regarding greenhouse emissions 
market.
    Number five, EPA rule requiring Missouri to have exhaust 
standards on carbon dioxide when EPA has no authority to 
regulate CO2. CO2 is not a pollutant.
    Ms. Browner. There is no rule. I don't know what Missouri 
is talking about, but there is no rule.
    Mr. Knollenberg. Well, we will get to that. And then, 
number six, which is--and I will stop at this point because the 
list goes on. Congressman McIntosh requested information from 
EPA on any rulemaking procedure that they might have with 
respect to greenhouse gas emissions from new motor vehicles.
    I think it was Congressman Dingell that sent a letter to 
you. I have a copy of that letter, and I can enter that into 
the record as well. I might also add that we wrote your Agency 
some weeks ago regarding a couple of these matters and listed 
them in that letter. We have yet to receive a response. Now, 
what we have gotten, I believe, is a phone call that said, give 
us more time. We are willing to do that but, you see, what I am 
pursuing here is the fact that I believe you are crossing the 
line. And I want your help here because, frankly, if we can't 
get your someone to live up to and the agency to live up to the 
prohibition in the bill, then I would turn to you and say, when 
it comes to taxpayer dollars, what would you suggest that I do 
in terms of formulating, architecting language that would give 
you a clear understanding of where the barrier is.

                      KYOTO: KNOLLENBERG LANGUAGE

    Apparently right now, the agency doesn't believe there's 
any reason for them to put the brakes on; they can move into 
those areas. And that prohibition in the bill, which is text of 
the bill, does not allow for that. So, maybe you can help me 
out with some language that you would suggest? The alternative 
would be for me to provide that language.
    Ms. Browner. Well, Mr. Knollenberg, with all due respect, 
your language is very clear and we are not in violation of your 
language. The GAO has looked at your language, they have told 
us what your language means, and they have testified before 
Congress about what your language means. We do not have 
underway--and I will read back what GAO says the language 
means--we do not have underway. ``Activities that are notice of 
proposed rulemaking.'' We don't have any rulemaking underway 
with respect----
    Mr. Knollenberg. Did you spend any money?
    Ms. Browner. For rulemakings? We don't have any 
rulemakings.
    Mr. Knollenberg. No, no. Did you spend any money to send 
those people to those various spots around the globe?
    Ms. Browner. We and you are well aware, as is the entire 
Congress, that prior to this administration, beginning in the 
Bush Administration, and during this administration we have 
participated in any number of programs looking at the issues 
of----
    Mr. Knollenberg. Well, let me interrupt you because----
    Ms. Browner. Sending someone to a meeting with the State 
Department, a meeting that we did not set up, a meeting that is 
an international forum, and happens to have the word 
``implementation'' in it, is not a violation of your language.
    Mr. Knollenberg. It has far more than implementation. It 
talks about specifics that were borne----
    Ms. Browner. We have no rule.
    Mr. Knollenberg [continuing]. Out of Kyoto.
    Ms. Browner. We have no rule.
    Mr. Knollenberg. All right, let me just suggest to you that 
you and I can probably come to terms on this outside of this 
meeting, but I want all of this to be entered into the record.
    Ms. Browner. We are happy to respond.
    Mr. Knollenberg. And I want you to respond to each one of 
those inquiries. Now----
    Ms. Browner. Mr. Knollenberg, please, so that members of 
the Committee aren't confused. One of the things that you 
cite--I think it was the second thing you cite--is some meeting 
in Pennsylvania. Well, with all due respect, this was a meeting 
hosted by the Pennsylvania Department of Environmental 
Protection that we participated in. They called the meeting, 
they asked for our participation.
    Mr. Knollenberg. It isn't the meeting, it is what you 
talked about in the meeting because now you are spending 
dollars, taxpayer dollars to get involved in implementation of 
Kyoto-type activities.
    Ms. Browner. There was no implementation--the State of 
Pennsylvania can't implement Kyoto. So, how does going to a 
meeting hosted by the State of Pennsylvania----
    Mr. Knollenberg. It is the taxpayer dollars, Ms. Browner. 
We are talking about----
    Ms. Browner. We haven't spent a dime of the taxpayer's 
money on implementation.
    Mr. Knollenberg. We will get to that because my belief is 
that you have.

                           Great Lakes Grants

    Ms. Browner. Well, we have a disagreement.
    Mr. Knollenberg. Now, let me go on to this--I don't know 
how much time I have, Mr. Chairman. Three or four minutes.
    Let me go to the Great Lakes Initiative, and here I don't 
want to be confrontational. I don't mind being confrontational 
on the other because I think we have a disagreement.
    Ms. Browner. Story of the year. [Laughter.]
    Mr. Knollenberg. We have a disagreement there and I would 
like to get to the bottom of it. Here is one that I would like 
to see take place because it is really something the President 
talked about in his State of the Union address. It is the Great 
Lakes Initiative.
    Now, what I am concerned about, though, is I don't know 
what it is.
    Ms. Browner. Okay.
    Mr. Knollenberg. And in an attempt to talk to George 
Frampton, who is with the Council on Environmental Quality, and 
others they don't have anything but a vague understanding of 
what it is either.
    Ms. Browner. You should have called me.
    Mr. Knollenberg. Well, I would have liked to have called 
you the day after the President made that comment because 
nobody knows.
    Ms. Browner. Well, we know. It is our program.
    Mr. Knollenberg. Why didn't you tell Senator Levin, Senator 
Abraham, Joe Knollenberg, and my colleague on the panel here, 
Carolyn--she is not on this panel but--Carolyn Kilpatrick, 
Congressman Dingell, the Governor? Nobody knows what this thing 
is.
    Ms. Browner. Well----
    Mr. Knollenberg. Now, what I would just like to say to you, 
roughly what I know now is that it covers the Great Lakes and 
all the States that border and the cities and communities 
apparently within. But EPA administers that program. Now, we 
just discovered this a little later, not the night the 
President spoke.
    Ms. Browner. Well, actually before the President spoke, the 
issue had been discussed publicly before the State of the 
Union.
    Mr. Knollenberg. It was news to me. The point is that even 
if it were the next day we still didn't get any information 
until much later. And now, I would just like for you to tell me 
who does it affect? What States, what communities? Someone said 
it had a connection to the late '80s in some remote program 
that was brought up back in the late '80s.
    Ms. Browner. I am not familiar with that.
    Mr. Knollenberg. Well, Mr. Frampton is.
    Ms. Browner. Well, he should tell me.
    Mr. Knollenberg. Well, let's come to you. I want you to 
respond to that. I am sorry about the time, I wish I had 45 
minutes, but I would like to have you respond to me as to why 
don't we know, why weren't we given the courtesy of knowing, 
and what effort did EPA make then and since then to let us know 
what it is? We might be able to talk about in glowing terms but 
we haven't because we don't know yet what it is.
    So, if you would?
    Ms. Browner. It is a new request to the Congress. It is 
highlighted in the President's budget request and specifically 
in EPA's
budget request. It is a proposal that the administration has 
brought forward given our ongoing work in the Great Lakes to 
address a whole host of problems which you are very familiar 
with. We are making progress. One of the great things about the 
Great Lakes Initiative is it has been a bipartisan effort. I 
hope that we can all find agreement on providing more funds for 
the Great Lakes.
    What this $50 million is about is recognizing that you have 
a lot of States and communities with individual programs 
designed to achieve water pollution reductions. This Initiative 
will, on a competitive basis, not every single State getting an 
assigned amount, but on a competitive basis provide some 
additional funds for some specific activities.
    There is a match requirement so you know that the local 
government or the State is committed. It is a 40 percentnon-
Federal match. But it would be competitive.
    One of the questions I received in another Committee--which 
I actually thought was a good question--is well if you divide 
it up between all the States, it is a relatively small amount 
and we are the first to agree. But there are some individual 
projects that with $5 or $6 million you can make a huge 
difference and perhaps even see that project completed, and we 
agree with that. And, if I might just finish by saying, when 
you have a competitive program, when you have a new program, 
the opportunity exists to let the best ideas come forward.
    Obviously, we would do this with guidance to the applicants 
for the resources and we would be happy to work with you all in 
developing the guidelines
    Mr. Knollenberg. I just have one quick question at this 
point and I will conclude for this round. This is $50 million. 
The EPA budget is down. Is this going to take money from other 
areas of this budget that might be critical, frankly, to not 
just Michigan but the Great Lakes area?
    Ms. Browner. No. The Great Lakes Project----
    Mr. Knollenberg. Where does the money come from?
    Ms. Browner. Well, every year we----
    Mr. Knollenberg. You are beefing up some areas and you are 
taking down here.
    Ms. Browner. And that is how we should run a budget process 
which is to look at what are the challenges that exist, what 
are the opportunities for further progress. The administration 
has come to believe that, given the progress that we have all 
made on the Great Lakes, there is now an opportunity to provide 
some additional, targeted resources through a competitive 
process.
    The EPA's Great Lakes Program is not affected. That money 
is carried forward in this budget request. This would be an 
additional $50 million for the Great Lakes States.
    Mr. Knollenberg. By grants, right?
    Ms. Browner. It would be a grants program; that is correct.
    Mr. Knollenberg. To you?
    Ms. Browner. Excuse me?
    Mr. Knollenberg. To the administration, to the EPA.
    Ms. Browner. Someone has to award them. We would be----
    Mr. Knollenberg. Well, they have to actually control a 
little better, have to look and approve.
    Ms. Browner. Yes, there is a process. The way we have run 
other processes, and what I would envision here is that it 
would be managed with a group of career employees in the agency 
evaluating the applications and ranking them. There are many 
grants programs at EPA. For example, our Brownfields program 
has been a competitive program. There are no rules or 
regulations. There is guidance about the scope of what is an 
acceptable application. I have never personally been involved 
in a single one of those grant decisions. It is all handled at 
the career level by professional staff. That is what we would 
be proposing here.
    Mr. Knollenberg. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Joe.
    Ms. Kaptur.

               GREAT LAKES PROGRAM AND GREAT LAKES GRANTS

    Ms. Kaptur. I have so many questions. Administrator 
Browner, thank you, for your testimony this morning and for the 
fine work that you have done. I wanted to, on this Great Lakes 
Initiative, obviously, I live on the Great Lakes so I am very 
interested but what I would appreciate is a distinction in your 
testimony as to what is the difference between this new 
initiative and the ongoing activities of EPA relative to the 
Great Lakes? The size of those existing programs and how much 
of an increase this is and for what purpose, compared to what 
already exists?
    Ms. Browner. I can briefly explain. As you are well aware, 
EPA has a Great Lakes program. It has been ongoing for over two 
decades now. That includes everything from the work we did with 
the governors to set the Great Lakes water quality toxic 
standards, to the technical assistance we have given to each of 
the States as they sought to develop their plans. Nothing about 
this proposal would affect that. What this is, is $50 million--
--
    Ms. Kaptur. May I ask, on the existing program what are the 
dollars that are devoted to the Great Lakes normally? What 
level is that?
    Ms. Browner. What we refer to as our Great Lakes program 
averages about $18 million and we maintain that in this budget 
request. What would be different about the $50 million is it 
would go directly into local projects. I think there are areas 
of critical concern and, in fact, that may be what the 1980 
reference is to. But these areas of concern which were defined 
in the International Joint Commission, the United States and 
Canada working together.
    One of the good pieces of information that we have recently 
received is that, because of this proposal, Canada is 
considering doing something similar. Perhaps not on the same 
scale, but they are considering increasing their funding for 
specific projects around the Great Lakes.
    So, this money goes to specific, in-the-field, if you will, 
types of programs--not into EPA staff, providing technical 
assistance or doing the kind of science that we normally do 
around the Great Lakes.
    Ms. Kaptur. Well, I think that the one part I will agree 
with Joe Knollenberg on is that for those of us who are devoted 
to the Great Lakes and recognize them as precious world 
resource, it would be very nice to meet with those who are 
thinking about what this program should be so that we would 
have a more complete understanding of where you are headed.
    Because one of the thoughts that has run through my own 
mind, and this may be an impossibility, but, of course, we are 
a port authority community and I have often thought of using 
the combined bonding authority of ports along the Great Lakes, 
those that would be interested, to expand our ability to 
address environmental issues on the Lakes.
    And $50 million is a significant amount of money but the 
combined economic wallop of those ports and those port 
authorities deciding that they wanted to participate in 
something might be a small but parallel initiative to what you 
are trying to do with the Better America Bonds program.
    In addition to that we have many lakefront cities, like my 
own, Toledo, where we do have community development dollars 
that flow to our communities. Our communities under HUD 
regulations are allowed to borrow against the repayment, the 
expectation that those dollars will be there in the future and 
they are earning proceeds from some of the prior CDBG 
investments that they have made around their own community. But 
if you were to combine a few of those mayors on a test basis 
and I think it might expand your own leveragein ways that maybe 
EPA might not have considered.
    So, I would just throw that out and just also request a 
meeting with those of us who like to think of ourselves as 
champions for the Great Lakes.
    Ms. Browner. We did do a Northeast/Midwest Congressional 
Coalition briefing several weeks ago and we would be happy, if 
that is the right group to work through, to set up whatever 
follow-up briefings could be helpful.
    Ms. Kaptur. All right.
    Ms. Browner. And, obviously, work directly with your 
office, too.
    Ms. Kaptur. That would be tremendous. And I know we are 
holding a major hearing in our area on the Great Lakes in late 
May and we are working largely with the U.S. Department of 
Agriculture and several Midwestern States dealing with erosion 
and sediment into the rivers and lakes.
    Ms. Browner. If we can be helpful.

                      U.S.-MEXICO BORDER POLLUTION

    Ms. Kaptur. I was going to say if there was anybody from 
EPA that would be the sterling representative from EPA on that 
topic, we would certainly welcome them. It is a several-day 
conference involving many, many States.
    The Maumee River, which I represent, I represent people as 
well as the river, we are the largest tributary into the Great 
Lakes and, so, we have a particular job to do for the welfare 
of all.
    I wanted to move to another subject. Last year, we had 
asked questions at this hearing about pollution along the U.S./
Mexico border. And at that time I had put in a request to EPA 
to identify the sources of border pollution that the funds 
requested were to be dedicated toward, for what purpose were 
they going to be used. And the reason that I asked that 
question, and I have not gotten an adequate answer, is that 
many of the industrial plants that are located South of the 
border have now relocated from the United States. And many of 
those plants shut down here and one of the reasons they moved 
is because they could pollute in Mexico.
    Here, in our country, we abide by ``the polluter pays'' 
concept. And the reason I asked the question about the source 
of the pollution was because I am very interested as to where 
it is being generated. And I would like to ask, again, what 
kinds of pollution are we being asked to clean up, relative to 
border infrastructure, and where are the point sources of that 
pollution.
    And I have to say I was very disappointed in the lack of 
reply by EPA.
    Ms. Browner. We are continuing to work through the State 
Department, with the Mexican Government to get you more 
specifics.
    [The information follows:]

    Other organizations involved in U.S. Mexico-Border 
Activities: the New International Organizations created at 
NAFTA: the Border Environment Corporation Commission (BECC) and 
the North American Development Bank (NADBank).

    One of the challenges, as you are well aware, is that 
Mexico is in the process of developing a modern environmental 
system and we do work with them on that. But the kind of 
information that we can provide to you about U.S. pollution and 
U.S. businesses is not something that has been easy for us to 
get from our Mexican counterparts. We are continuing to work 
with them to get the kind of information that you want and that 
we think would be helpful.
    Ms. Kaptur. I doubt that the Government of Mexico will give 
it to us.
    But I can tell you I can go down there--my training is as a 
city planner--I can walk down every one of those streets--and I 
have done that in many of those maquilladoras down in Mexico--
and some of those General Motors plants that are spewing out 
pollution into those ditches, and there are Japanese plants and 
there are Korean plants and there are Mexican plants and then 
all of that is coming back here. And we are being asked to 
clean it up. I really don't know what I need to do to prevail 
upon the administration to pay attention to this.
    And if you are saying to me that we have to wait for the 
State Department, then we will wait until hell freezes over. 
So, I would like to know what additional authority you need in 
order to collect that information?
    Ms. Browner. If we might respond for the record?
    [The information follows:]

                   Agency Authority on Mexico Border

    The issue of extraterritorial application of U.S. 
environmental laws is complex and the subject of some 
controversy. Enforcement of environmental laws in the 
transboundary context requires due sensitivity to attendant 
foreign affairs concerns. EPA's preference is to address 
transboundary pollution by working cooperatively with other 
countries involved. EPA is very active in working with Mexico 
to prevent, reduce and control pollution in the border area 
under a variety of cooperative mechanisms, including the BECC, 
NADBank, La Paz Agreement, and Border XXI program. EPA shares 
the concerns of the Committee and will continue to work with 
the State Department to attempt to address these issues.
    Ms. Kaptur. Has my time expired, Mr. Chairman?
    Mr. Walsh. Actually you have about three or four more 
minutes.

                      SUPERFUND: CLEANUP PROGRESS

    Ms. Kaptur. Oh, all right.
    I wanted to ask on the Superfund question. You had 
mentioned that you had now cleaned up over----
    Ms. Browner. What is today's number? As of today 680 total.
    Ms. Kaptur [continuing]. 680 and how many do we have to go?
    Ms. Browner. The NPL is----
    Ms. Kaptur. And 500 of those are under your watch, right?
    Ms. Browner. More than 500, yes.
    Ms. Kaptur. Okay. That is a good record. How many more do 
we have to go?
    Ms. Browner. About 600-plus. It changes.
    Ms. Kaptur. All right. Give me just, relatively speaking, 
it sounds like we are halfway there, but have we cleaned up the 
teeny-weeny little ones and the big ones are ahead of us?
    Ms. Browner. Well, that is part of the challenge. It is 
true that some of the more complicated ones have taken longer. 
But we have a pretty good record for working steadily across-
the-board. We use a risk ranking system. So that in any given 
year we are looking at the various sites and where they are in 
terms of the final cleanup plans and then we rank them 
according to the risk and we move forward.
    So, it is not as if only the easy ones have been done. But 
certainly ones that have more parties involved in them, present 
greater settlement challenges and can tend to take a little bit 
longer. On average, though, we have reduced the length of 
cleanup by two years, on average, now. And we have also brought 
down the cost by about 20 percent.
    Ms. Kaptur. All right. We will ask a question for the 
record to give the American public a sense of how much we have 
accomplished and how far we have to go in a little more 
specific terms.
    Ms. Browner. That will be fine.
    Ms. Kaptur. So, let me just go back to----
    Ms. Browner. Can I say one other thing about the Superfund, 
though? Under this administration we now have every single site 
moving through the system. It is important to understand that 
first we have to do the analysis of what the problems are. Then 
we locate the responsible parties. Then we try and get them to 
do the work. Then we develop the cleanup plan, then the actual 
cleanup occurs.
    There is not a single site on the NPL list that is not 
somewhere in the process now; as opposed to when I came, the 
vast majority of them weren't even in the process. They were 
simply sitting.
    Ms. Kaptur. Well, I think that is important for you to 
place in the record as well.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       U.S.-MEXICO BORDER PROGRAM

    Ms. Kaptur. Let me just go back to the Mexico question one 
more time. Do you directly, does this Government directly fund 
any environmental activity in Mexico that comes from your 
budget?
    Ms. Browner. We have the border projects. We fund the 
border projects, which you are aware of, through the 
construction grant funds, which we have funded for many, many 
years, which you are also aware of.
    Ms. Kaptur. But on our side of the border, in the Colonias? 
Or are you talking about something on the other side of the 
border?
    Ms. Browner. Both. The projects occur on both sides of the 
border through the NADBank and through other organizations that 
look at the needs and look at citing issues. These are 
wastewater treatment facilities, and drinking water facilities.
    Ms. Kaptur. What would happen if we suspended that funding 
in Mexico?
    Ms. Browner. What would happen is everybody would suffer. 
Americans would suffer, because these projects are designed to 
provide basic services, in some instances--and you have been 
there and you have seen them, just simple things like sewage 
treatment. These communities don't recognize a border, per se, 
in their day-to-day lives. Whether you build the facility on 
the Mexican side or the U.S. side, solving the problem is a 
decision you make on a community-by-community basis. The most 
important thing for the Americans is that we get these 
facilities built, and that we get these basic services provided 
from wastewater treatment to drinking water to garbage pickup. 
That is what these programs have been focused on, and they have 
been successfully so.
    Ms. Kaptur. You know, Ms. Browner, I want to tell you a 
little story and I just want you to think about this and it 
will be my last comment on this round.
    This is not about Mexico but about another country in 
Central America. When we brought up some workers who were 
making tee-shirts that the Gap and Penny's and other stores 
sell in this country, and we brought up the women workers, 17 
and 18 years old who work in those plants.
    And we took them to stores in our community, we showed them 
the very tee-shirts that they had made. They were shocked to 
find them on the racks selling for a minimum of $20 apiece. 
They had been paid 12 cents a shirt.
    And those girls have to work in plants that are behind 
barbed wire, and they have to file in every morning and come 
back out. They work for subcontractors to major retailers, so, 
that fingerprints aren't on the labor contract or anything else 
like that. And then those goods come up here.
    Mexico is no different in those maquilladoras. And the 
companies that go down there, whether they are U.S. companies, 
whether they are Korean companies, whether they are Japanese 
companies have a new form of serfdom that they found in Mexico. 
And we are aiding and abetting that process by asking the 
American taxpayers to clean up the mess of those companies.
    And I very much want to work with you--I would be willing 
to go down to hearings, South of the border, with the heads of 
those companies. I would like to publicly embarrass them in the 
global environment for what they are doing because I have seen 
the waste that comes over that border and where it is coming 
from and there has got to be a better way. If our State 
Department can't do it, then we had better find a better way to 
get these companies and make them pay the cost of what they are 
doing.
    They are certainly not giving the benefits of this trade to 
their workers. And they are defiling the environment down 
there. Smelters that have moved down there, out of Arizona, and 
all these different companies and a lot of them are U.S.-owned. 
And we had better get them to fess up. And I am very upset 
about this. And it is not getting any better.
    Since NAFTA, the environmental degradation South of the 
border has gotten worse. And just to say it is the State 
Department's job, I think is an abdication of the duties of the 
Environmental Protection Agency of this country and if you 
don't have sufficient authority to deal with this, then I want 
you to tell me how I can get it to you.
    Thank you.
    Ms. Browner. Thank you.
    Mr. Walsh. Mrs. Northup.

                       LOUISVILLE NON-ATTAINMENT

    Mrs. Northup. Thank you.
    Thank you, Mr. Chairman. I had a meeting going on across 
the hall, so, I had to step out briefly.
    Secretary, in my district, Louisville, Kentucky, we have 
for a long time suffered with trying to get into attainment in 
terms of air pollution. In fact, for years, you could stand in 
my yard and look downtown and not see the buildings. Today, you 
can do that. And there is a lot of difference. But still, for a 
variety of reasons, weather, how the wind comes from other 
communities and so forth, gaining full attainment has been very 
difficult.
    We were out of attainment when the deadline came. We are on 
a plan to be within attainment until 2003. We have not gotten 
an answer from the EPA about whether or not they intend to give 
us that extension, and how exactly that would be accomplished.
    Ms. Browner. Well, we did already give one extension and we 
have recognized repeatedly that the issue is a multi-State 
issue. In November, of last year, Indiana and Kentucky 
submitted a joint attainment demonstration and we have been 
working with the Kentucky Division of Air Quality to complete 
our review of that. If any kind of changes are necessary, we 
hope we can work with them to accommodate those changes.
    We have been able to work these multi-State issues out in 
any number of instances. We hope we can work them out here. We 
are in the process of trying to do that. What we want is a plan 
in place. That is the best solution for everybody to have, a 
State Implementation Plan. And, as I said, in the vast majority 
of areas now we have resolved this. We are continuing to do 
everything we can to resolve it and get a plan that the State 
of Kentucky and the State of Indiana are both comfortable with.
    Mrs. Northup. When do you expect to have a decision on 
that?
    Ms. Browner. Well, I am fairly certain that they are aware 
of our preliminary review and any concerns we may have with 
that preliminary review. We are trying, in an informal setting, 
to work those through. If you could give us a little bit of 
time I think that might be in everyone's interest. We can go 
into a very formal process but I don't know that that 
necessarily leads to the best dialogue and the best resolution 
of something of this nature.
    So, a little bit of time, could be very helpful.

                      EFFECT OF GUIDANCE DOCUMENTS

    Mrs. Northup. Okay. Let me ask you a little bit about the 
peer-review process that you all have. It is my understanding 
that you are publishing guidance documents and interpretative 
opinions and then implementing them as though they are de facto 
rules, promulgated under the Administrative Procedures Act. 
This is at least some of the concerns that I hear. And I just 
would like to get some clarification on it.
    First of all, what legal effect does the EPA interpretative 
rules policies and guidance documents have?
    Ms. Browner. Well, first of all, it is common daily 
business at EPA that a company, a State, or a city calls us or 
writes to us and asks us to explain something. We write back. 
It might be guidance that we provide. If we get the question 
more than once we turn it into guidance so that people can have 
some general understanding of what we mean.
    It is non-binding. But: The business community, in my 
experience, finds it very helpful when we can have that kind of 
exchange. I know there are some up here who are suggesting that 
somehow or another we shouldn't be able to do that. But if we 
can't answer a question, when someone may be confused, the 
whole system is going to get ridiculous.
    Mrs. Northup. Well, I would agree with you. I think that 
the problem comes because there are those that believe that the 
guidances overreach the legislative intent or actually are 
formulating new policies that go beyond what was ever intended 
by the law, what previous these guidances have--you know that 
these are really initiatives as much as guidances.
    Ms. Browner. I would be happy to look at them personally, 
if there are some specific examples that people have brought to 
you where they feel like a guidance is more than answering a 
specific question that has been posed to us and in some way 
goes beyond our authority. But guidance for anybody that works 
with the business community, that works with State and local 
Governments, and that works with the public in the way that we 
do, is a very important part of how we give people answers to 
very real questions they have, so they can continue in their 
business.
    Mrs. Northup. So, basically what you are telling me is, is 
that you are absolutely convinced that all of your guidances, 
all of your other interpretative rules are not, do not have any 
new initiatives, don't go beyond any previous guidances?
    Ms. Browner. When we develop, for example, a permitting 
program--and it will vary under different statutes--we are 
required in setting those legal obligations to go through the 
regulatory notice and commentprocess. We don't set standards in 
guidance, obviously. A drinking water standard is not set in guidance. 
It is set through a public notice and comment process, as we are 
required to do.
    Now, it may well be that once--I will just use this as an 
example--a drinking water standard is set that a particular 
drinking water facility may write to us and say, well, in 
looking at this, we need some better understanding of whether 
technology A or technology B is what you were talking about. We 
would respond to that. But that response has to be within the 
scope of that notice and comment process.
    Mrs. Northup. Well, let me give you a very specific example 
that staff is so quick to produce.
    Ms. Browner. If they have a copy, it would be helpful if I 
would be able to look at it.

                     ELECTRIC UTILITIES PERMITTING

    Mrs. Northup. Well, let me talk about the permitting for 
the electric utilities that now have claims that they have 
violated the Clean Air Act when they upgraded or replaced 
equipment at their power plants over the last 20 years. 
Clearly, this rings a bell.
    Ms. Browner. Oh, I am just surprised that they would 
suggest that this is a question of guidance. We have a very----
    Mrs. Northup. Or a change in policy.
    Ms. Browner. It is not a change in policy. The Clean Air 
Act is abundantly clear. These companies were grandfathered in 
so long as they maintained operations as is. In 1990, when 
Congress amended the Clean Air Act, there was a recognition 
that many of these older, grandfathered facilities were going 
to go out of business and, therefore, would be ``allowed to 
maintain their activities.''
    They are not----
    Mrs. Northup. But the fact that they haven't gone out of 
business.
    Ms. Browner [continuing]. Maintaining their activities. 
This is like if I have a car, maintaining my car is changing 
the oil, right? It is getting it tuned up. It is replacing the 
spark plug. It is not replacing the engine. They are replacing 
the engines and that is what we have alleged in our enforcement 
cases and we will pursue them.
    Mrs. Northup. But isn't this a total change from----
    Ms. Browner. No. Absolutely not.
    Mrs. Northup [continuing]. Over years?
    Ms. Browner. No. Absolutely, categorically not. We have 
settled one of these enforcement actions. One company has come 
to the table and we have settled and they have entered into a 
binding legal obligation to reduce their pollution.
    Mrs. Northup. Well, you know, I guess that for those of us 
in Kentucky there is the question of does EPA really want to 
push power out of--if you had to look at the energy picture, do 
you picture coal being part of that, that picture?
    Ms. Browner. Absolutely.
    Mrs. Northup. And it seems to those of us who are looking 
at this, I mean we have energy plants in Kentucky that have 
gone beyond what they were required to do. And I think their 
feeling is, is that nothing they would have done would have 
been enough.
    Ms. Browner. They have very clear requirements under the 
law. If they are making significant changes then they must meet 
Clean Air standards. Routine maintenance does not include 
million-dollar investments in new generators. Those are the 
kinds of activities that we have alleged in our enforcement 
actions.
    Mrs. Northup. Did you change your interpretation of key 
exemptions to the air pollution reporting requirements?
    Ms. Browner. Air pollution reporting requirements? I am not 
sure we know what you are talking about.
    If there is a letter, we are happy to respond to it.
    Mrs. Northup. Okay. But you don't feel there was any need 
to go through the rulemaking process?
    Ms. Browner. To file an enforcement action? No.
    Mrs. Northup. Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Cramer?

                         FOSSIL FUEL COMBUSTION

    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back to the Committee. I am down here on the far 
end, so, I hope I am not hard to hear. And I had to come and go 
as sometimes is the case, so, I hope I am not asking about 
issues that you have already been asked about.
    But I wanted to get you to talk about the report that was 
finally delivered to Congress on the waste from the combustion 
of fossil fuels delivered in March of last year. And that was a 
19-year study as a consequence of the efforts of Tom Bevil from 
an amendment I think that was passed back in 1980. It is my 
understanding that that report included a preliminary 
recommendation that most of the waste should not be regulated 
as Federal hazardous waste but should remain subject to State 
regulation.
    Where are we with that? Are you reconsidering that or are 
you about to do an about-face on that and, if so, why?
    Ms. Browner. The report to Congress under the Bevil 
Amendment, what is commonly referred to as Bevil Waste, 
required us to go and look at a list of waste and determine 
whether or not there were adequate protections in place. What 
we refer to as fly ash or fossil fuel combustion waste, was one 
of those wastes, and we did make a report to Congress. I think 
it was last March.
    The report made a tentative conclusion. It did not reach a 
final conclusion. Since that time, we have been looking at our 
analysis, we have been hearing from the public on our analysis, 
and we have recently asked a court for a 30-day extension.
    Mr. Cramer. Which would get you to when?
    Ms. Browner. April 10th. This is a large volume of waste. 
Over 100 million tons per year. I will be honest with you, we 
do have some concerns about how this waste is managed. The 
report to Congress identified several areas where additional 
improvements were warranted. We suggested both nonregulatory 
and regulatory steps that could be considered to address the 
risks.
    We have found that while State programs have improved, 
there is still a significant segment of the industry that have 
not lined their waste disposal landfills. There is a great 
difference across the country. It is not just one program or of 
one view. Given what we have discovered and the differences 
from State-to-State in terms of the level of protections, we 
are looking at what our final decision should be and felt like 
we needed more time.
    Can I say one thing?
    Mr. Cramer. Of course.

           FOSSIL FUEL COMBUSTION: BEVIL AMENDMENT EXEMPTION

    Ms. Browner. On other Bevil Waste analyses, where we have 
felt like something was necessary, we have in other areas been 
very careful to recognize the differences between States and 
highlight those States that we think have good programs and 
then work to bring the other States up to that level. That is 
something that we are looking at here.
    Mr. Cramer. So, you have an extended deadline to----
    Ms. Browner. April 10th.
    Mr. Cramer [continuing]. Within two or three weeks from 
now. So, what do you expect to happen between now and then? I 
mean what will you be ready to do by then?
    Ms. Browner. We have to make a determination.
    Mr. Cramer. Have you put your interagency review on hold?
    Ms. Browner. Yes. We have to make a determination. We are 
under a court order to make a determination as to whether or 
not this waste can continue with its exemption under the Bevil 
Amendment.
    Mr. Cramer. And you expect to make that decision by that 
date?
    Ms. Browner. We have to make it by April 10th.
    Mr. Cramer. You have to make it by that date?
    Ms. Browner. Otherwise, I guess I go to jail.
    Mr. Cramer. Well----
    Ms. Browner. Or Tim goes for me.
    Mr. Cramer. What significant----
    Ms. Browner. I should say. You asked about whether we are 
in an interagency process that we are talking to all of the 
other interested agencies and we have been for some time now.
    Mr. Cramer. You have been but I understood that that had 
been put on hold?
    Ms. Browner. No, we are continuing to talk to them as we 
look at all of the information.
    Mr. Cramer. All right. Either now or later, you may not be 
prepared to answer this now, but what significant new 
information have you been reviewing?
    Ms. Browner. When we first started looking at the quality 
of State programs, many States were looking at upgrades in 
their programs. I think it is fair to say that hasn't been 
achieved uniformly. Some States are in better places than 
others and we would be happy to go over that with you. But it 
has not been uniform. This is a huge amount of waste.
    Mr. Cramer. All right. Because it is a huge amount of 
waste, and is it not--if I am putting this right--different 
kinds of waste?
    Ms. Browner. In terms of what is in the ash and will it 
vary from facility to facility?
    Mr. Cramer. Yes.
    Ms. Browner. It may vary. It would depend in part on what 
you are putting into the facility. For example, what kind of 
coal you are burning?
    Mr. Cramer. Right.
    Ms. Browner. If we were to decide to require a certain 
minimum level in any State program, that would probably have to 
be taken into account. That is true.
    Mr. Cramer. Well, I will look forward with great interest.
    Ms. Browner. The components of this waste are things such 
as arsenic, chromium, lead, mercury. It has a lot of components 
and in other areas these are things we regulate the disposal 
of. And, again, under the Bevil category of waste, what was 
envisioned and what we have certainly looked to in the past, is 
to help States maintain programs for appropriate disposal. And, 
again, I want to be clear, we do think there are some States 
that have made a lot of progress in improving their programs. 
Unfortunately, there are other States where that has not 
occurred.
    Mr. Cramer. Can you say what might be the main determining 
factor in making a decision?
    Ms. Browner. Maybe we can provide that in writing. There 
will not only be one factor in the decision.
    Mr. Cramer. All right.
    Ms. Browner. Under the Bevil Amendment we are required to 
look at a variety of factors in determining whether or not this 
should be a covered waste.
    [The information follows:]

            Fossil Fuel Combustion--Regulatory Determination

    Listed below are the factors taken into consideration when 
developing a regulatory determination.
    RCRA Section 8002(n) identifies eight study factors that we 
must take into account in our decision-making. These are:
    1. The source and volumes of such materials generated per 
year.
    2. Present disposal practices.
    3. Potential danger, if any, to human health and the 
environment from the disposal of such materials.
    4. Documented cases in which danger to human health or the 
environment has been proved.
    5. Alternatives to current disposal methods.
    6. The costs of such alternatives.
    7. The impact of those alternatives on the use of natural 
resources.
    8. The current and potential utilization of such materials.
    Also, in developing the Regulatory Determination, we are 
directed to consider studies and other actions of other federal 
and State agencies with a view toward avoiding duplication of 
effort (RCRA Section 8002(n)). In addition to considering the 
information contained in the Report to Congress, EPA is 
required to base its regulatory determination on information 
received in public hearings and comments submitted on the 
Report to Congress (RCRA Section 3001(b)(3)(C)).

                               TMDL COSTS

    Mr. Cramer. I know my colleagues have brought up the issue 
of TMDL and the cost to the States, and the private sector to 
accomplish this goal. But that is an issue of great concern to 
me, especially from the point of view of how can the States 
possibly perform the TMDLs?
    So, if you have already given that information I will rely 
on that.
    Ms. Browner. We also said we would provide some more 
information in writing. We don't disagree. In fact, as a part 
of our proposal we did put out cost numbers on the States 
running these programs. We believe that this is a program best 
run by the States. We don't want to be in the business at EPA 
of running it. There are existing programs in the States that 
this would be built on but there is an additional cost to the 
States. If they were doing all of the existing programs that 
they are committed to, I think we estimate that the base cost 
to the States for clean water programs of this sort would be 
about $70-to-$90 million.
    We should be clear about this. We don't think that they are 
doing everything they have committed to. We don't think that 
the States are investing the resources into the programs that 
they have already committed to.
    TMDLs would be an increment beyond that of approximately 
$10-to-$25 million, but you have this problem: If they are not 
doing the base that they are already required to do, thecost to 
them, obviously, will be greater. Then there is a separate cost, which 
is the cost of things like the BMPs that might be used to achieve the 
pollution reductions, and we do have some programs and we are asking 
for increases in those programs that can be used for BMPs. But 
certainly there is a cost to the actual sources of pollution that will 
have to be reduced.
    Mr. Cramer. All right.
    I think it is a setup for the States to fail.
    Ms. Browner. Because of a provision in the Clean Water Act, 
judges all over the country are forcing us to implement it. You 
don't want us doing this. You want the States to do this on a 
day-to-day basis. So, let's all work together to give them the 
tools they need to do it. I ran a large State agency, I know 
how challenging something like this can be, but I can also tell 
you as someone who ran a large State agency, I wouldn't want 
the Federal Government doing it. I would want to be doing it.
    Mr. Cramer. But if it is such an impossible setup, and the 
States are going to be sued, and they are going to have to go 
through those nightmarish----
    Ms. Browner. No. The problem is we, the EPA, are being sued 
right now and we are trying to get a program in place that will 
allow us to defend the lawsuit so the States can be in control.
    Mr. Cramer. All right.
    Ms. Browner. The Clean Water Act is written so the cause of 
action rests against EPA, not against the States. So, we end up 
having to enter into agreements about what the States are going 
to do.
    Mr. Cramer. Well, I will look forward to further dialogue 
on that.
    Ms. Browner. Thank you.
    Mr. Cramer. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Will the gentleman yield?
    Mr. Cramer. I would be happy to yield.
    Mr. Walsh. Unless there is an objection, I don't see why we 
couldn't. His time is up but is there any objection?
    [No response.]
    Mr. Walsh. Go ahead.

                         FOSSIL FUEL COMBUSTION

    Mr. Mollohan. Just one follow-up question. With regard to 
the gentleman's questions about coal-fired utility waste 
disposal----
    Ms. Browner. The ash.
    Mr. Mollohan [continuing]. I understand you have been sued 
in regard to that and the court has required that you come up 
with a final determination.
    Ms. Browner. Yes.
    Mr. Mollohan. Now, my question----
    Ms. Browner. We got an extension.
    Mr. Mollohan [continuing]. Is and the gentleman probably 
asked it, and you probably answered it, but I want it to be 
clear. As you make that final determination, what information 
would you come in contact with that would change your tentative 
conclusion? And I would just like to read that for the record. 
``The Agency has tentatively concluded that the co-managed 
waste generated at coal-fired utilities, including petroleum, 
coke combustion wastes, as well as waste from other fuels, co-
fired with coal, generally present a low inherent toxicity, are 
seldom characteristically hazardous, and generally do not 
present a risk to human health and the environment. Current 
management practices and trends and existing State and Federal 
authorities appear adequate for protection of human health and 
the environment.''
    Have the facts that generated that tentative conclusion 
remained the same or have you come in contact with or are you 
now privy to any facts that might alter that conclusion?
    Ms. Browner. I will give you two examples. One is that----
    Mr. Mollohan. Two examples of what?
    Ms. Browner. Of a new level of information. One is we have 
a far better understanding of State programs, of the individual 
State programs, in terms of disposal.
    Mr. Mollohan. Now, I heard that answer to him. If we can 
just be interactive here a little bit. I heard that answer to 
him and that is the reason I asked this. This isn't a 
programmatic issue, this goes to the toxicity----
    Ms. Browner. That is one component.
    Mr. Mollohan [continuing]. Of the substance.
    Ms. Browner. We also have to look at what the existing 
programs are in terms of adequately managing the waste.
    Mr. Mollohan. But just with regard to the inherent nature 
of the material, which is the statement I read to you, have any 
facts come to your attention that would change that conclusion, 
perhaps?
    Ms. Browner. Perhaps. That is right, because we have not 
made our final decision.
    Mr. Mollohan. Yes. I want to get into that if you are going 
to answer yes.
    Ms. Browner. We do have what we refer to as new damage case 
reports which we are analyzing that raise issues of groundwater 
contamination, that we have not been previously aware of and we 
are analyzing those. We would be happy to provide those.
    Mr. Mollohan. Okay.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Walsh. Thank you. Mr. Frelinghuysen is next, then 
following in order will be Mrs. Meek, Mr. Goode, Mr. Price. And 
we have also had a request from a member of the committee, 
although not a member of the subcommittee, Mr. Dickey, to ask 
questions, and I have acceded to that request on the condition 
that all the other members have their opportunity to ask 
questions first and Mr. Dickey would go at the end.
    I will need to leave about 11:30, and Mr. Frelinghuysen 
will then chair the Subcommittee. We can proceed.
    Mr. Frelinghuysen?

                                  MTBE

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Bon voyage.
    Ms. Browner. That is not what you say to the Irish. 
[Laughter.]
    Mr. Frelinghuysen. Well, you tell me what I should say in 
Irish, and I will do it.
    Madam Administrator, I want to get back to an issue that 
was raised earlier. Many of our constituents are anxious, 
apprehensive, in some cases angry about MTBE, methyl tertiary-
butyl ether, which we all know is a gasoline additive that by 
all reports is polluting water supplies across the country from 
New Jersey to California. California has at least 10,000 
contaminated sites; New York, 1,500; New Jersey has 500. By 
banning this fuel additive, I believe and many believe we can 
prevent the spread of this suspected human carcinogen to other 
sources of drinking water.
    I am here today to ask why the Environmental Protection 
Agency hasn't taken this action to date given all the concern 
and credible evidence. Why we haven't moved to ban this 
additive?
    Ms. Browner. Well, first of all, Mr. Frelinghuysen, we 
share your concern. We commissioned a blue-ribbon panel that 
reported back to us at that time in June. We called on Congress 
to amend the Clean Air Act to solve this problem. This problem 
is in part a factor of the 1990 amendments to the Clean Air Act 
which requires that gasoline sold in the most polluted cities 
include a 2 percent oxygenate. Within the industry right now 
there are essentially two ways to meet that congressional 
requirement. One is through the use of ethanol and the other is 
through the use of MTBE.
    We are very concerned about MTBE, and we are working within 
the Administration right now to look at all of the tools that 
may be available to us to address this problem absent 
congressional action.
    We continue to believe, as we did back in June and as we 
have said repeatedly since then, that the best solution to this 
would be a targeted fix to the Clean Air Act, retaining the 
opportunities for ethanol, which we think are important, 
ensuring the clean air benefits that have come through the 
reformulated gasoline, but providing flexibility to the 
refiners so that MTBE does not continue to be a part of the 
reformulated gas program.

                       MTBE: REGULATORY AUTHORITY

    Mr. Frelinghuysen. Some of us believe you have the ability 
now. If this is a public health hazard--and certainly the 
public perspective is--then you can be sure that many people 
feel that you can act unilaterally and the President can act. I 
checked with the Congressional Research Service at the Library 
of Congress that states that there are several authorities 
under which your Agency might act. I assume you are reviewing 
some----
    Ms. Browner. We are evaluating those, yes.
    Mr. Frelinghuysen. One is that the EPA has the authority 
under Section 211(c) of the Clean Air Act to regulate or 
prohibit the sale of fuel and fuel additives.
    The second authority is that EPA has the authority under 
Section 303 of the Clean Air Act to take emergency action 
basically by seeking a restraining order in the U.S. district 
court and temporarily issuing such an order on EPA authority to 
protect public health, welfare, or the environment.
    Thirdly, EPA has the authority under Section 6 of the Toxic 
Substances Control Act to prohibit or limit production or 
distribution in commerce of a chemical substance, and barring 
that those are not enough, the President could issue an 
executive order. With all due respect--and this is not a 
political shot--this President has issued more Executive Orders 
than any of his last five or six predecessors, and some people 
question whether, in fact, all of those Executive orders are 
necessary.
    To this person's mind--this is an option as well--the 
President ought to take some action because I think there is a 
crisis here. People are angry and apprehensive, and I would 
like to know what we are going to do about it.
    Ms. Browner. Mr. Frelinghuysen, we want this fixed. With 
all due respect, Congress could change the law. That would make 
it go away tomorrow. We are looking at every----
    Mr. Frelinghuysen. But these are reasonable options. We 
know how bound and determined you are when you want your way, 
and we respect that.
    Ms. Browner. In the legal constraints. Under the Clean Air 
Act authority----
    Mr. Frelinghuysen. With all due respect, these citations I 
assumed you have looked at----
    Ms. Browner. Yes, we have.
    Mr. Frelinghuysen [continuing]. And if you have considered 
it to be a true health crisis, you could be sure that somebody 
would invoke one of these authorities in which to act.
    Ms. Browner. Let me just mention, the Clean Air Act 
provisions that you cite we looked at, and here is the problem 
we have with them. They are about the quality of the air people 
breathe. The MTBE challenge isn't breathing. It is water. So we 
have to find a way to get to that problem.
    Mr. Frelinghuysen. Carol, I have no doubt in my mind that 
if you want to find a way, you can find a way to do it. What 
specifically has the Agency done to send to Congress some 
language or some changes that would help us expedite this 
process?
    Ms. Browner. I have been up here any number of times 
meeting with any number of people, largely on the Senate side--
I have not received requests on the House side--as to what we 
think would be appropriate changes in the Clean Air Act. I am 
happy to come up on the House side and do the same thing.
    Mr. Frelinghuysen. Tell me if I am incorrect. There is 
actually, I understand, through the House Health and 
Environmental Subcommittee--they recently held a committee 
meeting. Reference was made to a 1987 EPA memo acknowledging 
the danger of MTBE prior to the implementation of the Clean Air 
Act Amendments of 1990. This memo questioned you----
    Ms. Browner. Let me tell you what I did----
    Mr. Frelinghuysen. Let me just read----
    Ms. Browner. I wasn't there in 1987.
    Mr. Frelinghuysen. Yes, but you are responsible for 
knowing----
    Ms. Browner. I convened a blue-ribbon panel. I have 
agreed----
    Mr. Frelinghuysen. Yes, I understand that----
    Ms. Browner [continuing]. With the panel that Congress 
should act.
    Mr. Frelinghuysen. But your Agency has, one has to assume, 
institutional memory and responsibility.
    In 1987, and I quote, ``Known cases of drinking water 
contamination have been reported in four States. These cases 
affect individual families as well as towns up to 20,000 
people. It is possible that this problem could rapidly mushroom 
due to leaking underground storage tanks at service stations. 
The tendency for MTBE to separate from gasoline mixture into 
the groundwater could lead to widespread drinking water 
contamination.''
    I assume when you appeared before that committee there must 
have been some----
    Ms. Browner. I didn't appear.
    Mr. Frelinghuysen. Well, there must have been some 
acknowledgment within your overall bureaucracy of this memo.
    Ms. Browner. Mr. Frelinghuysen, we are happy to have the 
people who testified talk to you. Can I just say something? We 
don't have a disagreement here. I want the substance gone, and 
rest assured that I am doing everything within my legal power 
to figure out how to do that. But why don't we all sit down and 
craft legislation? Why don't we call a meeting? Why don't you 
call a meeting and I will be here----
    Mr. Frelinghuysen. Many of us feel you have the authority 
to do it now, and if it is a health crisis, then somebody in 
your department or the President----
    Ms. Browner. And we are----
    Mr. Frelinghuysen [continuing]. Ought to act.
    Ms. Browner [continuing]. Analyzing those provisions. We 
will make a decision, and we will make the public aware of that 
decision. I have not abdicated my responsibility for public 
health----
    Mr. Frelinghuysen. I never used the expression 
``abdication.'' You used that expression. But I think the 
concern is legitimate, and I know enough about your modus 
operandi that if there is a crisis out there, and I respect 
your abilities, you can say to the White House we have got to 
do something.
    Ms. Browner. With all due respect, Mr.----
    Mr. Walsh. This conversation is going to have to be 
continued after this vote. You can think about thoughtful 
responses to this line of questioning, and we will return 
shortly.
    [Recess.]
    Mr. Frelinghuysen [presiding]. The meeting will come to 
order, please.
    It is a pleasure to recognize Mr. Price.

                          FY 2001 INITIATIVES

    Mr. Price. Thank you, Mr. Chairman.
    Ms. Browner, welcome to the subcommittee once again. I'm 
glad to see you. I want to start out by just commending you on 
a couple of initiatives that EPA has undertaken which I think 
are highly promising and show some creative thinking about new 
ways of doing things, such as forming public-private 
partnerships and putting the Government in a new kind of 
facilitating role. These Better America Bonds I think, in 
particular, are a great idea. It is a similar concept that we 
are trying to apply to school construction. And what you are 
proposing to do is to dedicate $700 million over 5 years to 
provide communities with additional resources, not by telling 
them when or how or whether to issue bonds, but saying that 
when they choose to do this for environmentally appropriate 
purposes, the tax code will be their friend and it will help 
them stretch the dollars further.
    I think also the clean air partnership funds are a good 
idea, and are strongly supported in our State, where you are 
giving incentives for cities, States, and tribes to partner 
with the private sector, the Federal Government, and each other 
to provide cleaner air to local citizens, demonstrating smart 
multi-pollutant strategies to reduce air toxics and soot and 
smog and greenhouse gases to protect our climate and health. So 
we commend you for that, and I think it is a very promising 
approach, an innovative approach, and I hope that we can move 
it along.

                         RESEARCH TRIANGLE PARK

    The project we have talked about when you have appeared 
before the Appropriations Committee for the last 8 years is the 
EPA facility in Research Triangle Park, North Carolina, a 
wonderful facility which is under construction now, well 
underway, and we are looking forward to dedicating it early 
next year.
    I know the facility it is paid for now, and I am glad to 
report that. Is there anything we should know about the current 
status of that project and any implications for our 
deliberations this year?
    Ms. Browner. Well, first of all, I just want to thank all 
of the members of this committee for their support. We are 
getting a state-of-the-art facility. It is something that will 
be incredibly helpful to us and the work that we do. We do it 
at RTP but it affects literally the entire country.
    The good news is that we are on schedule. Some of the 
components that were a challenge have been resolved in terms of 
the High Bay facility. The other good news is we have moved the 
supercomputer, and that was a cost savings to the taxpayer. We 
have it there, and when the building is done, we will be ready 
to bring it on into the new facility.
    So I think unless there is something I don't know that 
maybe you know, everything is progressing. It is happening.
    Mr. Price. Well, it is an interesting, awe-inspiring 
construction site--the scale of this operation and the 
environmentally friendly techniques that are being used. And 
also I do commend you on the handling of the computer center 
question--the movement of the equipment to North Carolina, and 
the additional move scheduled within a couple of years. Even 
with those dual moves, we have saved the taxpayer money and, I 
think, enhanced those computer services.
    Ms. Browner. There is included in this budget request, 
while it is not for construction, funds for the move, and for 
decommissioning the sites we have been in. So there is a modest 
request for those activities in our budget request.
    Mr. Price. To actually pay for the move once it occurs.
    Ms. Browner. Yes, move the people.

                   food quality protection act (fqpa)

    Mr. Price. Right. Now, let me take the remainder of mytime 
to ask you about another question that has come up in past hearings and 
ask you to respond to some questions that have been raised about the 
Food Quality Protection Act and your implementation of that ``Act.'' We 
have corresponded a good deal about that, as have other members.
    I am afraid I do continue to hear some concerns from 
growers and those in the pesticide industry about EPA's 
implementation of that law, and I would just like to ask you 
about some of those concerns. They seem to center around a fear 
of losing pesticides and pesticide uses unnecessarily because, 
they suggest, decisions about re-registrations under FQPA are 
being made on the basis of incomplete information about 
exposure to pesticide residues and actual levels at which 
pesticides are used.
    Now, the central conflict in implementing this law--and I 
know you are under some conflicting demands here--seems to be 
the incompatibility between strict adherence to the timetable 
for reviews of pesticides laid out in the statute, while at the 
same time ensuring that you have complete and reliable 
information on which to base the decisionmaking.
    The law, as I understand it, permits EPA to postpone 
deadlines for reviewing pesticides if inadequate information 
exists on which to base decisions and permits EPA to use data 
call-ins to require manufacturers to produce the necessary data 
for good decisionmaking.
    For example, just quickly, one example I have been given is 
the lack of reliable information on residential exposure to 
pesticides. The FQPA statute instructs EPA to establish safe 
tolerances for pesticide residues for dietary exposures and all 
other forms of exposures for which there is reliable 
information.
    Yet, in an October 1998 Federal Register notice, EPA states 
that, ``Because highly specific residential exposure data are 
generally lacking and there is not wide understanding and 
acceptance of existing models and assumptions, several work 
groups and task forces are working to generate data and improve 
methods for conducting residential exposure assessments.''
    And yet you are facing these deadlines. In the same 
document you state that, ``The Indoor Residential Joint Venture 
Task Force is expected to have a Phase 1 draft document 
available in March of 1999, Phase 2 completed by October of 
2000.'' I assume these documents are designed to address the 
deficit of information about residential uses and exposures.
    I know that in the absence of chemical-specific information 
about residues and uses, you sometimes use what you call 
standard operating procedures, which are sometimes called 
default assumptions. Is that right?

                    FQPA: RESIDENTIAL AND FARM USES

    Ms. Browner. I don't know that we have used them. This 
question has to be answered in two ways. One is what we are 
doing generally to increase the information we have on 
residential or in-home use and then chemical-specific, because 
it does vary. In some instances, we have much better in-home 
use numbers on specific chemicals than we have in other 
instances.
    Mr. Price. Why don't you just proceed to address the 
broader issue of how you are going to address this lack of data 
about residential exposures, and then to what extent you would 
be relying on the SOPs.
    Ms. Browner. The work we are doing right now is focusing on 
organophosphates, which are some of the older and more widely 
used, frequently World War II-type chemicals. The process that 
we are engaged in there is a very public process. We do a risk 
assessment. We make that publicly available. We work hand in 
glove with USDA to understand both what the farmers' concerns 
may be, but also what the real use information is. This has 
been one of our challenges that you and I have discussed 
before, finding out what goes on in the field.
    On the residential use issues, peer science review, we have 
been making changes in how we do the residential reviews. We 
have issued a data call-in on residential exposure on lawns. We 
are awaiting that information. We do have a residential 
exposure task force underway.
    But as I said, we have more detailed information on some of 
the residential chemicals than we have on others. Where we have 
that kind of information, depending on what the risk may be, 
whether or not the risk levels are exceeded by the use, we may 
be moving forward with decisions.
    All of our decisions have to be supported by the data that 
we are required to have.
    Mr. Price. So you are using some of this data call-in 
authority?
    Ms. Browner. Yes, for lawns, for example, in the 
residential arena we have issued a data call-in on lawn use for 
members of the community. We are trying to understand how much 
of certain chemicals are actually being used on residential 
lawns. We may know total sales, but what we need to know is 
where and how they are being used.
    Mr. Price. Well, to what extent are you having to rely on 
these default assumptions or SOPs?
    Ms. Browner. On the decisions we have made to date under 
the organophosphates, we could provide in writing if default 
assumptions have been used. Apparently, we have not used 
default assumption at all. In fact, the two organophosphates 
decisions to date have been based on real data.
    [The information follows:]

EPA's Use of Default Assumptions in Its Reassessment of Tolerances for 
                       Organophosphate Pesticides

    EPA's two Organophosphate Pesticides decisions (azinphos 
methyl and methyl parathion) have been based on risk reduction 
actions from dietary risk assessments performed under Section 
408(q) of the Federal Food, Drug and Cosmetic Act, as amended, 
by the Food Quality Protection Act of 1996. At issue is the 
extent to which EPA relied upon ``default assumptions'' when 
assessing the risks posed by each of these pesticides. EPA's 
two Organophosphate Pesticides decisions were based on ``real 
data,'' not default assumptions.

    Mr. Price. All right. Well, obviously, what we are dealing 
with here is a difficult situation where you have some time 
lines you need to meet, and the public safety requires that you 
are attentive to those. At the same time, we want to avoid 
unnecessary regulation and unnecessary restrictions on products 
available to farmers, consumers, builders, and others.
    So if you could bring us up to date on that, perhaps using 
the question of residential exposure as a kind of case study 
and how this is working and the way you are balancing these 
concerns, that would be very helpful to us. I know I have 
limited time here today, but I do think the Agency--based on my 
impression from talking to lots of people about this and 
observing this for some time now--is going to have to do more 
to address the concerns about the adequacy of the data and the 
assumptions that are forming the basis of FQPA decisionmaking. 
And I hope you are going to redouble your efforts to engage 
stakeholders in this process.
    Many of them, as I am sure you realize, are right now 
rather alienated from the process and feel that there is 
considerable uncertainty about how this process is working, 
what is going to be required of them, and what kind of 
information is going to be used for the eventual standards that 
are put in place.
    Ms. Browner. This has been a significant undertaking for 
the agency. I am obviously disappointed if there are people out 
there who feel like they haven't been engaged. We spend huge 
amounts of time working with the individual companies, working 
with the agricultural community, before any decision is made.
    We have not yet made regulatory decisions on any of the 
organophosphates that are designs as in-home-use chemicals. We 
do have one currently scheduled for a decision. It is imminent. 
If you have some specific questions about that one, we would be 
happy to make sure your office knows when we move forward with 
a proposal or of any discussions we may be having with the 
industry about the product. But as of this point, our focus on 
the OPs has not yet included any of the chemicals that are used 
in-home.
    Mr. Price. All right. Thank you. We may have some 
additional questions that we submit for the record to carry 
this forward. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Price.
    The gentle lady from Florida, Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Welcome, Administrator Browner. It is always good to hear 
you and the members of EPA. I greatly admire your efficacy as a 
leader of this many times maligned Agency, but in the 7 years I 
have been here, you have held your own, and the Agency has 
also, and I am glad that you have that kind of knowledge to do 
that, particularly the fact that you are a native Floridian and 
you have shown these folks in Washington what it takes to lead 
an agency.
    Ms. Browner. Thank you.
    Mrs. Meek. I thank you for it.
    Mr. Chairman, if you would allow me just a minute off the 
record?
    Mr. Frelinghuysen. I suppose that is possible, if anything 
is ever off the record, Mrs. Meek.
    Mrs. Meek. I just wanted to warn members of the 
subcommittee that there are certain people in this committee 
who have niches and some of us are beginning to erode the 
niches. Some of them are going into global warming. I warn them 
to stay away from it. They are going into climate control. That 
is the turf of one member. They have also gone into flip and 
flap. That is my turf. [Laughter.]
    And they are going into that.
    Mr. Frelinghuysen. This is good enough to be on the record. 
[Laughter.]
    [Pause.]
    Mrs. Meek. Now going to the substantive part of my 
presentation----
    Mr. Frelinghuysen. I thought the other was pretty 
substantive. [Laughter.]
    Mrs. Meek, the floor is yours.

                         ENVIRONMENTAL JUSTICE

    Mrs. Meek. Thank you, Mr. Chairman.
    I am very concerned because many people in the civil rights 
movement and many environmentalists have really accused EPA of 
not really having aggressive enforcement in minority and low-
income communities in terms of your environmental justice 
action. It seems to me that there are certain disparity impacts 
that have been looked at and criticized by environmentalists 
and civil rights groups, particularly the great plans that were 
made during the 1990s regarding what the Agency would do in 
terms of environmental justice. And many things were at that 
time recommended and weren't followed, and, of course, EPA 
tried their best, I am sure.
    It appears to me, Ms. Browner, that there has been quite a 
bit of inspection but limited enforcement of some of these 
standards. I come from a community that is in dire need of the 
kind of thing that environmental justice would bring to them, 
communities where water pollution, air pollution, and the kinds 
of things which many times are overlooked, and I have asked so 
many questions on this subcommittee about the Superfund. I have 
met with your staff members and got some very good information. 
But it just doesn't seem to happen.
    And I want to ask you now, can you give me some insight as 
to what is going on in EPA in terms of adding some teeth to 
your enforcement of environmental justice programs?
    Ms. Browner. Well, we have done a number of things to 
ensure that the very real concerns of minority communities are 
incorporated into all of our decisionmaking. For example, when 
we look at setting new pollution standards, we take into 
account the most at-risk population. While historically, a lot 
of the work would be done around sort of the average middle-
aged white male, now we look at specifically the impacts on 
communities at risk, which will frequently be minority or 
tribal communities. We look at impacts on children. We know 
that if we protect the most at risk, then we are protecting the 
population at large.

                ENVIRONMENTAL JUSTICE: TITLE VI GUIDANCE

    Second, we have created an Advisory Committee on 
Environmental Justice to hold us accountable, and to work with 
us. Perhaps the most important thing which we are preparing to 
do and we will have ready in early spring is Title VI guidance. 
Ann Goode, who has been spearheading this effort, has just done 
an incredible job. These meetings are difficult. Theyare 
intense. There are a lot of emotions on all sides of the issue. But we 
are preparing to put the guidance out for notice and comment. We do 
want to hear from people despite all of the stakeholder involvement 
that Ann Goode has been involved in--guidance to the States on how they 
can incorporate environmental justice and Title VI of the Civil Rights 
Act requirements into their decisionnmaking, and into their programs.
    It is our strong desire and hope--and this will not be 
achieved in every instance, but I certainly hope we can achieve 
it in more instances than not--that the needs of these 
communities are brought in on the front end, that they are not 
simply left to file a petition, a lawsuit on the back end, 
because we never get good answers when we get down to that 
level.
    Those rights exist. We honor those rights. We preserve 
those rights. But the real solution to this is to engage these 
communities, to engage their very real concerns, the very real 
impact in these communities on the front end. That is what this 
guidance is designed to do, to give States tools because we are 
not there every day making every single decision. The States 
make, as you well know, the lion's share of these decisions. If 
it would be helpful when the guidance is ready to go out for 
notice and comment, we would be happy to engage in whatever 
briefing people up here would like to understand what our 
thinking is. After we receive the notice and comment, we will 
make whatever appropriate adjustments are necessary and then 
finalize the guidance.
    It has taken us longer than we wanted. I am the first to 
tell you that. But the emotions and the very real concerns on 
all sides are tough. It is a very, very difficult thing we are 
trying to do.
    Mrs. Meek. I also think that perhaps Ms. Goode can help my 
staff and I in terms of how things happen from the local level 
all the way up to the Federal level, because each one says that 
it is someone else's responsibility, and it just never gets 
done in many of these areas. So I would ask Ms. Goode if she 
will assist my staff in helping us to trace how these things--
how we can make something happen, which we are not able to do 
right.
    We have lead poisoning problems. We have all kinds of 
problems in that community, and you do have information on 
local communities. I know that you are doing that kind of data 
collection, and it will help us tremendously if we will ask Ms. 
Goode to help us in that regard.
    Ms. Browner. Thank you.

        HOMESTEAD AIR FORCE BASE: environmental impact statement

    Mrs. Meek. I have another question regarding Homestead Air 
Force Base. No one wants to hear that word, Homestead Air Force 
Base. It is like that old vaudeville routine: ``Slowly I turn, 
step by step.'' [Laughter.]
    But, anyway, in 1993, BRAC turned this into a joint-use 
facility. It has been 7 years. We had our environmental impact 
statement. We had a draft supplemental environment impact 
statement. And it is about to be concluded.
    When it is concluded, the Defense Department will issue a 
final record of decision recommending how the base should be 
disposed of. Two competing plans have emerged: the Dade County 
plan, which would turn the base over to Miami-Dade County and 
develop it as an airport, and the Collier-Hoover plan, which 
would provide office, shopping centers, golf, and other forms 
of development.
    Ms. Browner. Right.
    Mrs. Meek. Has EPA taken a position? Should EPA take a 
final position on the final disposition of the base? Will you 
play any role in the evaluation of comments concerning the 
SEIS? What role, if any, does EPA play in the base realignment 
and closure process generally? And what role have you played in 
the Homestead scenario?
    Ms. Browner. Under the environmental impact statement 
process, EPA is what is referred to as a commenting agency. We 
have filed extensive comments. The Air Force, because it is 
their base, is what is referred to as the lead agency, while, 
for example, Department of Interior has commented, and we have 
commented.
    In our comments, we raise very real concerns about water 
quality and how potential development will affect water 
quality, which is already stressed and strained, as you well 
know, in South Florida for a number of reasons. We are 
particularly concerned about an airport and all of the impacts 
that a large-scale airport that has been proposed or considered 
would bring to water quality, including in areas like Biscayne 
National Park.

                         EVERGLADES RESTORATION

    Mrs. Meek. All right. If I have a little more time, Mr. 
Chairman, I have some more questions. I will quickly run 
through them.
    Another issue I have, Ms. Browner, has to do with 
Everglades restoration, among the many that I have. I will 
certainly turn in others or wait until the third round.
    I heard you speak in Naples, Florida--incidentally, you 
speak very well--earlier this year before the Senate Committee 
on Environment and Public Works. And I know that you support 
Everglades restoration.
    Could you discuss what will be the EPA's role in the 
implementation phase of the restoration plan? I notice that 
your budget has $50 million for a significant new investment to 
restore water quality in the Great Lakes, which we talk so much 
about today. Does EPA include funding for this plan in your 
fiscal year 2001 request, that is, the Everglades restoration? 
If so, how much and in what accounts?
    Ms. Browner. As I know you are well aware, the 
administration, and the Florida delegation in a bipartisan 
effort have put forward a restoration plan. It has not yet been 
authorized by Congress, which would obviously be the first 
phase. I would hope as a native Floridian, that that is sooner 
rather than later. After authorization we would then look to 
the appropriations process.
    The role that EPA will play in the long-term restoration of 
the Everglades is the protector of water quality. Because of 
the Clean Water Act, our job on behalf of the people of South 
Florida is water quality. It is fresh, clean water.
    We were a key agency in developing the restoration plan, 
which focuses not just on protecting Everglades National Park 
but also on cleaning water and making sure there is abundant 
water available.
    We are specifically asking Congress this year, when they 
reauthorize the existing Everglades projects, which as you well 
know, some projects have been going on 30, 40, 50, 60 years 
down there--to change the existing project purpose. The 
existing project is now beginning to encompass some of the 
restoration components. We are asking Congress to change that 
project to include not just water quantity, which it has 
historically included, but also water quality. That is a 
specific request from the Environmental Protection Agency, from 
me, because if youdon't do it, history will continue to repeat 
itself. We will continue to make water quantity decisions, but we will 
forget about actually cleaning up the water. The two have to go 
together.
    So we are very interested this year in seeing WRDA amended 
to include for the existing Everglades project water quantity 
and quality.
    The budget we have before you right now includes 
approximately $3 million for our ongoing Everglades activities. 
Again, once the full restoration is authorized, then the 
administration would make an appropriations request.

                          DEEP WELL INJECTION

    Mrs. Meek. All right. And what is the status of the rule 
change that you promised me last year on the deep well 
injection----
    Ms. Browner. We are about to be done.
    Mrs. Meek. It is about to be done?
    Ms. Browner. Yes, in the spring. We have been working with 
the county. We have this issue in two counties in Florida, and, 
Mrs. Meek, I think people are happy. I think we have managed to 
take care of everyone from the city to the county to the 
environmentalists.
    Mr. Frelinghuysen. It is a question of whether Mrs. Meek is 
happy.
    Mrs. Meek. I want to get it done. [Laughter.]
    Ms. Browner. Well, she wanted us to do it more quickly. You 
know, when we try to make everyone happy, it takes more time. 
And I wanted to do it more quickly, but I think we are set to 
go.
    Mrs. Meek. Thank you. Thank you, Mr. Chairman.

                       MTBE REGULATORY AUTHORITY

    Mr. Frelinghuysen. Thank you, Ms. Meek.
    I just want to follow up on some of our MTBE issues. I 
somewhat cut you short because we recessed to vote, and I did 
want to give you, somewhere along the line, equal time. We have 
talked informally in my return to the room about whether you 
would like to expand on your response.
    Ms. Browner. Let me say this, because I appreciated that 
informal moment we had.
    This is an issue where I think we all know something needs 
to be done. We will, as quickly as possible, conclude our 
review of existing authorities in terms of what we can do 
administratively and make an appropriate announcement.
    Just the one caution I have, as you all well know--and we 
had just had a question and answer about our administrative 
authorities--they don't happen overnight, and rightfully so--it 
involves notice and comment, litigation. So anything I can come 
up with administratively--and we are being more creative than 
we possibly dreamed of--is going to present a challenge.
    Mr. Frelinghuysen. We urge you to do it. I think you have 
got the message, and thank you.
    Mr. Goode, thank you for your patience.

                        Virginia Copper Lawsuit

    Mr. Goode. Thank you.
    Ms. Browner, you in your previous testimony stated how 
under, I believe, the Clean Water Act the EPA would be sued if 
there was not compliance.
    Ms. Browner. We are being sued.
    We have TMDL litigation in 37 States.
    Mr. Goode. All right.
    Ms. Browner. We settled a Virginia one.
    Mr. Goode. Well, I know what happened in Henry County, and 
you all may have been sued down there or it is possible it was 
settled before suit. But even if you were sued, your bill and 
the one that goes up, if it is a water plant that needs to 
upgrade or do something, it is the water customers in Henry 
County that are going to have to pay the increased fee. You 
agree with that, don't you?
    Ms. Browner. If we have settled a TMDL case----
    Mr. Goode. No, this isn't a TMDL.
    Ms. Browner. What is it? I apologize. I am not----
    Mr. Goode. This was about copper in the water.
    Ms. Browner. I apologize. Was EPA sued or was the State 
sued?
    Mr. Goode. It could have been the State.
    Ms. Browner. Okay. We are happy to take a look at the case. 
Unfortunately, we have a lot of litigation. I don't know this 
one.
    Mr. Goode. I know. But even if you are sued, my point is 
the one that has to pay the bill for the suit isn't the EPA. Am 
I not correct on that? If you have to tell a locality or a 
State you have got to upgrade your water plant or you are going 
to have to take these actions on the river, they are the ones 
that have got to cough up the money to do whatever is 
necessary.
    Ms. Browner. In the----
    Mr. Goode. Generally speaking.

                            TMDL litigation

    Ms. Browner. Well, there is not a general answer. It will 
vary from statute to statute. An example I can give you is in 
the TMDL litigation. I mentioned earlier a Florida litigation 
that I am familiar with on Lake Okeechobee. We are actually 
doing the work there to set the standard. We are doing the 
work. The State chose not to. They are working with us, but 
they chose after the settlement not to take the lead. So we are 
actually doing it, and we foot the bill when that happens.
    Now, once the standards, the loads are put in place, our 
great hope is that the State of Florida is going to take back 
the day-to-day responsibility of it. As I said previously----
    Mr. Goode. In that one you are talking about now when you 
said EPA, is it coming out of EPA's budget?
    Ms. Browner. Yes. In terms of the actual scientific work 
that we are doing, yes, we are paying for that. But I was going 
to get to your point, which is, you are correct, that once a 
plan is developed in terms of the work of reducing the 
pollution, there will be, if it is done through best management 
practices but there may be requirements beyond that.
    Mr. Goode. And that is when the States and the localities 
or private people have to cough up the money.
    Ms. Browner. As is commonly true with other pollution 
sources, there can be a cost of reducing pollution to a private 
source. That is true.

                               TMDL COSTS

    Mr. Goode. On TMDLs, how much do you have in this budget 
request for EPA's costs associated with TMDLs?
    Ms. Browner. Well, again, the way the statute is 
envisioned, it is actually work that is done at the State 
level. We are requesting an increase of $45 million in our 
Section 106 grants. That is money that will go to the States. 
That is on a base of $115.5 million, so it is almost a 30 
percent increase for the TMDL Section 106 State grants program.
    We are also requesting an increase in non-point-source 
grants. Non-point-source grants, while not directly a piece of 
TMDLs, canfrequently get you the kind of load reductions. There 
we are requesting a 25 percent increase, again, in money that goes to 
the State.
    Mr. Goode. Are there any lawsuits on specific streams in 
Virginia and Southside, Virginia?
    Ms. Browner. Mr. Chairman, this might be helpful to the 
whole committee. We will give you a list of all of the 
litigation. We don't like the position we are in. I don't like 
the position we are in, and it is an odd position because the 
allegation is that the States didn't do what they were supposed 
to do under the Clean Water Act, but the Federal cause of 
action rests against us. It is a very complicated position we 
have been put in, which is why we have this proposal to try and 
get everyone beyond the 37-plus litigations that we are 
involved in.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Goode. Are the plaintiffs in a lot of those litigation, 
are they residents of the area or residents along the streams, 
or are they environmental groups? Because I know----
    Ms. Browner. They are probably both.
    Mr. Goode. There were the environmental groups up here that 
came down to Henry County and wanted a high--they wanted less 
copper in the water than what was naturally in the water, and 
they wanted the Henry County residents to pay the water bill to 
jack it up so that it would be reduced. They eventually won, 
but it cost Henry County--and it was--they said--the State said 
that is the Federal standard on copper in the water. And it 
didn't hurt humans. It only hurt potentially some plant life in 
the stream. And if it came down between the plant life and the 
jacked-up water bills, most of the residents would rather have 
not paid the jacked-up water bills.
    Ms. Browner. Again, I am not familiar with that specific 
case. I am happy to take a look at it. We will provide to the 
subcommittee for the record a list of all the TMDL litigations, 
and we will specifically----
    Mr. Goode. This isn't TMDL.
    Ms. Browner. I know. But we will also give you the TMDL 
litigations in Virginia.
    We have an MOU with Virginia, and we are trying to do this 
with other States to establish a memorandum of understanding on 
how the State might manage TMDLs. If we can get those, then we 
go back to the court, and then at least whatever consent decree 
the judge imposes on all of us, it is with the work of the 
State. That is the best possible scenario. Not every State is 
willing to do that, and that presents a host of challenges.
    Mr. Goode. I thought under the Clean Water Act the theory 
was that the State had primacy rather than the EPA. Do you 
disagree with that?

                         TMDL STATE FRAMEWORKS

    Ms. Browner. Where the States have developed a program and 
we have approved the program, they have primacy for water 
quality standards. I don't disagree. And for TMDLs, they do. 
But when Congress wrote the statute, they didn't say sue the 
State for not doing the job. They said if the State doesn't do 
the job, then you can sue EPA to force EPA to do the job. That 
is why we are trying to get a rule in place, a framework, for 
the States so that we get out of this completely crazy 
situation of litigation river by river.
    Mr. Goode. And you are going to let the State set the 
standard river by river.
    Ms. Browner. Right. They would do the work on determining 
the excess load, and how much pollution needs to be reduced. 
That is step one. Step two is to write the plan for achieving 
those reductions.
    Now, obviously, we have to review those----
    Mr. Goode. Suppose the State looked at it and said I don't 
think it needs any reduction, I think it is fine just like it 
is, all the users along the river are happy, all the adjacent 
landowners are happy?
    Ms. Browner. They could make that decision. But the State 
has set water quality standards--that go back several years. 
The first real step in the process is the State set water 
quality standards. Let me just use phosphorus because it is an 
easy example. I don't know if Virginia has a phosphorus 
standard--I am sure they do. So Virginia sets a phosphorus 
standard. They say how much phosphorus is their water quality 
standard for the State. That----
    Mr. Goode. But you have to approve that phosphorus 
standard.
    Ms. Browner. Yes. Generally what has happened is we set 
national standards as a backstop, and then the States work 
against those. If a State fails to set a water quality standard 
that they are required to set, then the Federal standard 
prevails in writing permits.
    The reason you want a water quality standard is so that 
industry can get their permits. The permit has to have 
standards in it.
    Now, I don't happen to know how far along Virginia is in 
doing their water quality standards.
    States have a variety of views about this. Some have been 
very aggressive in getting out there and doing the work and 
others haven't. But apparently, Virginia has been doing it.
    The standards have to be scientifically justified. They 
can't just set any standard. But once the standard is set,then 
you look at the water----
    Mr. Goode. But the scientific justification, I go back to 
the copper standard----
    Ms. Browner. That is drinking water.
    Mr. Goode [continuing]. Was not what was good for humans, 
it was what was good for some kind of plant life in the stream.
    Ms. Browner. Again I do not know what litigation you are 
talking about, but the Clean Water Act is very specific. 
Congress was very specific, and every time they revisited the 
Clean Water Act, they have maintained that the goal of the 
Clean Water Act, the commitment is fishable and swimmable. So 
it is not simply human health, it is also environmental health. 
It is both.
    Mr. Goode. Fishable and swimmable, I guess the reason it 
was not fishable was there was some fish there that could not 
eat a fern, even though it had plenty of other stuff to eat. 
That is what you are saying, is it not?
    Ms. Browner. Sir, I have said four times now, and I am 
going to say it one more time, I do not know what this 
litigation is. If you want me to comment on it specifically I 
will read it.
    Mr. Goode. I am not talking about this specific litigation. 
I am talking about the general thing. Your standard of fishable 
and swimmable----
    Ms. Browner. It is not our standard, it is Congress' 
standard.
    Mr. Goode. All right. But you picked--Congress does not 
pick the level of copper in the Smith River. Am I not right on 
that? You did.
    Ms. Browner. Any standard that we set under the Drinking 
Water Act or under the Clean Water Act, we are required to set 
based on best-available science and through notice and comment. 
We do not do this in the dark of night--people comment and 
there is lots of activity. If they do not like it, they sue us. 
So it is not as if this is something that people are not a part 
of, in your State or otherwise. They are a large part of it.
    Mr. Goode. But I can guarantee you none of the right people 
at the wallet company down there ever had any idea of what was 
going to blindside them on the copper standard.
    But let me go to something else you said. On the utilities 
that were grandfathered, you said if they changed the oil, they 
could change oil, but they couldn't change the engine; isn't 
that right?
    Ms. Browner. That was a----
    Mr. Goode. That is your analogy.
    Ms. Browner. Uh-huh.
    Mr. Goode. What about if they change the transmission? 
[Laughter.]
    Ms. Browner. I do not know enough about cars. [Laughter.]
    Mr. Frelinghuysen. Relative to cars, Madam Administrator, 
do not keep your car engine running because you may be here a 
little longer than we had originally anticipated.
    Mr. Goode, if you could wrap up, we are going to go to Mr. 
Mollohan.
    Mr. Goode. Thank you.
    Mr. Frelinghuysen. Thank you
    Ms. Browner. If you change your transmission, do you get 
different emissions levels?
    Mr. Frelinghuysen. Mr. Mollohan?
    Ms. Browner. I just want it to start in the morning.

           NO<INF>X</INF> SIP CALL AND SECTION 126 PETITIONS

    Mr. Mollohan. Thank you, Mr. Chairman.
    Madam Administrator, I would like to revisit an issue that 
we talked about a little bit last year, and that is the 
NO<INF>x </INF>SIP call and the Northeast Section 126 
petitions, and how those are playing out. And just to recap a 
little bit, we will remember that the D.C. Federal Court ruled 
some time ago that EPA had exceeded its authority in moving 
forward with the NO<INF>x </INF>SIP call----
    Ms. Browner. No, no. With all due respect, they put a stay 
on the NO<INF>x </INF>SIP call while we all argued whether or 
not it was appropriate. They have recently ruled in our favor.
    Mr. Mollohan. I am going to get to that.
    Ms. Browner. Okay. I am sorry. It was a stay. They did not 
say we exceeded our authority.
    Mr. Mollohan. It was a stay on your moving forward with the 
NO<INF>x </INF>SIP call.
    Ms. Browner. Yes, exactly. Correct, on the SIP call. That 
is correct.
    Mr. Mollohan. But just to put a point on it, what was the 
basis of the stay?
    Ms. Browner. To allow for consideration of both sides' 
arguments: our argument on why we should move forward and the 
industry argument on why we should not, or the States, I think, 
joined with some of the industry.
    Mr. Mollohan. Okay.
    Ms. Browner. We did have another ozone case, where the 
issue you are raising----
    Mr. Mollohan. No. I understand. So the Federal Court put a 
stay on your issuing the NO<INF>x </INF>SIP call.
    Ms. Browner. On moving forward, right.
    Mr. Mollohan. And then in some time frame, some of the 
Northeastern States moved forward with the Section 126 
petition.
    Ms. Browner. I think they may have actually been pending at 
the time.
    Mr. Mollohan. A series of petitions----
    Ms. Browner. Right.
    Mr. Mollohan. And after the stay, you granted several of 
the petitions, and those petitions asked you to pinpoint 
sources.
    Ms. Browner. Yes. I think some of them we granted before 
the stay and some of them after.
    Mr. Mollohan. That is interesting, but I'm not sure . . . 
it is material to my question.
    Ms. Browner. Okay.
    Mr. Mollohan. But fine. You granted several of those 
petitions.
    Ms. Browner. Yes.
    Mr. Mollohan. Which, having granted them, you subsequently 
moved with a suit against some of these States or some of these 
utilities, specific utilities.
    Ms. Browner. No. We have taken no action under Section 126, 
other than to grant the petitions. We have not completed our 
review of all of them, but we have taken no action pursuant to 
126. We have taken enforcement actions, and it may be that 
there are crossovers in the list of utilities, but we have 
taken no site-specific, facility-specific action under 126.
    Mr. Mollohan. Maybe we are just confusing two issues here. 
I mean, you are drawing very fine lines, and that is fine--but 
you are suggesting that EPA did not file lawsuitsagainst seven 
Midwestern and Southern utilities alleging that the utilities----
    Ms. Browner. Not under Section 126 of the enforcement 
cases.
    Mr. Mollohan. Excuse me.
    Ms. Browner. I am sorry.
    Mr. Mollohan [continuing]. Leading to these utilities or 
alleging violations of the Clean Air Act by modification of 
their plants without getting proper permits?
    Ms. Browner. We have not filed under the 126 petitions any 
action against an individual utility----
    Mr. Mollohan. Not----
    Ms. Browner. Right.
    Mr. Mollohan. Okay. Go ahead.

                           UTILITIES LAWSUITS

    Ms. Browner. Separate from 126, we have filed a series of 
enforcement actions against utilities.
    Mr. Mollohan. Well, if there is a relationship between the 
126 petitions and the requests by the petitioners that you cite 
specific sources and that you go after specific sources for 
reductions----
    Ms. Browner. There is no relationship.
    Mr. Mollohan. So your filing of suits against the specific 
utilities, has no legal or policy relationship?
    Ms. Browner. There is neither. They are filed under 
separate authorities.
    Mr. Mollohan. That does not necessarily suggest that there 
is no relationship. There is some relationship; the 126 
petitions are petitioning EPA to go after individual sources, 
are they not?
    Ms. Browner. Some States chose to name specific facilities 
in their 126 petitions, some States chose not to. That is 
correct.
    Mr. Mollohan. And your suit against the Midwest and 
Southern utilities were specific against those utilities, were 
they not?
    Ms. Browner. The cases that we have filed against 
individual utilities are an enforcement action and the result 
of an enforcement that has been underway for several years.
    Mr. Mollohan. Getting back to the gentle lady's questions 
from Kentucky, on the basis that these were not grandfathered 
modifications, but they were----
    Ms. Browner. Correct.
    Mr. Mollohan. And so that is a legal issue that has to be 
determined.
    Ms. Browner. Right.
    Mr. Mollohan. But what I assumed, and what you are 
suggesting is not a correct assumption, is that there was a 
relationship, either legal or policy relationship, between the 
126 petitions and the suits.
    Ms. Browner. They are two separate actions.
    Mr. Mollohan. Let me finesse that and go beyond. 
[Laughter.]
    Most recently, a three-judge panel has----
    Ms. Browner. We won.
    Mr. Mollohan. Yes, you won. And since you did win, you are 
able to move forward with the NO<INF>X</INF>----
    Ms. Browner. SIP call.
    Mr. Mollohan. Frank says so far. [Laughter.]
    With the NO<INF>X</INF> SIP--and he wishes you well. 
[Laughter.]
    With the NO<INF>X</INF> SIP, you can move forward with 
that.
    Ms. Browner. Correct.
    Mr. Mollohan. So my question is you have got two, arguably, 
enforcement actions going forward addressing Midwestern sources 
and the allegation of long-distance transport of NO<INF>X</INF> 
from the Midwest to the Northeast. And so I am, exploring your 
attitude and how you are going to move forward in this area. 
Will you pursue action in response to the 126 petitions or will 
you move forward with the NO<INF>X</INF> SIP and allow the 
States more flexibility; and then, how do these independent 
suits out there against the seven utilities play in all of 
this, if you will?

              NO<INF>X</INF> SIP AND 126 PETITIONS LINKAGE

    Ms. Browner. You have got it. There are three pieces.
    You might remember when we originally were sued by the 
Northeast States, the 126 petitions were filed, we said that 
the best way to meet their needs, to answer the 126 petitions, 
was through the NO<INF>X</INF> SIP call. We were essentially 
going to leave the 126 petitions there. But we had answered 
their air pollution concerns with the NO<INF>X</INF> SIP call, 
and that was a smarter way to do it.
    Then when the NO<INF>X</INF> SIP call got stayed, we had a 
problem because we no longer had an answer to the 126 petition. 
So we had to move forward to answer them, which we did.
    Mr. Mollohan. How did you do that?
    Ms. Browner. Each one has to be answered, depending on how 
the State filed the claim under the 126 petition. But we 
essentially granted them. We said, ``You are right. You are 
entitled to these reductions pursuant to the 126 process.''
    Mr. Mollohan. And specific sources you agreed with?
    Ms. Browner. No. What we said was, some States came in on 
specific sources and some States did not. What we said in 
granting them was you are entitled to this amount of reduction. 
How it is actually achieved may or may not be the sources you 
name. It would be up to the State that you listed to figure out 
how to get there.
    Mr. Mollohan. Well, that would be in the spirit of the SIP 
calls, I guess.
    Ms. Browner. Exactly. That is what we were trying to do, 
although we had this stay, and obviously we had to honor the 
stay. Now that the stay has been lifted, we are analyzing how 
to regroup and go back to what I think everyone thought--
whatever your opinion may have been on the levels--was the 
reasonable way to deal with the 126 petitions and the 
NO<INF>X</INF> SIP call, to try and weave them back together. 
We are trying to figure that out right now. We only got the 
Court's ruling in the last three weeks. So we are trying to 
figure that out right now.
    We continue to believe that the best solution is to go, not 
on a necessarily facility-by-facility basis, but to give 
individual States the ability to write a plan, and we are 
trying to figure that out.
    Mr. Mollohan. That would be to move forward with the 
NO<INF>X</INF> SIP calls.
    Ms. Browner. Yes, which we can now do.
    Mr. Mollohan. So that is your inclination at this point--to 
try to move in that direction?
    Ms. Browner. I think the challenge we have right now is 
that the 126 petitions give certain specific rights, in terms 
of time frames, and how can we incorporate that back into the 
NOx SIP call, and it is just a challenge we are trying to work 
out. And we would be happy to talk to people when we have been 
able to think this one through some more. That is our 
inclination. How we get there is hard.
    Mr. Mollohan. I would just encourage you to sort through 
that. Instead of having something these two actions coming at 
the States, it would be nice to have something far more clear-
cut. And you are suggesting that the suits against the 
utilities----
    Ms. Browner. Is a third piece.
    Mr. Mollohan. Are totally independent of this whole 
process.
    Ms. Browner. Right. But let me say this----
    Mr. Mollohan. But it is really not totally independent.
    Ms. Browner. Well, it may well be that some of the----
    Mr. Mollohan. At least it has impacted the suits.
    Ms. Browner. Here is how it can work out. Some of the 
enforcement actions, which we file under a separate authority, 
are in facilities or at facilities that were named in the 126 
petitions. Many of them were not, but some of them, there is 
some overlap.
    We have already settled one, and we have settlement 
discussions underway with others. If we settle with a specific 
company for a specific set of facilities, and they agree to a 
certain amount of reductions, the State, in writing their plan, 
can take into account those reductions. They can get credit for 
those reductions.
    Mr. Mollohan. Yes, and they can bank that, I suppose.
    Ms. Browner. Well, no, they do not even have to bank them. 
They have got them.
    Mr. Mollohan. Well, that is what I mean. They can credit 
them.
    Ms. Browner. Exactly. Right. But it is an independent 
action outside of the NO<INF>X</INF> SIP call and the 126. You 
are exactly right, the 126 and NO<INF>X</INF> are appropriately 
linked.
    Mr. Mollohan. I guess the question from people who are 
being regulated is are you going to move forward with both 
actions or are you going to----
    Ms. Browner. You know where we were originally. We are 
trying to see if we can get ourselves back over there. But 
obviously time frames have gotten messed up pretty 
significantly.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Thank you, Madam Administrator, for your testimony.
    Mr. Frelinghuysen. Thank you, Mr. Mollohan.
    Mr. Dickey?
    Mr. Dickey. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. And then he will be followed by Mr. 
Knollenberg.

                             TMDL PROPOSAL

    Mr. Dickey. Thank you to the committee, Mr. Chairman, Mr. 
Knollenberg, for letting me ask my questions at this time. And 
I want to thank you, Administrator Browner, for your past 
courtesies and being willing to listen as my constituents have 
come to you in the past and solved problems, and I hope, as you 
can see, for everybody's benefit.
    That is about the last of the courtesies that I want to 
show. I want to tell you that the TMDL is so serious I am 
worried I am not going to be able to get the right questions 
out. It is such a critical thing for me to hear from you and 
for my constituents to hear from you, as well as constituents 
all over the United States. I do not know if you know how 
serious it is, what a drastic, drastic, traumatic experience it 
is for mom-and-pop operations in timber, poultry and cattle.
    I have seen it, in that I have spoken to four different 
groups: one in El Dorado, Arkansas, where there were 1,100 
people; one in Texarkana, where there were 3,000; West Monroe, 
Louisiana, where there 2,200; and then in Fayetteville, 
Arkansas, where there were 3,100 people. They have sat quietly 
and listened, but have been so intent that I am just that 
concerned. And so I also am on borrowed time here, and so I may 
interrupt you if you are filibustering me in any way, which I 
have not seen that you have been doing.
    Here is the base, the foundation complaints that we had, 
and it is more or less, it might be even considered legal talk: 
We think that the TMDL proposal, as it is, changing what we 
have considered to be nonpoint source pollution to point source 
solution is a taking of property, of property value without 
compensation; it is violating the separation of powers; and it 
is legislation by regulation; and it is an unfunded mandate, as 
prohibited by statute from the United States Congress.
    What I would like to ask you first of all is do you 
understand the drastic nature of what you are doing at this 
time and what effect it is going to have on individuals all 
across the United States?
    Ms. Browner. First of all, we do not believe we are 
exceeding any of our authorities, but I am sure you know that 
is what we think.
    Secondly, I am keenly aware that there is a huge amount of 
confusion out there, and have personally been meeting with 
members and others. Mr. Fox, who has been in any number of 
meetings, will be joining you this afternoon in another 
meeting, to try and better explain what we are about.
    Mr. Dickey. When you say ``confusion,'' could you better 
say objections? There have been over 30,000 letters----
    Ms. Browner. Well, with all due respect, and I have not 
seen all 30,000 letters, but I have certainly seen enough of 
them to understand the tone. The premise of many of the ones I 
have seen is wrong. I do not know if you were here at the 
beginning when we first talked about TMDLs, but we are 
abundantly clear about the fact that the Clean Water Act does 
not give us any authority to require a permit, a Federal 
permit, for nonpoint source.
    Mr. Dickey. But that is not the whole story.
    Ms. Browner. I know, but, sir, with all due respect, a lot 
of the letters we get say that is what we are doing. But we do 
not even have the legal authority, and I think that is a 
confusion.
    Mr. Dickey. Well, all you are doing is reclassifying 
nonpoint source and calling it point source, and so you have a 
technical response that you can do that. But it is still--do 
you understand, people out there do not deal in all of these 
sophisticated terms.
    Ms. Browner. Right. I agree.
    Mr. Dickey. What they hear is what we have been allowed to 
do for years, and years, and years, and decades, and decades, 
and decades, because of some people up here in Washington who 
have never set foot on the ground that they take care of it, 
and they depend on, and have never seen the water that they 
protect so that their children and their grandchildren will, in 
fact, drink clean water, have made a decision that is going to 
put them out of business.
    Ms. Browner. We have not made any final decision.
    Mr. Dickey. Well, we have heard that before.
    Ms. Browner. It is true.
    Mr. Dickey. I know.
    Ms. Browner. It is a proposal.

                           TMDL COURT ACTIONS

    Mr. Dickey. But I have heard it in other things, yes. I 
have heard that. And you are also going to say that there is a 
court action that you have to go by; is that right?
    Ms. Browner. There is more than one.
    Mr. Dickey. Yes. But you are agreeing with those court 
actions. In fact, those associations----
    Ms. Browner. What would we----
    Mr. Dickey. What I am saying is----
    Ms. Browner. If a judge enters an order, I do not have a 
choice. I cannot ignore it.
    Mr. Dickey. Is it a consent decree? Is it a consent order? 
Have you all agreed to it? Have you settled those cases?
    Ms. Browner. We try our best to settle them because we get 
better terms and conditions than when the judges decide. Judges 
do not want to wait seven years.
    Mr. Dickey. According to your benefits. But is it 
representative of the people who are out there, who are not 
being represented, when you agree to these consent orders, and 
you say, ``We are going to use these court orders as a hammer. 
We are going to hide under these court orders, and by doing 
that, we are going to agree with them, and get the force of a 
court order to help us drive this issue home, and destroy these 
industries.''
    Ms. Browner. You can believe, if you want to, that I like 
being sued. But let me tell you something, I hate it.
    Mr. Dickey. Well, but you are manipulating it now.
    Ms. Browner. No, I am not.
    Mr. Dickey. You are too.
    Ms. Browner. How am I manipulating it? Do you think I call 
someone and ask them to sue us?
    Mr. Dickey. You know George Frampton?
    Ms. Browner. I do not ask to be sued.
    Mr. Dickey. Have you ever heard of George Frampton?
    Ms. Browner. Of course I know George Frampton.
    Mr. Dickey. We had the same issue with the U.S. Fish and 
Wildlife, and we found out that the court action that he kept 
talking about, he was both the plaintiff and the defendant, and 
he agreed with himself, he agreed with himself as to the deal.
    Ms. Browner. Fortunately, I am only the defendant in these.
    Mr. Dickey. When are these people going to be represented 
in those court actions?
    Ms. Browner. We go to the State in every instance, and we 
beg the State. I did not write the Clean Water Act 30 years ago 
when it said EPA would be sued. I hate these lawsuits. That is 
why I am trying to put a program in place to get us outside of 
them. That is all I am trying to do.
    Mr. Dickey. Excuse me for interrupting. But let us just say 
this: That we could do something about the lawsuits. We could 
contest them, you could go and you could give a period for 
response from the people and say, ``What do you all want 
done?'' We could get a contested, litigated issue rather than a 
home-cooked type of decree or we could go to Congress, couldn't 
we, and ask for a change in the law and a clarification. Have 
you ever thought of doing that on behalf of these poor people 
who are being oppressed by your regulation or your proposed 
regulation? Have you ever thought about doing that?
    Ms. Browner. I do not believe you need to change the Clean 
Water Act.
    Mr. Dickey. You are doing it. All you have to do, of 
course, we have to reauthorize it, do we not, somewhere?
    Ms. Browner. Congress was. You were supposed to reauthorize 
it I think ten years ago.
    Mr. Dickey. I am just saying we can do that. But now have 
you ever thought about coming to Congress, unless you have an 
agenda, which I may say, respectfully, is a political agenda, 
unless you have an agenda, then you could come to Congress and 
say, ``We have heard these 30,000 in this limited period of 
time, open discussion, where we have cut off the public comment 
period, we have cut it off, even though begged by members of 
Congress to extend
it--''
    Ms. Browner. We did extend it.
    Mr. Dickey. We extended it once, but you did not take 
Chairman Shuster's request, did you, at the last to extend it 
again because the outpouring was so great.
    Now, what I am saying is you could take that and extend it 
more and get more of a feel from the people who, in fact, are 
being harmed by this. But does that matter? Does it matter that 
there are people who are being destroyed, their motivation, 
their livelihoods, their ability to earn their own way in the 
world, and you are destroying it? Does that matter?
    Ms. Browner. We do not----
    Mr. Dickey. Does it matter?
    Ms. Browner. We are not going to put anybody out of 
business. There is no rule in place yet.
    We have fought some of these cases, and the agreements we 
have reached are far better, in terms of flexibility for the 
States, than where the judge has ordered a remedy.
    Mr. Dickey. From your viewpoint.
    Ms. Browner. No, sir, not just our viewpoint. Look at the 
time frames. In the cases we contest, we get shorter time 
frames than in the cases we settle.
    Mr. Dickey. Let us change the course a little of this 
discussion. Is it better for the States when----
    Ms. Browner. More time, yes.

                               TMDL COSTS

    Mr. Dickey. When you put on them the requirement and the 
responsibility to not only investigate, but permit and then 
enforce--now, let me give you a figure. My little old State of 
Arkansas, we have 192 stream segments. We have concluded that 
about $50,000 will have to be spent for each segment, which is 
something like $9.6 million. Louisiana has an $85 million bill 
looking at it. That is an unfunded mandate. We are getting 
close to the $100 million just in two States. Have you all 
considered what the impact is going to be on the States and 
where they are going to get the money?
    Ms. Browner. Part of our cost analysis did look at--and I 
answered this before, and I want to be very clear about it--the 
cost to the State agencies to run a program. And we looked at 
that, and we did a cost analysis. We made it public, and we 
took comment on it.
    The second issue is the cost of meeting state requirements. 
This is something that is very hard to answer because until the 
States develop their individual programs, how you actually meet 
the State requirements is an unknown. Different States will 
make different decisions. Many States, we believe, will be able 
to address a lot of these pollution reductions through ongoing 
best-management practices.
    Mr. Dickey. That is all of the questions I have this round. 
Thank you.
    Mr. Frelinghuysen. Thank you very much, Mr. Dickey.
    Mr. Knollenberg?

            NO<INF>X</INF> SIP Call and Section 126 Linkage

    Mr. Knollenberg. Thank you, Mr. Chairman.
    And, Ms. Browner, I think I heard some good news when you 
said that you, in responding to the gentleman from West 
Virginia, the ranking member, that you definitely see 
NO<INF>X</INF> and Section 126 linked.
    Ms. Browner. What I said is we had them linked. We got 
sued. That forced us to unlink them. We are looking at, having 
now won the court case on the SIP call, how we might relink 
them. It has been complicated by the litigation.
    Mr. Knollenberg. I am glad to hear that. I know that this 
is a complex issue. There is report language, you very well 
know, in last year's conference report which does speak to the 
linkage.
    Ms. Browner. We did maintain the linkage, and then we got 
sued.

                   Ozone: 1 Hour and 8 Hour Standards

    Mr. Knollenberg. I just wanted to clarify that.
    Let me go on to a couple of quick questions. On the 8-hour 
ozone standard, has that come up, by the way, in previous----
    Ms. Browner. No, it has not yet come up.
    Mr. Knollenberg. In an attempt, of course, to smooth the 
transition from the old 1-hour National Ambient Air Quality 
Standard--I know you are very familiar with this, the NAAQS--
for ozone to the new 8-hour standard, EPA revoked the 1-hour 
standard everywhere in Michigan.
    Ms. Browner. We revoked it everywhere.
    Mr. Knollenberg. Everywhere in Michigan. And as you know--
--
    Ms. Browner. No good deed goes unturned.
    Mr. Knollenberg [continuing]. We have a Michigan problem on 
this matter.
    Ms. Browner. Right.
    Mr. Knollenberg. But it appears as though, since the courts 
have remanded the 8-hour standard, your Agency has proposed 
reinstating the 1-hour standard.
    Ms. Browner. Right. Because we have no standard in effect.
    Mr. Knollenberg. However, you are ignoring the most recent 
air quality data, and instead of relying on attainment 
designations that were in place at the time the 1-hour standard 
was revoked, that makes it tough. There is something like five 
or six counties where EPA has proposed rulemaking that would 
result, and I will mention them: Bay, Allegan, Muskegon, 
Saginaw, Midland and Genessee, from being designated, rather, 
as nonattainment for ozone, despite monitoring data that shows 
they meet the 1-hour standard.
    And last week members of the Michigan delegation met with 
EPA officials, including Bob Perciasepe, who is the assistant 
administrator, in order to express their concerns about this 
particular approach of EPA.
    Are you familiar, and this is really a question----
    Ms. Browner. Oh, I am keenly familiar with this.
    Mr. Knollenberg. Are you familiar with legal principle of 
detrimental reliance?
    Ms. Browner. Well----
    Mr. Knollenberg. See, communities----
    Ms. Browner. I do not think it appears in the Clean Air 
Act.
    Mr. Knollenberg. It probably does not. But here is the 
problem: Communities in Michigan relied upon EPA's word in 
ceasing to pursue their attainment petitions. Now, these same 
communities would be penalized for relying upon EPA's 
assertions, when, in fact, they are currently under compliance.
    Ms. Browner. Yes.
    Mr. Knollenberg. And does that not, again, violate this big 
legal term ``detrimental reliance''? Here is the question, 
maybe in more general terms----
    Ms. Browner. We are trying to solve this. We want nothing 
better than to get this solved. We thought we had done everyone 
a big favor. What happened is you had all of these places who 
had had 1-hour problems. They had finally met the 1-hour 
standard. But under the Clean Air Act, they were required to 
give us a maintenance plan. So they met the standard, their 
statistics are good, but they still owed us a plan, under the 
law.
    Well, trying to be really nice, we said do not worry about 
the plan because there is a new standard. We will just work 
with you to incorporate whatever might have been in your 
maintenance plan into whatever you may need to do for the new 
standard. You will build on it. It is like building a brick 
wall.
    When the 8-hour standard got remanded, we were left with 
the fact that there is no standard in place. So, for example, a 
lot of other things we are doing for cleaner air, like Tier II, 
where we worked in cooperation with the car and the fuel 
industry for cleaner cars and cleaner fuels, we need to show 
that those requirements are helpful in meeting a standard. So 
we had to put in place a standard, albeit not the one we think 
is appropriate.
    Mr. Knollenberg. You do not think it is appropriate then.

                             Ozone Standard

    Ms. Browner. We think the 8-hour standard is appropriate. 
We think that is what the science says.
    Mr. Knollenberg. Well, how do we get there?
    Ms. Browner. We need a different standard. But bear with me 
for a moment.
    So now we are in this odd moment of putting in place an air 
pollution ozone air standard, which I think people generally 
agree we should have. There may be disagreement on what it 
should be, but we should have one. That means there are a 
number of these areas that fall into this awkward place where 
they owed us something under the 1-hour standard, which we were 
willing to forgo because there was now an 8-hour standard. What 
do we do with what they owed us under the1-hour standard?
    Here is what we are trying to do. We actually have this 
issue going on right now on another air pollution issue out in 
Idaho, and we think we are very close to having it worked out. 
Our strong hope is that we would propose, as we have done, the 
reinstatement of the 1-hour, because we need it for a lot of 
legal reasons. Then we would allow enough time from proposal to 
final to work with these places to get their maintenance plans 
done. So that on the same day that we make final the 1-hour, 
they do not move back into nonattainment because we have 
certified their maintenance plan.
    So that is what we are trying to do. And as I understand 
it, for many of your areas in Michigan, they may not like it, 
but they understand that the time frames are working out. I 
think we have one or two cities where we are still having a 
problem. They are just so far behind----
    Mr. Knollenberg. You understand those cities relied upon 
EPA to give them the proper advice, and now they are finding, 
``Well, we did what you told us, and now you are crucifying 
us.''
    Ms. Browner. We are not crucifying anybody.
    Mr. Knollenberg. Something a little less than that.
    Ms. Browner. Sir, with all due respect, we are trying not 
to designate them. We are doing everything to not do it.
    Mr. Knollenberg. If you will give me your word that you are 
trying to bring this to closure in a satisfactory way, that is 
what I am after.
    Ms. Browner. You have my word.
    Mr. Knollenberg. I hear you say that that is what you are 
going to do.
    Ms. Browner. I want to be very clear with you. I think 
there is one city in Michigan--I know there is one somewhere 
else--that did less work----
    See, the other cities were doing the work when we said, 
``Do not worry, do not do it.''
    Mr. Knollenberg. Are you saying there is a bad apple in the 
mix?
    Ms. Browner. No. They just were on a different schedule. 
The question is how to get them onto the schedule that allows 
us to do this simultaneous move. We have talked to them about 
what we can do to help them.
    Look, we would prefer not to be in this position. We would 
prefer to focus our efforts, the cities' efforts, and 
industries' efforts on what we think is the right standard, not 
on this. But that is not what the Court allowed us to do.
    I was just going to give you the name of the city where we 
have a particular----
    Mr. Knollenberg. Do you know what the next step will be in 
this process?
    Ms. Browner. I know we are talking to the individual cities 
to see what we need to do to help them with the time frames. We 
can get you more specifics on it.
    We are really working to see if we can have everything 
happen at the same moment so you will not have this temporary 
issue of redesignation.

                Environmental Justice: Interim Guidance

    Mr. Knollenberg. And while we are looking for the next 
step, let me just jump very quickly into something and close 
out. I think my time is coming to an end here.
    What is the next step on environmental justice, in terms of 
the interim guidance? We have been waiting, and waiting and 
waiting----
    Ms. Browner. We talked a lot about this before, but I will 
briefly recap.
    Mr. Knollenberg. Do not do anything that you have already 
done.
    Ms. Browner. That is okay.
    Mr. Knollenberg. But I was just going to say it has been 
two years, and there have been several delays, so----
    Ms. Browner. Spring. We are going to put the guidance out 
for notice and comment this spring.
    Mr. Knollenberg. What are the processes going to be then?
    Ms. Browner. First of all, there has already been an 
unprecedented amount of stakeholder input. In fact, I was very 
pleased. I met recently with the State directors who 
complimented Ann Goode, who has been spearheading this for us 
on her outreach. But even with all of that outreach and 
stakeholder involvement, we are going to go to a public notice 
and comment in the Federal Register. Then we will take the 
comments, we will review them, and we will make any appropriate 
adjustments.
    Mr. Knollenberg. Do you think you will have one guidance or 
two? Before there was a couple, and it got to be confusing. You 
had internal and external.
    Ms. Browner. There are two different issues: One is for 
States, as they manage their programs, to try and incorporate 
environmental justice issues on the front end to avoid 
petitions on the back end. That is one.
    The second is, when we receive a petition--if we end up 
there, which we hope we do not--how do we manage that petition. 
So there are two separate issues. One is for State programs and 
State agencies and our recommendations to them on how they 
might avoid petitions, and the other is what do we do when we 
get a petition.
    Mr. Knollenberg. But they should be structured in a way 
that does not make it difficult for people to understand how 
they comply.
    Ms. Browner. Again, this is guidance. It is not a rule. It 
is simply our advice to States on how they could manage their 
programs to avoid getting a civil rights petition filed with 
us.
    Mr. Knollenberg. That concludes my time and my opportunity. 
But, Ms. Browner, we appreciate your coming before the 
committee.

             New York/New Jersey Dredging: Mud Dumping Site

    Mr. Frelinghuysen. Thank you, Mr. Knollenberg.
    If we could move for a minute, Madam Administrator, from 
the Michigan to the New York-New Jersey metropolitan area.
    The White House in 1997 closed what was called the mud 
dump, ocean disposal site for dredged material, and 
redesignated it with a new acronym called HARS, Historic Area 
Remediation Site. But many of us refer to it as the mud dump. 
More importantly, the purpose was to cover approximately 15 
acres of contaminated sediments, much of it disposed before a 
lot of our environmental laws were written that had to do with 
protecting the ocean.
    Is the capping of the HARS still an important environmental 
objective of the Agency?
    Ms. Browner. Certainly. Absolutely.
    Mr. Frelinghuysen. The 1996 agreement, in which the 
establishment of the HARS was first proclaimed was outlinedin a 
July 1996 letter that you and the Secretaries of the Army and 
Transportation signed. In fact, I am in receipt of a letter that you 
and others sent to Congressman Frank Pallone on the agreement. This is 
a more recent letter.
    Since that time, has the administration adhered to the 
letter and spirit of the agreement?
    Ms. Browner. Absolutely. Yes.

                    MUD DUMP SITE: DISPOSAL CRITERIA

    Mr. Frelinghuysen. I have heard persons, including a number 
of my congressional colleagues on both sides of the aisle, that 
this is an issue that affects all of us, that the 
administration has somehow reneged on the agreement by not 
issuing new criteria for determining what sediments qualify for 
the HARS disposal. Did the 1996 agreement or the July 1996 
letter include a promise to that effect or is the EPA 
considering new criteria as part of some other process in the 
New York and New Jersey metropolitan region?
    Ms. Browner. I do not have the letter in front of me, so--
--
    Mr. Frelinghuysen. This is the issue of criteria because--
--
    Ms. Browner. We are proposing criteria guidelines probably 
this spring.
    Mr. Frelinghuysen. Well, the agreement was signed with 
certain criteria. This is the point here. And some new 
guidelines are about to be issued. So you are in the process of 
making revisions to the criteria that are used in deciding 
whether sediments are sufficiently clean to cover the 
contaminated area of the ocean site?
    Ms. Browner. Correct.
    Mr. Frelinghuysen. Can you assure me and my colleagues in 
our area that good science will be the primary consideration 
making those decisions?
    Ms. Browner. Right. I think the letter made reference to a 
peer-review process, which we have been engaged in. We are 
going out for public comment on the criteria.
    Mr. Frelinghuysen. So there will be opportunity for the 
public to comment?
    Ms. Browner. Correct.
    Mr. Frelinghuysen. And the time line?
    Ms. Browner. We hope to have them out this spring. We hope 
to begin the public comment this spring.
    Mr. Frelinghuysen. Well, I understand that even though 
revising the category for the Category 1 dredged materials was 
not part
of the so-called Gore Agreement when the Vice President 
visited, EPA has chosen to revise their criteria as part of the 
CCMP for the New York-New Jersey Harbor Estuary Program. The 
CCMP, which was finalized in March 1996, contained close to a 
thousand recommendations for the management of the estuary. 
What is the Agency's track record for completing these many 
recommendations?
    Ms. Browner. That is the peer review process we have been 
involved in right now. That is what we are getting set to put 
out for public comment--the product of all of our work in this 
area.
    Mr. Frelinghuysen. Why do you have the urgency in 
addressing this one recommendation, when the material that is 
currently being placed at the HARS for remediation is already 
meeting the toughest ocean disposal standards available?
    Ms. Browner. Part of what we always promised in addressing 
this was that, in addition to whatever the national criteria 
are, that you would have to make site-specific determinations 
and that we would look at this specific site, the HARS site or 
the Mud Dump site, and make sure that all of the site-specific 
determinations were appropriate. That is what we are 
completing.
    Mr. Frelinghuysen. As Congressman Bob Menendez and some of 
us, when we talked with Jeanne Fox, your regional 
administrator, lately, like last week, have a concern about the 
fact that the criteria is sort of a moving target. We go and 
move ahead based on one set of criteria and then all of a 
sudden somebody is in the process of developing some other 
materials, some other criteria.
    Ms. Browner. I think that we were clear--obviously, some 
people do not think we were clear--that in looking at this 
issue of the dredged materials, and the disposal of the dredged 
materials and the permitting by the Army Corps of Engineers, 
that that could proceed. And, in fact, I think the Corps has 
now issued two of the necessary permits, but that while that 
was going on, there would be a contemporaneous process to look 
at whether or not the criteria----
    Mr. Frelinghuysen. Is there not a potential here that the 
so-called contemporary process is undermining the original 
agreements?
    Ms. Browner. No, absolutely not.
    Mr. Frelinghuysen. Let me put into the record, I have 
letters signed by Jeanne Fox of Region 2 and Charles Fox--I 
assume no relation--of EPA Headquarters, saying that the 
sediments from Castle and Brooklyn marine terminals in New York 
meet Federal criteria for use as cap material at the HARS; that 
is to say, the dredged materials, according to their 
statements, are clean enough under the tough standards of the 
Ocean Dumping Act and the HARS regulations that they can go to 
the ocean site. Is what they have put in writing true and being 
abided by?

                  DREDGED MATERIAL: NATIONAL CRITERIA

    Ms. Browner. Under existing criteria, yes, and that is why 
the Corps has moved forward with issuing the permits. But we 
have also been abundantly clear from the start that we would 
simultaneously review the national criteria with respect to 
this site. We are concluding that work now.
    Mr. Frelinghuysen. Let me describe it this way: The public 
in my State is being subject to incredible claims and 
distortion, I think, of facts perpetuated about the quality of 
some of this dredged material that your people have signed off 
on that said that it is clean. And there is nobody in the EPA 
that is rebutting these types of allegations. So the public 
perspective is, even though the fill is clean, it has been 
verifiable----
    Ms. Browner. Under current criteria, that is correct.
    Mr. Frelinghuysen. I think it is incredible that your 
Agency, which has obviously a desire to cap properly this 15 
acres, and that is a desirable environmental objective, that 
basically that objective is being thwarted, while new criteria 
are sort of being raised as suggesting that things that have 
been bona fide, verified clean, now are perhaps not clean.
    Ms. Browner. We were clear from the beginning that the 
permitting process should move forward. The administration has 
honored that. The permits have been issued, but we also are 
simultaneously reviewing the criteria. That wasthe agreement.
    Mr. Frelinghuysen. But the problem is that the public needs 
to be reassured that the material you have already signed off 
on can be properly used to cap this site.
    Ms. Browner. The permits are there. The Army Corps issued 
the permits.
    Mr. Frelinghuysen. It takes more than permits. It takes 
some public reassurance, and that reassurance does not appear 
to be forthcoming. Because somehow somebody is throwing their 
arms around a whole new set of environmental criterion; in 
other words, ratcheting up to another higher level of 
environmental quality. But previously you have already signed 
off on the use of this dredged material.
    Ms. Browner. It is not uncommon, and I think it is 
appropriate, for us to revisit previously set criteria, 
previously set standards, based on the best available science.
    What we promised all of the people of this region is that 
the necessary dredging could go forward, that there were 
criteria in place, that permits could be issued. That has 
happened. But that simultaneously we would also look at the 
best-available science, which may have changed over the years. 
We may have more information, and determine whether or not in 
the future the criteria for this site should be different. We 
made both promises, and we are honoring both promises.
    Mr. Frelinghuysen. Well, I can tell you that it is creating 
an incredible amount of turmoil, and I can tell you my 
colleagues on both sides of the aisle in New York and New 
Jersey obviously are betwixt and between on this issue. There 
is a real potential here that we could bring this metropolitan 
area of 17 million between New York and New Jersey, basically 
bring commerce and the economy to a screeching halt. All I am 
saying is that----
    Ms. Browner. But there they exist.
    Mr. Frelinghuysen. But if the materials are clean, and you 
signed off on them, you have got to reinforce in the public 
mind that we have some Federal responsibility to close down 
this dump. You are setting up a scenario here where we may, in 
fact, leave these 15 acres with no cover at all because we 
cannot come with any, on a timely basis, any satisfactory 
conclusions to a whole set of criteria, new criteria.
    Ms. Browner. The permits are there, the dredging can go 
forward, and the disposal can go forward. We will go out for 
comment on criteria.
    There is a separate issue of once that is resolved, whether 
or not we make changes in the criteria--and we have not made 
those final decisions--there is the separate issue of what you 
would then do in terms of existing permits. That is a separate 
discussion.
    Mr. Frelinghuysen. So the materials from the two marine 
terminals, which you have already given your blessing to, that 
can be used for capping purposes now?
    Ms. Browner. Yes, for now. That is what the Corps permit 
says. They have a permit. That is what the Corps did.
    Mr. Frelinghuysen. And so we can anticipate that those 
dredged materials, in fact, will be used, and you will go to 
the mat?
    Ms. Browner. It is not our permit. It is the Army Corps of 
Engineers' permit. I do not know what is actually happening 
there. But I do know the permit has been issued, and under the 
permit, the dredged materials can be taken to the site.

                    MUD DUMP SITE: PUBLIC PERCEPTION

    Mr. Frelinghuysen. All I am saying is that there is a 
campaign underway to suggest that materials that you have given 
a green light to, as being not contaminated materials, there is 
a campaign out there suggesting that these materials, which you 
have given the green light to, are now somehow contaminated by 
criteria that have yet to be implemented or decided upon. As a 
result, our port facilities are going to be I think negatively 
affected.
    I mean, we have got lots of dredging to do in the Port of 
New York and New Jersey. And if the suggestion is allowed to 
stand that every dredged material, even clean sand somehow has 
some degree of contaminants, you are going virtually to 
guarantee that our port is going to close, and the thousands of 
jobs and the $70 billion worth of commerce that come into the 
port is going to be negatively affected.
    Ms. Browner. That is not going to happen. The 
administration is not going to allow that to happen.
    Mr. Frelinghuysen. Well, I think you need to be a little 
more forthcoming here. The powers that be, certainly on the 
Republican and Democratic side, feel that the EPA needs to step 
forward and give us a higher level of reassurance, and I do not 
think it--it has not occurred to date.
    Ms. Browner. The Corps issued the permits. We were part of 
that process.
    Mr. Frelinghuysen. I understand the Corps, and I think we 
understand their method of operation. But it is the 
environmental issue that relates to their criteria. If you are 
ratcheting up the criteria, there is a strong likelihood that 
we may never have any materials to close this dump properly.
    Well, I think you have got the message. I think Congressman 
Menendez and other members have shared with Jeanne Fox, and I 
certainly share with you, somebody needs to do something here. 
I mean, if we operate under one system, we ought to be able to 
use that clean material, and the sooner we use it, the sooner 
we can get the dump closed, good for all.
    Anything else? Mr. Mollohan?
    Mr. Mollohan. No, Mr. Chairman. I recognize we are 35 
minutes over time right now. I want to thank very much the 
witness for appearing. As always, she is an excellent witness. 
And, again, I appreciate the good work she does administering a 
very complicated Agency.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Mollohan.
    Mr. Dickey, a few brief words?

                             NPDES BACKLOG

    Mr. Dickey. Administrator Browner, I admire your endurance 
and your competence. Thank you for all that you have said 
today.
    There are expired permits that are out there on point 
source pollution, and yet what you are doing is you are 
ignoring those and coming after what I call nonpoint source. Do 
you not have enough to do?
    Ms. Browner. We have more than enough to do.
    Mr. Dickey. What is the problem of ignoring the expired 
permits? How many do you have in the Nation?
    Ms. Browner. The vast majority of these permits are now, 
fortunately, being handled by the States. I have had a very 
aggressive program since I came to EPA to turn over this 
permitting program to the States, and we have been successful. 
In turning it over to the States, we have all had to deal with 
a backlog.
    Can I just tell you two things about the backlog that I 
think are worth noting? First, facilities cointinue to operate 
with existing permits in effect. They do continue to operate.
    Secondly, one of the reasons we have a backlog is because 
some of these permits are really tough. We have made some 
progress in decreasing the EPA backlog. It has been, for my 
taste, far too slow. We are looking at how we can make better 
progress. But these are the toughest permits. That is why they 
end up taking more time. These are not the easy ones.

                         DICKEY BILL: H.R. 3625

    Mr. Dickey. I have to go on to other questions. I have a 
bill, House Bill 3625, and Blanche Lambert has one, as does Max 
Sandlin. You, obviously, are not going to agree with what the 
intent of our bills are. What reason, briefly?
    Ms. Browner. As I understand your bill--and I have read 
some of them, and I do not know if they are all identical--you 
would change definitions in the Clean Water Act that we do not 
believe need to be changed.
    You mentioned earlier the issue of reauthorizing the Clean 
Water Act. I just might remind the members that the 
administration did send up comprehensive legislative proposals 
several years ago on how to strengthen and reauthorize the 
Clean Water Act. Nothing has ever really been done with those 
proposals.

                       TMDL: CITIZEN INVOLVEMENT

    Mr. Dickey. I am going to run through these others, but 
this is the question that I have been concerned with the whole 
time: Do you really believe that the people who live and have 
their livelihoods on the land are going to pollute it to their 
own detriment?
    Ms. Browner. Absolutely not.
    Mr. Dickey. Then citizen involvement is something that 
can--we have done it. You and I have done it. Can you give more 
an opening for people to come talk to you and explain and work 
these things out, rather than having this hurried-up process?
    Ms. Browner. We have been working on this for years, and as 
you well know, we are happy to meet with anybody. We are going 
to meet with you and some of your constituents this afternoon. 
We extend that offer to anybody. We will continue to do that.
    This is important. Once this framework is in place, then 
the States will go through a very public process. I think quite 
frankly, when you move into the State-by-State arena, that kind 
of public participation will be enhanced. We are getting a lot 
of it now. We have taken it into account, rest assured. But 
remember, no two States are the same, and no two States' 
industries are the same, no two States' history is the same.
    Mr. Dickey. I am going to have to interrupt you. There is 
one comment you made in your opening statement where, and you 
got it done by giving citizens information and letting them 
work. Would you consider that in this case with TMDL?
    Ms. Browner. We believe we have done that, and we believe 
the proposal that we have made will guarantee citizens 
involvement.
    Mr. Dickey. Thank you so much for your time.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. We will have an opportunity to put extra 
questions into the record.
    Thank you very much.
    Ms. Browner. Thank you.
    Mr. Frelinghuysen. And we meet on the 29th again. Thank 
you. Thank you, Mr. Mollohan.
                                         Wednesday, March 29, 2000.
    Mr. Walsh. The subcommittee hearing will come to order.
    I would like to welcome all of you here this morning. It is 
quite an impressive lineup. I think we can proceed now without 
any further delay.
    I would like to welcome the other members of the 
subcommittee. Mr. Mollohan is not feeling well this morning, so 
he won't be in.
    This is the second day of two hearings that we have 
scheduled for environmental protection. Administrator Browner 
was here earlier this year, and we had intended to have two 
hearings, one this morning, one this afternoon. Obviously, 
there is just a panoply of issues that you all are very 
familiar with that we need to talk about. Because of the 
conflict on the supplemental appropriations bill, we won't be 
able to do that, so we brought everybody in this morning. The 
table is not big enough to accommodate everyone. I understand 
there are some who are sitting behind you that we may have to 
call forward.
    There also may be an issue of timing for the morning 
hearing now because of the rule on the supplemental. So bear 
with us. It is not for a lack of interest, I guarantee you.
    I would ask if Mrs. Meek, on behalf of the minority, if she 
would have any opening statement that she would like to make.
    Mrs. Meek. I have nothing.
    Mr. Walsh. And I would recognize Congressman Frelinghuysen 
is also here this morning.
    I don't believe there is any need for any opening 
statements on your behalf, but if there is, feel free.
    Mr. Ryan. No, Mr. Chairman. We are assuming that you are 
going to proceed with questions.

                 NATIONAL AIR TOXICS ASSESSMENT (NATA)

    Mr. Walsh. Very good. Let me begin with the air programs. 
Mr. Perciasepe.
    The first series of questions regards the NATA project. It 
is my understanding the Agency has an ambitious project 
underway to develop a National Air Toxics Assessment tool that 
will allow the Agency to characterize the potential health 
risks associated with exposure to air toxics. The most recent 
schedule has it releasing in April, next month, the 1996 
emissions inventory. Then in August you plan a public release 
on the Internet of exposure modeling results and estimates of 
the public's cumulative risk from 33 of the most prevalent air 
toxics in the country.
    As I understand it, the information will include 16 
different demographic groups and assess the risk to up to 37 
indoor and outdoor micro-environments.
    Given the ambitious nature of the task, the level of detail 
and vision, and the potential for informing or misinforming the 
public, I would like to ask you a series of questions about the 
program, and the first is, obviously, the idea here is to 
instruct the public. Has there been any public involvement in 
this program to this point in developing this data?
    Mr. Perciasepe. Yes, but let me just say that the National 
Air Toxics Assessment process is more than just the exposure 
informa-
tion or the modeling of exposure. It includes, as you have 
mentioned, the inventory of emissions. It also includes a 
broader coordinating effort of our air toxics programs at EPA 
to try to have a comprehensive approach to risk reduction.
    Right now, under the statute, we have a technology approach 
called Maximum Available Control Technology. We are in the 
process of transitioning away from a technology approach to a 
risk-based approach which will look at finding the least cost 
and most effective way to reduce risk across all different 
sources.
    The part that you are talking about in terms of the 
exposure estimates and the emission inventory is part of that 
process. So it is not just public information, although an 
important component of it is public information. It is also to 
help coordinate the programs with us and the States and the 
local governments.
    Mr. Walsh. What has the public's role been thus far?
    Mr. Perciasepe. The public's role is we put out some 
general information on an earlier version of this last year 
using 1990 emission data and testing the model. There had been 
public disclosure of some of that information and discussion of 
that information in various areas.
    What we would do with the information between now and its 
final release is to work with the State and local governments 
to do the ground-truthing of the data, which is something that 
we are in the process of starting now in advance of August.
    As part of that process, we anticipate developing a public 
process with the States, because each State----
    Mr. Walsh. There really isn't one in effect?
    Mr. Perciasepe. Well, we would anticipate that that would 
happen more at the local level than at the national level.
    Mr. Walsh. As I understand it, the portion of the 
information that I discussed will be on the Web before it has 
been subject to peer review, is that true?
    Mr. Perciasepe. The modeling work and the analytical 
techniques are going through review. I am not sure that the 
results----
    Mr. Walsh. Well, the conclusions will be published in 
August on the Web, is that correct?

                 NATIONAL AIR TOXICS ASSESSMENT (NATA)

    Mr. Perciasepe. The current schedule is that, but, you 
know, one of the things we have to do between now and then is 
to go through a process with the State and local governments to 
review the emissions inventory to make sure that we don't have 
any anomalies in the emissions inventory that was reported to 
us using the 1996 data. There has to be some quality assurance 
and quality control on that work that we are undergoing right 
now.
    Mr. Walsh. Do you consider that peer review?
    Mr. Perciasepe. Well, that is part of a review process. I 
wouldn't say that that is peer review. The actual analytical 
methods in the modeling go through peer review.
    Mr. Walsh. Well, pertaining to the simultaneous public 
distribution of the information that is developed in this, 
doesn't this undercut the value of a peer review process? I 
understand you want this
to get out to the public, but if it is not peer reviewed, and 
the peer review starts after the fact, you may have some public 
relations problems on your hand.
    Mr. Perciasepe. Let me try again. We are now in the process 
of initiating a review process with the States to make sure 
there is no outlying incorrect data in the inventory of the 
actual emissions we get from the States. Then there is a model 
that takes that emission data and estimates what the ambient 
exposures might be. That modeling work is what goes through 
peer review. The emissions inventory goes through a quality 
assurance/quality control check with the States. They are the 
ones that provided us with that information.
    I am going to have to say in honesty I am not exactly sure 
where the peer review of the model is. I think it has been 
done, but I don't want to say that that is my definitive answer 
here, Mr. Chairman. If I could answer for the record on where 
the peer review of the model is.
    [The information follows:]

  Peer Review of the National Air Toxics Assessment (NATA) Models and 
                                Methods

    The modeling approaches being used as part of the NATA 1996 
national-scale assessment are a mixture of previously peer-
reviewed approaches and relatively new science which is 
undergoing peer review during the assessment process. The 
national-scale emissions inventory (the 1996 National Toxic 
Inventory) which drives the modeling process is largely a 
product of peer involvement. To develop this inventory, 
technical staff in the state and local air pollution agencies 
work together with EPA staff to pull together the best 
available information on air emissions of all the hazardous air 
pollutants (HAPs) for the year 1996. The methods for measuring, 
estimating, and calculating these emissions are all individual 
subjects of peer review, but the full inventory itself is not. 
This is consistent with the development of emissions 
inventories for all the criteria pollutants.
    The air dispersion model being used for the assessment, the 
Assessment System for Population Exposure Nationwide (ASPEN), 
has been peer-reviewed by the EPA's Science Advisory Board in 
the context of its use in the Cumulative Exposure Project. 
While the peer review identified some shortcomings of the 
model, it is still recognized as the most useful tool for this 
type of national-scale assessment for air toxics. The air 
pathway exposure model, the Hazardous Air Pollutant Exposure 
Model (HAPEM4), has been previously subject to peer review in 
the context of its use for estimating exposures from mobile 
source pollutants. It has been modified from previous versions 
to account for the partitioning of the 33 urban HAPs between 
typical outdoor monitoring sites to indoor locations and 
multiple micro-environments. These modifications are currently 
undergoing internal and external peer review prior to their use 
in the assessment. The cumulative risk approach being used for 
the assessment is also currently undergoing internal and 
external peer review, along with the overall assessment 
approach of integrating these various modeling results together 
for the full quantification of inhalation risks. Once the 
national-scale assessment results are completed, the entire 
assessment approach, the results, and the interpretation of 
those results will be documented and subjected to a full review 
by the EPA's Science Advisory Board in the fall of 2000.

    Mr. Walsh. Yes.
    Mr. Perciasepe. But the modeling work, the analytical work 
in the model, is what would go through peer review.
    Mr. Walsh. That would be helpful to know. Obviously, if we 
are going to have faith in the model, we would want to have 
faith in the process of developing the model.
    Mr. Perciasepe. Right.

           NATIONAL AIR TOXICS ASSESSMENT (NATA): USE OF DATA

    Mr. Walsh. According to your budget justification, one of 
the stated purposes of the NATA is to assist the Agency in 
determining the effectiveness of the Nation's air toxics 
programs. Please tell the committee whether NATA will be used 
to measure EPA's progress toward meeting the statutory goal in 
Section 112(k) of the Clean Air Act of a 75 percent reduction 
in cancer incidence considering all emissions reductions from 
stationary sources?
    Mr. Perciasepe. It will help in doing that. Remember, the 
National Air Toxics Assessment program is more than just the 
model we were just talking about in terms of exposure estimate. 
It is also the monitoring in the field; we are increasing the 
number of monitors out there working with States. It also 
includes coordinating the different regulatory programs that 
might be out there and voluntary programs that might be out 
there between us and the States in terms of reducing emissions.
    So the overall idea behind the National Air Toxics 
Assessment program is to be able to have the kind of 
information we will need to track that progress.
    Mr. Walsh. We will submit additional questions for the 
record because we just really do have a time limitation.
    Mr. Perciasepe. Understood.

                          ACID RAIN DEPOSITION

    Mr. Walsh. There was a recent story in a local paper that I 
believe originally came from the New York Times. It said that 
the results of the Clean Air Act were not as expected in acid 
rain deposition in the Adirondacks and that the fact was that 
while sulfur emissions were down somewhat, nitrogen oxide 
emissions were up.
    I think the conclusion was that while we are impacting on 
power plants, we are not on auto emissions. Is that a true 
assumption?
    Mr. Perciasepe. Well, nitrogen oxide emissions in the 
United States have not gone down since 1970 like the other 
pollutants. Since 1970, when the first Clean Air Act was 
enacted, nitrogen oxide emissions are up in the United States, 
whereas all the other pollutants are down, including sulfur 
dioxide.
    Now, the sources of nitrogen oxide are many, but 
transportation systems and power generating are two of the 
major sources of nitrogen oxides.
    On the sulfur dioxide front, the acid rain program is 
entering this year into phase two of the acid rain program 
going toward the congressional goal of a 10-million-ton 
reduction in sulfur dioxide. We are already seeing, at least 
from the sulfuric acid side of it, about a 25 percent reduction 
in acidity of rainfall in the Northeast. But that report that 
you mention and other analyses that we have been doing 
demonstrate clearly that we need to finish phase two of the 
acid rain program and we need to continue to also look at 
nitrogen oxide emissions because of the acids that are also 
formed from that.
    Mr. Walsh. Is there a different impact resultant in those 
high-elevation lakes, different from sulfurous emissions than 
nitrous emissions?
    Mr. Perciasepe. There are going to be two separate kinds of 
impacts from these acidic depositions. One is the pure impact 
of having acid rain and the changing of the pH of the water 
body. That will be the same.
    Mr. Walsh. They both have a similar pH impact?
    Mr. Perciasepe. Yes, that will be the same. However, with 
nitrogen acid, nitrogen--you know, nitrous or nitric acid, 
which is basically, I think, hydrogen and some oxide of 
nitrogen. I think I got that right. That also can get into the 
food chain or into the nutrient cycle because nitrogen is also 
a nutrient, whereas sulfur is not. So you have the additional 
potential, particularly in coastal waters, of eutrophication 
from nitrogen deposition with the nitrogen acids.
    Mr. Walsh. The water becomes more fertile?
    Mr. Perciasepe. That is correct, which is kind of----
    Mr. Walsh. Interesting.
    Mr. Perciasepe [continuing]. A paradox. In freshwater it 
becomes more acidic and more sterile. In coastal waters the 
acidity is somewhat buffered out, and the nitrogen oxides part 
of it will become a nutrient.
    Mr. Fox. Mr. Chairman, if I could just add for a more 
complete understanding of this?
    Mr. Walsh. Sure.
    Mr. Fox. The best data we have in places like Chesapeake 
Bay or North Carolina suggests that upwards of 20 percent of 
the nitrogen, of the nutrients, is, in fact, coming from 
atmospheric sources.
    Mr. Walsh. Thank you. I am at about 10 minutes, so I think 
will yield at this point to Mrs. Meek. Thank you.

                          CORAL REEF RESEARCH

    Mrs. Meek. Thank you, Mr. Chairman.
    My first question has to do with the Rosenstiel School on 
Coral Reef Research in Miami, and this question is for the 
Assistant Administrator for Research and Development, Ms. 
Noonan.
    Ms. Noonan. Yes, ma'am.
    Mrs. Meek. I know you are more interested, you are very 
interested in fully understanding the threats and challenges to 
our fragile coral reef system in Florida, particularly in 
Miami. To this end, I am sure that you understand that EPA has 
funded this program in atmospheric sciences for quite some 
time, particularly in 1999 and the year 2000.
    I would like you to tell me your evaluation, Ms. Noonan, of 
this particular program. How well do you think it is working 
and how can it move forward more effectively?
    Ms. Noonan. Mrs. Meek, I don't believe we have done an 
evaluation of the work that the Rosenstiel School is doing, 
although they do have a very good reputation in the area of 
ocean sciences and coral reef biology. Their award has been 
made for 1999 and will shortly be made to them for the year 
2000. We have been negotiating with them on that award, and 
they have submitted acceptable responses to the peer review of 
the award.
    I think I can say that based on the peer review, we believe 
they are doing research of an acceptable quality to us, and we 
anticipate that that will be true for the year 2000 as well.
    Mrs. Meek. Thank you. Could you provide me with information 
on EPA's initiatives in this arena as well as your progress on 
working on this project with this center, that is, the 
cooperation with the EPA and this particular center?
    Ms. Noonan. Yes, ma'am. We will be pleased to provide that 
for the record.
    [The information follows:]

                          Coral Reef Research

    To date, cooperation between EPA and the National Center 
for Caribbean Coral Reef Research (NCORE) has focused on the 
logistics of funding the center. Now that the FY 1999 funding 
has been awarded, the EPA project officer and the interim 
directors have been corresponding weekly regarding the pending 
choice of a permanent director, the quality assurance officer, 
and the Science Advisory Committee (SAC). The first meeting of 
the SAC is tentatively scheduled for the summer of 2000.
    EPA also has two current solicitations for research through 
its Science to Achieve Results (STAR) grants program that are 
relevant to coral reefs. The first, Environmental Indicators in 
the Estuarine Environment, requests research to develop 
indicators ``useful for evaluating the `health' or condition of 
important coastal resources (e.g., lakes, streams, coral reefs, 
. . .).'' The second solicitation, Development of National 
Aquatic Ecosystem Classifications and Reference Conditions, 
requests research for ``development of classification schemes 
and reference conditions for establishing biological criteria 
in . . . and coral reef communities.'' In addition, EPA is also 
conducting research on the effects of UV-B, infectious 
diseases, and nutrient enrichment on corals in South Florida.

                         AIR QUALITY STANDARDS

    Mrs. Meek. All right. My other question has to do with EPA 
rules and CMAQ funding for Miami Dade County. TEA21, which I 
voted for, provides for the flexible use of congestion 
mitigation and air quality funds for areas, mostly urban, that 
do not meet air quality standards. One of the measures of 
maintenance is the amount of ozone found in the air. My 
question having to do with that is: You used a 1-hour reading 
in this regard to establish non-attainment or attainment in 
terms of the maintenance status. Recently, the EPA changed this 
measurement from a 1-hour reading to an 8-hour reading. In 
doing so, the South Florida area, including Miami Dade County, 
lost its maintenance status and, therefore, its eligibility for 
CMAQ funds.
    The EPA was ordered by a court order to go through the 
rulemaking process again, and the EPA has indicated that it 
will continue to use the 1-hour reading as well as several 
other factors.
    My local county government in Metro Dade County certainly 
believes it is of great importance to ensure that the 1-hour 
reading criteria be part of any new rules. Your funds have been 
used in Dade County for projects such as the South Miami Dade 
Busway and most of the bus service improvements on our busway.
    If my area is no longer eligible for CMAQ funds, transit 
projects in that area would suffer, as well as other highway 
projects aimed at reducing congestion.
    Now to my question: Are you going to maintain the 1-hour 
ozone reading to determine air quality standards? And will the 
same 1-hour standard be found in any new rules addressing air 
quality in that transit and bus system has a basis on how you 
rule in terms of the 1 hour? Tell me where you are in that 
regard.
    Mr. Perciasepe. You are correct that the new standards, the 
so-called 8-hour standard, which is based on a longer exposure 
averaging period, has been remanded to the Agency by the 
Circuit Court of the District of Columbia. We are in the 
process of going through a judicial appeal of that, which will 
take some time to settle out. In the meantime, we had removed 
the 1-hour standard from areas that were attaining it so that 
we could get on with work on the new standard.
    What we will be doing this year is bringing the 1-hour 
standard back while we wait for the judicial process to be 
completed, and at that time we can work with Miami Dade to see 
what their status would be. I am not sure exactly what their 
status would be when that happens, but we certainly would work 
with them. It may very well be involved with the CMAQ funding 
that you are talking about.
    Mrs. Meek. It would greatly impact negatively our CMAQ 
funding if the 1-hour criteria is not sustained. So that is my 
prime interest in asking that question.

                             LEAD POISONING

    My next question has to do with lead poisoning. I am 
pleased to see that you finalized your rule. It requires 
contractors to provide lead hazard information to consumers 
before renovation or remodeling in homes that were built before 
1978.
    Would you provide us with some additional information 
regarding the other regulations you anticipate issuing this 
year regarding home renovation?
    Ms. Wayland. Yes, Mrs. Meek. Let me first say that we very 
much appreciate your interest and your support on behalf of the 
children of this country in assessing and dealing with lead 
poisoning. I know that you are very much aware that we still 
have almost a million children in this country who are affected 
by lead, and lead is a completely preventable problem. If the 
Federal Government and the private sector work together, we 
believe that we have a strategy that could virtually eliminate 
the problem of lead poisoning in this country over the next 10 
years. We have a newly released report on Federal strategy that 
I am happy to give you. I think you will be interested to see 
it.
    In terms of your specific question, as you know, the 
disclosure, the prenotification rule, is final. We have been in 
a compliance assistance mode with that rule. At the request, 
actually, of Mr. Frelinghuysen earlier in this process, we have 
done a lot of outreach to the apartment owners and landlords in 
order to make our rule as simple as possible but also providing 
parents the information that they need to protect their 
children.
    In terms of this year, we have a couple of rules that we 
think we will either be going final with or proposing. One is a 
final rule that we expect to be done by the end of December 
that deals with lead hazard standards, and that was a rule that 
was proposed in June of 1998. We extended the comment period on 
that rule several times. We have voluminous comments on the 
rule. A lot of folks think the numbers we suggested for 
standards are not protective enough. We have obviously, on the 
other side, some stakeholders who believe that perhaps the 
numbers are more stringent than they need to be.
    So that is one rule that we are going to be going final 
with, and we expect to publish that at the end of this calendar 
year, sometime in the month of December.
    The other rule that we expect to be proposed this year is 
one that deals with renovators and remodelers who will be going 
into homes in order to do lead abatement work. This went 
through a SBREFA panel. We recently finished that panel, and 
expect to be proposing a rule sometime, I expect, this fall--
either late summer or early fall. That rule will outline what 
kinds of qualifications and procedures that renovators and 
remodelers ought to be adhering to in order to properly do the 
work to adhere to the standards.
    Mrs. Meek. I thank you, and I would like you to please meet 
with me and my staff regarding lead poisoning. I have several 
public housing projects in my district, and it is amazing to 
see the level of lead poisoning among the children there, and I 
would like to meet with you possibly to help me think through 
some strategy that we can use in that area to assist us in 
eradicating some of the problems we have there.
    Ms. Wayland. We would be very happy to meet with you, Mrs. 
Meek, and probably should include HUD in any meeting with you.
    Mrs. Meek. Yes.
    Ms. Wayland. Because the Federal strategy involves not only 
EPA, but----
    Mrs. Meek. We have been on them already.
    Ms. Wayland. Okay. Well, we are very happy to come up and 
meet with you.
    Mrs. Meek. All right. Thank you very much.
    Mr. Walsh. Mr. Frelinghuysen?

                                  MTBE

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Good morning, 
ladies and gentlemen.
    First of all, on a high note, I want to thank you for 
acting on MTBE. I suppose it was only a coincidence that it was 
a few days after our hearing with Administrator Browner, but 
whatever the circumstances are, we are moving towards banning 
it, we are eliminating it, and the sooner we do it, I think it 
will be better for all of us. I don't think anyone would have 
foreseen, although there was some evidence in the late 1980s 
that there was pollution of our water supplies from this 
additive, that this would catch the public's concern, to the 
degree there is, and it is a pretty horrendous situation.
    Mr. Perciasepe, you have suggested, at least in my local 
papers, that we could keep our air clean, in your own words, 
with other formulations that don't pollute the water. I think 
that was a statement attributed to you. At least I clipped that 
out. What are the other formulations? I think most of us are 
familiar with ethanol, but I just wonder if you could tell the 
committee briefly what other formulations you are looking at, 
and most particularly, whether any of these alternatives in 
their own right pose potential health or environmental 
concerns?
    Mr. Perciasepe. Yes. Let me first of all thank you for your 
support on that, and, hopefully we can all work together and 
create the adjustments to the Clean Air Act we are going to 
need to solve that problem.
    Mr. Frelinghuysen. I am pleased that the administrator did 
use a few of the citations we suggested, but I suspect she was 
probably familiar with those to begin with.
    Mr. Perciasepe. Let me say, in addition to the 
environmental issues here, there are issues of the volume of 
gasoline we have in the United States. There are about 4.5 
billion gallons of MTBE used out of a little over 100 billion 
gallons a year of refined gasoline product used in the United 
States. So if we reduce that volume, we are going to have to 
replace it with something. Clearly, we have stated that we 
think a lot of it ought to be replaced with ethanol, but not 
necessarily solely to achieve the air quality rules. Ethanol 
will help and will contribute to air quality benefits in many 
of the same manner as other oxygenates. But there are other 
ways to formulate gasoline, as I mentioned in that article. 
And, of course, when you are being interviewed over the phone 
by a local newspaper and trying to talk to the reporters, 
sometimes things get lost in the translation. But I think that 
statement was relatively correct.
    There are things we need to consider here. The gasoline 
that we are talking about, with or without ethanol or MTBE in 
it, is very toxic. There is benzene, toluene, xylene, and other 
aromatics and alkylates. But the unique property of MTBE of not 
sticking in the soil like the other parts of gasoline and 
moving more quickly in groundwater has exacerbated this 
problem.
    The alternatives that oil refineries will probably look 
to--and I don't want to second-guess them, but we want to be 
able to provide some flexibility and be able to model those 
results--would be things like: alkylates, which are longer-
chain carbons; carbon molecules that are also part of the 
refining process; and, iso-octane, which comes from some of the 
same chemicals they are using now. These chemicals do not 
appear like they would act the same way in the soil, that is 
they would stay with the rest of the gasoline if it leaked. And 
we expect that gasoline will always leak a little bit 
somewhere. You never can completely, 100 percent stop that. 
And, of course, ethanol is a formulation.
    So we want to work with Congress to develop a flexible 
framework for refiners to meet those air quality goals, and we 
think there are other ways that they could create the gasoline 
recipe that will still be clean-burning in the automobile.
    So those are just a couple, but, again, I am not the 
refining expert. Maybe the Department of Energy could help us.

                           MTBE ALTERNATIVES

    Mr. Frelinghuysen. But if we ban it, we eliminate it as an 
additive that is used now, you are giving the committee some 
assurance that if we choose other additives that they won't--
obviously, gasoline in any form, if improperly used or 
contained, can cause problems. But your Agency is taking a look 
at, obviously, those alternatives to see whether they pose any 
additional health on environmental hazards.
    What about the issue of supply? People talk about ethanol 
as if it is, you know, an endless supply out there. But what 
about the issue of supply? And is there an adequate delivery 
system? I think sometimes people get excited about delivering 
this and that, but in reality, for some of us in the Northeast, 
it is easier said than done.
    Mr. Perciasepe. Yes, I think supply is an important issue 
that Congress and the administration will have to take into 
account as we tackle this problem. It isn't quite as simple as 
just saying, well, let's get rid of MTBE. As I said, it is 4.5 
billion gallons, approximately, used and that volume will have 
to be filled up with something.
    Right now, between ethanol and MTBE, ethanol is about a 
little over a billion gallons a year used in the United States 
and MTBE about, 4.5 billion gallons. That volume is largely 
domestically derived. MTBE is derived from natural gas. You 
take methane and you make methanol, and then you do some other 
reaction and you make the methyl tertiary butyl ether.
    The objective from a broader energy policy and energy 
security perspective would be to try to fill as much of that 
volume on a national level with domestically produced fuel. 
That is where ethanol comes in in another way other than air 
quality as a possible and potential solution--and what we 
recommend be part of that solution.
    Now, if you look at this nationally as opposed to--if 
youallow flexibility to achieve the clean air goals in places like New 
Jersey, let's say, but have a national volume increase of things like 
ethanol and balance that out, ther may not necessarily be distribution 
issues. There is a way to try to balance the need for domestic 
production of energy, but also not force-feed a distribution of that 
energy in a way that would be counterproductive or more difficult to 
do.

                           OCEAN DUMPING SITE

    Mr. Frelinghuysen. Thank you for your response. I want to 
shift gears and segue into just a few questions on the 
Superfund program.
    Your Agency is the critical mass in terms of things that we 
need to do relative to issues that relate to dredging and 
disposal in Port Newark and New York. Congressman Menendez and 
I and Congressman Crowley from New York met with Jeanne Fox, 
and I would like to reinforce, for whoever's jurisdiction this 
is, that this port is going to shut if the department continues 
to have the criteria for disposed materials sort of a moving 
target. We were extremely emphatic with Jeanne Fox that the 
Agency has to have a degree of courage when there are people 
out there suggesting that the materials that are Category 1, 
the cleanest materials, that somehow those materials are 
contaminants. It is 15 acres as a result of probably 50 years 
of New Jersey and New York dumping that has environmental 
problems out there. The HARS dump, the mud dump, that needs to 
be properly capped and done in an environmentally sensitive 
way. If your Agency doesn't take some courage to combat 
publicly the type of misinformation and scare tactics, then I 
think it will be a sad day that we can't close that dump in a 
proper way and potentially in the future may not be able to 
dispose of any materials anywhere, land or elsewhere.
    Just a brief response. I am using up most of my time on my 
statement.
    Mr. Fox. I will keep this very brief. As the Administrator 
mentioned at the last hearing, we are committed to implementing 
the agreement and ultimately remediating the HARS with clean 
material sufficient to protect the environment.
    As you indicated, we are in the process of applying new 
sound science to make sure that the materials that are 
deposited out there will, in fact, meet that test of being 
protective of the environment. It is our hope that this new 
evaluation framework will, in fact, be out for public review 
later this spring. It has already gone through some peer 
review. We have talked with the Corps of Engineers about this 
so that hopefully we can work together on this problem.
    Mr. Frelinghuysen. Well, I would like to emphasize for the 
record that the materials that are Category 1 now that have 
been approved under the old criteria have gotten their clean 
bill of health from your Agency. And now somebody is ratcheting 
up the whole notion that the criteria ought to change. We may 
be in a position at some point here that we can't close the 
dump properly, and that would be, I think, probably a huge 
hazard to those who use our shores for recreation, who do 
fishing off our shores. And for our delegation members, there 
is some division in New York and New Jersey, but certainly from 
those of us who come from the north, we have got to take some 
action. We don't need a moving target. We don't need the 
criteria to continue to change.
    You are telling us for the record that the criteria are 
going to be out at some point in the future?
    Mr. Fox. Yes.
    Mr. Frelinghuysen. How soon?
    Mr. Fox. In fact, I appreciate the analogy of a moving 
target, but our goal here is to apply sound science to our 
decisions as this committed directed us.
    Mr. Frelinghuysen. Well, this committee loves sound 
science, don't we, Mr. Chairman? We like sound science, not 
political science.
    Mr. Fox. And we are doing our best----
    Mr. Frelinghuysen. We are counting on you.
    Mr. Fox. And as part of sound science, we need to look at a 
number of bioaccumulation factors, for example, and we are 
going to be coming up with new criteria to assure that the 
environment is protected, and these criteria will be out for 
public review, as I said, this spring. And we have already 
shared some of these discussions with the Army Corps of 
Engineers. We plan on talking with the States also before this 
goes out for public review, and then we will have a public 
debate about the new criteria.
    Mr. Frelinghuysen. Thank you. Be sure to include us in 
those discussions as well.
    Mr. Fox. Absolutely.
    Mr. Frelinghuysen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Price?

                               SUPERFUND

    Mr. Price. Thank you, Mr. Chairman.
    I want to welcome all of you here today, and I first would 
like to address my first question to Mr. Fields having to do 
with the Solid Waste and Emergency Response programs and 
Superfund in particular.
    In July, GAO issued a very positive report on the efforts 
to clean up toxic sites under the Superfund program. According 
to this report, of the 1,231 sites on your national priority 
list, work on 595 sites had been completed at the time of that 
report.
    The report also states that in the additional sites, 
approximately two-thirds of the cleanup work was complete or 
well underway.
    Do you in general terms agree with these conclusions? Is 
there any update that you would want to add? And could you tell 
us what that means for the future of the Superfund program in 
terms of funding requirements?
    Mr. Fields. Yes, we do agree with that GAO report. 
Obviously, there has been some update since that report was 
completed. We now have completed construction at 680 sites on 
the Superfund list, which is about 52 percent of the Non 
Federal Facility on the NPL sites. We now have construction 
underway at more than half of the others, so 92 percent of the 
Superfund sites either have construction complete or 
construction underway.
    We will have 64, or roughly two-thirds, of the Superfund 
site construction complete at the end of fiscal year 2002. We 
believe the administrative reforms which have allowed us to 
achieve 85 construction completions each year for the last 3 
years have been working to reduce costs by 20 percent and 
reduce time by 20 percent.
    I think for the future, the last part of your question, we 
still, though, recognize there is still more work to be done. A 
study we did in 1997 indicated that to complete the remainder 
of the Superfund sites, the private sites on theFederal 
Superfund list would cost another $13.6 billion. That did not include 
the approximately 80 sites that have been added to the list since 1997. 
This means that we still are going to need some substantial funding 
along the lines of what we are requesting in the fiscal year 2001 
budget for the next 5 or 6 years to deal with that backlog of sites 
that still need construction completion. But we think because of the 
job we have done with the administrative reforms where we have saved 
costs and made the process work better, the cost burden will be not as 
great. But we still need a substantial source of funding to complete 
the job of getting the remainder of the roughly 50 percent of the 
Superfund site construction completed that are on the current list as 
well as deal with any additions that get added over the next several 
years.

                            Superfund: Niehs

    Mr. Price. All right. Thank you.
    Let me turn to the portion of the Superfund program that 
deals with research. This research--is funded through EPA but, 
as you know, is carried out by the National Institute of 
Environmental Health Sciences within NIH. That research item is 
being reduced in the President's 2001 budget, and I would like 
to ask you why. Is this just a matter of money, or do you have 
concerns about the quality or relevance of the science that is 
being supported by these projects?
    Mr. Fields. No. We are very supportive of the work that 
NIEHS has been doing for a number of years. That request for 
$48.5 million for NIEHS represents what the administration has 
consistently requested for the last 4 years for NIEHS. Congress 
has increased their budget this year, for example, to $60 
million, but what the President has requested is consistent 
with what we have been requesting for the National Institute 
for Environmental Health Sciences for the last several years.
    We have tried to balance cleanup dollars versus research 
needs, which are very important. We have reflected that with a 
substantial budget of almost $50 million we are requesting. But 
as you recall, Congress cut the Superfund budget for fiscal 
year 2000 by $100 million, so we have got to make some tough 
choices when the budget is being cut by $100 million, which 
means we won't be able to start 15 new construction projects. 
You have got to balance how much you devote to the critical 
response needs to get sites cleaned up versus what you also 
need to do critical research.
    So we have had to balance those things. Keep in mind that 
the administration request for NIEHS has consistently been the 
same for the last 4 years while at the same time the Superfund 
budget is taking a $100 million hit in fiscal year 2000. So we 
have had to balance that. We think that the President's budget 
request of $48.5 million will allow NIEHS to do the critical 
research that they have been doing for the last several years, 
as well as implement as part of that budget a $23 million 
training program, which we believe is also important.
    Mr. Price. Well, focusing on that research budget, though, 
this has been going on at the $60 million level, as you said, 
and you are talking about a substantial reduction. But you are 
saying that doesn't imply that some of that research is 
defective or dispensable.
    Mr. Fields. No, we are not trying to make any judgment at 
all regarding, the quality of the research. We believe NIEHS 
has done some important work for us, both in the research arena 
and training arena. This budget request reflects the reality of 
setting priorities in the overall budget.
    The Superfund budget has basically four pies: 70 percent of 
the budget goes to response and cleanup; 10 percent goes to 
enforcement; 10 percent goes to management and support; and 10 
percent goes to other Federal agencies like NIEHS. We, as an 
administration, have consistently maintained that request at 
the same level while at the same time the response portion of 
the budget, which is where the critical cleanups are being 
done, is being hit by a substantial reduction this year.
    Mr. Price. And the Congress has rather consistently built 
on that request, and so that is really the baseline we are 
working from. According to NIH, all 17 research centers that 
are currently funded through Superfund are up for recompetition 
this spring. Do you have any idea how your proposed reductions 
would affect this competition?
    Mr. Fields. Well, Congressman, we have advised NIEHS of 
research that would be most relevant to our needs in Superfund, 
and scientists from across the Agency participated as members 
of the peer review panels that reviewed the proposals for the 
new research that will be conducted. We believe that with this 
budget request more than $25 million would be available to do 
research by these universities under the Superfund Basic 
Research Program. We believe that substantial, critical, good 
research can be done with that amount of money. We think that 
the budget request that we are submitting for 2001 will still 
allow those university programs to continue to do very 
important work in support of the Superfund program.
    Mr. Price. All 17 research centers?
    Mr. Fields. Yes. Obviously, when you are funding them at a 
level which is roughly a $10 million reduction. I recognize 
that that means that those individual universities will not get 
as much money, but they still will get a substantial amount of 
money to do important research in the Superfund program.
    We have got to keep in mind that in addition to the 
research that NIEHS is doing, EPA also funds a very important 
research program for the Superfund program through the Office 
of Research and Development. The Agency for Toxic Substances 
and Disease Registry in Atlanta is also doing important 
Superfund research, and all of that is being balanced as we 
consider the overall funding request for research out of 
Superfund. NIEHS is obviously a major player, but they are not 
the only player that is doing important research here.

                         CLEAN WATER ACT--TMDL

    Mr. Price. All right. Well, thank you. We obviously are 
going to have to look at this very carefully as we formulate 
the final bill.
    Let me turn to Administrator Fox, if I might, in the time I 
have remaining here. I would like to turn to the total maximum 
daily load regulations. I would like to ask you what the 
current status of implementing the TMDL provisions of the Clean 
Water Act are. How many water bodies now have TMDLs? What is 
the estimated number of remaining water bodies that will 
require TMDLs?
    Mr. Fox. Starting backwards, our estimate of the number of 
water bodies that will require TMDLs is approximately 20,000. 
Under our current proposal, the States will have a 15-year 
period to do that. There are approximately, I want to say, 
1,000 TMDLs that have been completed or are getting close to 
being completed, and I can get you that specific information.
    I think a little bit of context on this is important, if 
you----
    Mr. Price. Was there some kind of schedule for establishing 
these TMDLs in the Clean Water Act? What has the timetable been 
in your own planning, and what has been the source of the delay 
in establishing these TMDLs? Obviously, this has not moved 
along very rapidly.
    Mr. Fox. This goes to one of the reasons I think it is very 
important that we move forward on our new regulations. There is 
currently no requirement for the States to have a date certain 
by which they will have TMDLs, and our proposal allows them up 
to 15 years.
    The reality is that we are finding a number of courts 
around the country are giving us time frames that I believe, 
frankly, are unworkable. We have some courts that are giving us 
7-year time frames for some states. I believe it is very 
important to have federal regulations that outline our time 
expectation, so that we can give the states the appropriate 
amount of time to work with our communities to develop cost 
effective solutions.
    Mr. Price. So what is the status of that though? You have 
this pressure from these court decisions.
    Mr. Fox. We have little discretion from some of these court 
decisions. Our proposal right now is that we would finalize our 
suggested revisions to this program by this summer. We are 
looking towards the end of June to finalize our proposal. They 
would become effective for the next state submission of their 
list, which would happen over the course of the next two years 
after that.
    Our proposal is designed to give the state and local 
governments the maximum flexibility in solving these problems 
themselves as opposed to having it being dictated by the courts 
or by the federal government.
    Mr. Price. I am getting the high sign from the chairman. I 
do want to pursue this, and we will do it in the second round 
of questions.
    Mr. Prescott. Thank you.
    Mr. Walsh. Mr. Knollenberg.

                        NO<INF>X </INF>SIP CALL

    Mr. Knollenberg. Mr. Chairman, thank you very much. And 
welcome, Panel.
    I want to relate to the NO<INF>X</INF> SIP call situation 
very briefly. Last year when Congress passed the VA/HUD 
appropriations bill, the conferees took note of the fact that 
it was a longstanding linkage of the NO<INF>X</INF> SIP call 
and the 126 petitions, and we encouraged EPA to maintain that 
linkage, notwithstanding the pending litigation at that time. I 
recall that when Administrator Browner testified a few days 
ago, she also took note of that linkage, and indicated a desire 
to retain it. I assume all of you would agree with that; is 
that right? It would be Mr. Perciasepe.
    Mr. Perciasepe. Thank you, Mr. Knollenberg. We are still in 
the process of evaluating the recent court ruling on the 
NO<INF>X </INF>SIP call. As the Administrator said, our 
objective would be to provide flexibility to the states, as 
envisioned under the NO<INF>X </INF>SIP call, as to how they 
would construct their plans to achieve these goals. In 
addition, we are committed to keeping some degree of 
coordination between different programs.
    Mr. Knollenberg. The primary objective is to apply the 
NO<INF>X </INF>SIP call to development states, right? And then 
that Section 126 is a fallback authority? I assume you would 
agree, on the basis of what you just said, that----
    Mr. Perciasepe. Well, they are independent authorities in 
the Clean Air Act. One is petitions by states to the agency to 
deal with interstate transport of pollution. The other one was 
born out of a consultation process with states, which everyone 
didn't agree on but nonetheless, it was born out of an 
interstate consultation process. We would like to make sure 
that the states that are involved have the flexibility that was 
envisioned in the NO<INF>X </INF>SIP call to be able to craft 
their plans.
    Mr. Knollenberg. Let me go into specifically now what I am 
leading up to. And as you know, the NO<INF>X </INF>SIP call is 
in litigation now, and with a 2 to 1 decision by the courts, my 
understanding is it is subject to a rehearing, and the date for 
the submission of the SIP has been stayed by the court. The 
compliance date of May 2003, however, in the NO<INF>X </INF>SIP 
call and the 126 petitions has not been stayed, making the time 
for compliance by the states and the sources between the 
submission date and May 2003 that much shorter as every month 
goes by. So since the states that challenged the EPA rule will 
be given more time to submit their SIPS by the court, if the 
most recent decision is upheld on appeal, that date of May 2003 
in the NO<INF>X </INF>SIP call and 126 petitions for compliance 
by individual companies becomes more unrealistic, and I would 
presume that you would agree that there should be some back end 
time added on to that May 2003 date as would be necessary. I 
think it only fair. Would you agree with that?
    Mr. Perciasepe. Well, I am not sure I do agree with that, 
Mr. Knollenberg. And I think that----
    Mr. Knollenberg. Considering the link between the two?
    Mr. Perciasepe. Well, we have already moved ahead on the 
126 petitions, and truly, 50 percent of the emission reductions 
that are covered under the NO<INF>X</INF> SIP call are required 
by May 2003 under the 126 petitions. And the court specifically 
did not stay EPA's 126 action when it was asked to do so. Now, 
it is true that the court will still hear the merits of that 
case, but it did not stay the 126 action. So, if you wanted to 
dissect it a little bit, 50 percent of the emission reductions 
that are covered under the SIP call are already under an 
unstayed agency action on state petitions that require sources 
to complete their work by May of 2003.
    But, I have to say that we are still evaluating the case 
that was just completed by the D.C. Circuit, as you mentioned, 
and so I would reserve all the final answers on these issues. 
Nonetheless, there clearly are actions out there that keep that 
2003 date in a pretty active----
    Mr. Knollenberg. We have some concerns about, obviously, 
hoping that we can get some back end time if that were to 
develop into a scenario where we would be forced to--almost 
with no opportunity to----
    Mr. Perciasepe. I note that from your questions.

                        GREAT LAKES INITIATIVES

    Mr. Knollenberg. I want to get into this Great Lakes 
Initiative, and I brought this up with the administrator when 
she was here just a few days ago. It is the $50 million 
initiative, and obviously, being from Michigan, I am not 
against any kind of opportunity that would improve the Great 
Lakes situation. We look forward to any number of measures that 
would help us in that regard, but I want to state that what I 
am concerned about is the fact that this money that was 
mentioned in the State of the Union address by the President, 
was practically unknown to any of the rest of us. Now, 
Administrator Browner mentioned that if I had come toher, she 
would have been able to tell me what it was. But here is what we found 
out--and I will repeat what I told her--nobody in Michigan, no member 
of Congress, the House or the Senate, knew anything about this, zero. 
We still don't know much about it, and in questioning of various 
panels, we haven't found much that we can rely upon that would be, I 
think, succinct in offering directions as to what might take place 
here.
    I have discussed this with Mr. Frampton, with I think CEQ, 
and Ms. Browner, and the most significant thing that I have 
gotten from any of them is that it goes back to the '80s, 
something that came up in the '80s, which we haven't touched. 
And what I am concerned about is this political puffery only? 
Is it just political science? Is there somebody back in 
Michigan that is aware of what all of this is? We don't seem to 
know.
    And before you rise to that, Mr. Fox, Ms. Browner also 
stated that previously that this initiative had been discussed 
prior to the State of the Union speech. I don't know where it 
was discussed or what was discussed, or whether it was done 
privately with some individual or individuals, but Congress, 
which authorizes most of these programs--and they were 
overlooked here--knows nothing about this.
    Mr. Fox. First----
    Mr. Knollenberg. And why weren't Michigan members of the 
House and the Senate given information on this?
    Mr. Fox. First, I would be happy to give you any number of 
details that you would like about our ideas for the program, 
and would be happy to spend as much time as you would like on 
that.
    In terms of the question of notification, frankly, we 
typically do not present information that is in the 
administration's budget before the President announces the 
budget. That is generally the ground rule that this 
administration and previous administrations have been----
    Mr. Knollenberg. Ms. Browner said that, ``If you had come 
to me'', she could have told me.
    Mr. Fox. Well, I was here for her testimony, and I think 
the intent of her explanation was that we were trying to solve 
a long-term problem that in fact grew out of the 1980s. When 
the US and Canada got together and they identified a series of 
what we call ``areas of concern'', which are places where water 
quality is very poor throughout the Great Lakes. There are a 
total of 43, in either U.S. or Canadian water. There has been 
tremendous progress over the last decade or more in resolving 
some of these problems, but one of the limiting factors is the 
lack of money to implement some of the cleanup projects in 
these areas of concern.
    Mr. Knollenberg. Is money coming from someplace else?
    Mr. Fox. Currently, many of the dollars are coming from 
state and local governments, and some federal dollars. We have 
currently about an $18 million Great Lakes budget that supports 
some of the work in this area. But our idea with this proposal 
was to provide additional federal funds with a very high 
matching requirement, so that we can in fact encourage 
additional contributions from state and local governments, and 
really try to get on with the task of cleaning up these areas 
of concerns, of which there are 31 either exclusively in United 
States waters or in shared U.S.-Canadian waters.

                   GREAT LAKES: COMMUNITY ELIGIBILITY

    Mr. Knollenberg. Well, you know what has happened, Mr. Fox, 
is that since this initiative came into being, various members 
of Congress--Michigan certainly and I think Wisconsin; I don't 
know where else--are scrambling to put their own bill out there 
to authorize, and I question why the administration wouldn't 
first seek perhaps some authorization from Congress on 
something of this kind. Now I can tell you that there are at 
least three bills that are in the making, and I think largely 
because of the fact they just don't have any faith and 
confidence in what the EPA might be up to. They have concerns. 
We have yet to hear any word about a specific place, town, 
city, community, lake where any of these monies might be 
directed to, and if it is done on the basis of petition, then 
it could come from anywhere. But I think that the 
administration, and frankly, the EPA, has a lot of explaining 
to do on this because we don't know very much, and that is what 
is creating this number of--and by the way, these will be 
authorized if they in fact succeed in getting through the mix 
of the business here in Congress. But I wonder what----
    Mr. Fox. We stand ready to work with you on the 
authorization if members feel that is important. I will tell 
you we have been very specific from the very beginning of this 
about precisely which communities would be eligible to receive 
these funds. As I said, these are communities that have been 
identified for the better part of 15 years. Michigan has in 
fact, got the highest number of communities. I have got a list 
here of precisely which communities would be eligible. That was 
a list we provided when this announcement was made with the 
budget, and I would be happy to make sure you get that.
    Mr. Knollenberg. All right. My final question. I know my 
time is expiring here. Was there any individual in Michigan 
that was notified of any of this, since and before? At the time 
of the State of the Union speech and since?
    Mr. Fox. We have been working through a process since the 
budget announcement to try and work through a range of issues 
that are raised by a program of this kind. But I am not aware 
of specific communications that happened before the President 
announced the budget, which is the standard operating 
procedure----
    Mr. Knollenberg. Or after?
    Mr. Fox. No, after we have had a number of communications. 
And we will continue to do so.
    Mr. Knollenberg. Who are those individuals?
    Mr. Fox. Well, we don't want to get ahead of congressional 
authorization here, and this----
    Mr. Knollenberg. Well, you already did. You already did.
    Mr. Fox. This committee has not yet, obviously, 
appropriated the funds for that, but we do want to make sure we 
can hit the ground running should the committee decide to 
provide those funds. We have set up an internal process within 
EPA to also reach out to the states so that we can in fact 
develop this program in a way that is most effective of our 
goals.
    Mr. Knollenberg. I would just suggest to you that it would 
be of great interest to us if you would work with us, because 
we would like to know what is up, what your suggestions might 
be, your thoughts might be on this. We have plenty of thoughts 
about it certainly, and we want to work with you and not be in 
the dark about what you are doing. So I just----
    Mr. Fox. We would be happy to do that.
    Mr. Knollenberg. So I just suggest that I look forwardto 
doing just that.
    Mr. Fox. Okay, thank you.
    Mr. Knollenberg. Thank you, Mr. Chairman.
    Mr. Prescott. The gentleman's time has expired. We have a 
general vote. I think we will break at this point and return 
presently. Thank you.
    [Recess.]
    Mr. Walsh. There has been an agreement reached between the 
Chairman of the full committee and the Ranking Member of the 
full committee, that we will not conduct hearings during the 
debate of the rule on the floor on the supplemental. So the bad 
news is we don't get to ask our questions. The good news is, 
you all can go home because we just can't get everybody back 
together. We don't have the room in the afternoon, and we do 
have to finish debate on the supplemental.
    I am really disappointed, because I think the staff did a 
terrific job of getting these hearings together. I think it is 
a great format for us. Hopefully it is for you too. I don't 
know whether we will be able to reschedule or not because of 
the compressed time that we have, but nonetheless, an agreement 
has been reached, so we will honor that.
    We thank you for your testimony this morning. We will 
submit additional questions for the record, and if we can 
reschedule this, I hope you could accommodate that request. 
Thank you very much.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                               I N D E X

                              ----------                              

                    ENVIRONMENTAL PROTECTION AGENCY

                                                                   Page
Acid Rain Deposition.............................................    83
Administrator Browner's Opening Remarks..........................     2
Air Quality Standards............................................    85
CCTI: Greenhouse Gas Emission Reduction..........................    17
Chairman Walsh's Opening Remarks.................................     1
Clean Water Act--TMDL............................................    93
Climate Change Activities: Impact on Economy.....................    16
Climate Change Programs..........................................    16
Climate Change Technology Initiative (CCTI) Activities...........    17
Coral Reef Research..............................................84, 85
Deep Well Injection..............................................    56
Dickey Bill: H.R. 3625...........................................    78
Dredged Material: National Criteria..............................    75
Effect of Guidance Documents.....................................    34
Electric Utilities Permitting....................................    35
Environmental Justice............................................    53
Environmental Justice: Interim Guidance..........................    73
Environmental Justice: Title VI Guidance.........................    54
Everglades Restoration...........................................    55
Food Quality Protection Act (FQPA)...............................    50
Fossil Fuel Combustion--Regulatory Determination.................38, 97
Fossil Fuel Combustion...........................................36, 40
Fossil Fuel Combustion: Bevil Amendment Exemption................    37
FQPA: Residential and Farm Uses..................................    50
FY2001 Initiatives...............................................    49
Great Lakes: Community Eligibility...............................    97
Great Lakes Grants...............................................    24
Great Lakes Initiatives..........................................    95
Great Lakes Program and Great Lakes Grants.......................    27
Homestead Air Force Base: Environmental Impact Statement.........    55
Kyoto: Climate Change Conferences................................    22
Kyoto: Knollenberg Language......................................    23
Kyoto Protocol...................................................    18
Lead Poisoning...................................................33, 86
Louisville Non-Attainment........................................    33
MTBE.............................................................46, 87
MTBE Alternatives................................................    88
Mud Dump Site: Public Perception.................................    77
Mud Dump Site: Disposal Criteria.................................    74
National Air Toxics Assessment (NATA)............................80, 81
National Air Toxics Assessment (NATA): Use of Data...............    83
New York/New Jersey Dredging: Mud Dumping Site...................    73
Non-Point Source Funding Increase................................    22
NOx SIP Call and Section 126 Linkage.............................    70
NOx SIP Call.................................................62, 64, 94
NPDES Backlog....................................................    78
Ocean Dumping Site...............................................    89
Ozone: 1 Hour and 8 Hour Standard................................    70
Ozone Standards..................................................    71
Questions for the Record Submitted by Congressman Cramer.........   561
Questions for the Record Submitted by Congressman DeLay..........   293
Questions for the Record Submitted by Congressman Knollenberg....   366
Questions for the Record Submitted by Congressman Hobson.........   356
Questions for the Record Submitted by Congresswoman Kaptur.......   514
Questions for the Record Submitted by Congressman Walsh..........   222
Questions for the Record Submitted by Congressman Price..........   531
Questions for the Record Submitted by Congresswoman Northup......   487
Questions for the Record Submitted by Congressman Nethercutt.....   579
Questions for the Record Submitted by Congressman Frelinghuysen..   452
Questions for the Record Submitted by Congressman Goode..........   572
Radon in Drinking Water..........................................    11
Radon: Multi-media Challenge.....................................    12
Radon: National Academy of Science Study.........................    12
Ranking Member Mollohan's Opening Remarks........................     2
Research Triangle Park...........................................    49
Superfund........................................................    91
Superfund: Cleanup Progress......................................    30
Superfund: NIEHS.................................................    91
TMDL.............................................................    19
TMDL: Citizen Involvement........................................    79
TMDL Costs...............................................21, 38, 58, 69
TMDL Court Action................................................    67
TMDL Litigation..................................................19, 58
TMDL Proposal....................................................    66
TMDL State Frameworks............................................20, 60
Total Maximum Daily Loads (TMDLs)................................    19
U.S.-Mexico Border Pollution.....................................    28
U.S.-Mexico Border Program.......................................    32
Utilities Lawsuits...............................................    63
Virginia Copper Lawsuit..........................................    57

                                <greek-d>

</pre></body></html>
